<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:46 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin and Specter.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. This Appropriations Subcommittee on Labor, 
Health and Human Services and Education will come to order for 
this hearing on the funding for the Department of Labor.

                          JIM SOURWINE TRIBUTE

    But before we begin, I would like to have us take a moment 
here to pay tribute to someone who has meant a great deal to 
me, to this committee, the Senate, and the mission of the 
Department of Labor. That is Jim Sourwine.
    Jim has been an essential part of the committee's work 
since 1972, when he was detailed to this committee from the 
Department of Labor. So this morning I want to recognize him on 
his retirement from the committee staff.
    For more than 30 years, Jim did his best to keep a low 
profile and stay out of the limelight. But I am sorry, Jim. It 
is time you get the public credit you deserve.
    Jim's outstanding service has made a real difference for 
the American people. When Jim started working at the Department 
of Labor in 1967, the Job Corps program was in its infancy--
just 3-years-old. Today it is a $1.6 billion enterprise, widely 
touted for its performance standards and student outcomes, 
helping more than 60,000 youths each year. Well, it was Jim's 
skill, and expertise, and doggedness that helped make that 
happen.
    He has organized and staffed countless hearings on 
important topics, such as ergonomics and overtime. And whenever 
this subcommittee has faced some sticky legislative problems, 
he has always known just how to solve them. You might say he is 
our default guy. He is our go-to person.
    For example, Jim is the one who figured out how to create a 
stable funding system to handle the fluctuating workloads of 
unemployment insurance claims. So Jim will be missed not just 
for his outstanding work for the committee, we will also miss 
him for how he has treated each of us. Senators and staffers 
alike. Always courteous. Always helpful. He is an 
appropriator's appropriator.
    He has worked for Republicans and he has worked for 
Democrats, back and forth for all these years. He has done it 
with equal diligence and faithfulness to both.
    Now he deserves a chance in retirement to do all the things 
he had less time to do while he slaved here late into the night 
and on weekends, and everything else for all those years. I 
suspect and hope that many of the things he will be doing 
involve golf clubs.
    So, Jim, the committee thanks you for your service, as do I 
personally. We wish you all the best in your retirement.
    I would yield to my esteemed colleague, Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Well, thank you, Mr. Chairman. Thank you 
for scheduling this well-deserved tribute to Jim Sourwine. When 
you go back to 1972, when Senator Warren Magnuson was the 
chairman of this subcommittee, that establishes Jim Sourwine 
with a lot of seniority. More seniority than either the 
chairman or the ranking member have at the present time.
    The staff work that Jim has undertaken has been really 
very, very difficult. Our staffs on the Appropriation Committee 
are called upon to draft, and redraft, and amend, and 
supplement legislation. It is a job which requires a lot of 
overnights, when they have to read out the bill. A lot of 
weekends, when we are into that stage in September, October. It 
is very, very intense work. I think unusually so. Jim has 
undertaken a wide share, focusing on the very difficult issues, 
which the Department of Labor has had.
    I suspect that the golf courses will be seeing a lot more 
of Jim Sourwine in the future than they have in the past. But 
this will give him an opportunity to spend more time with his 
wife, Annette, children, Molly, Matt, and Billy. We will miss 
you, Jim, but we wish you the very best.
    Mr. Sourwine. Thank you.
    Senator Harkin. That is great.
    Madam Secretary.
    Secretary Chao. Yes. Please.
    Senator Harkin. No. Wait, Jim. We are not done, yet.
    Secretary Chao. No. We are not finished yet.

                          JIM SOURWINE TRIBUTE

    On behalf of the Department of Labor, let me also thank Jim 
Sourwine for his 40 years of service to America's workers. As 
the chairman and Senator Specter mentioned, Jim began his 
career at the Job Corps, at the Department of Labor. In 1972, 
he was detailed on a temporary basis. What a detail it has 
been.
    While he may have moved up to the Hill 35 years ago, before 
even the Department's Francis Perkins Building opened in 1974, 
he has dedicated his entire career to the Senate, to working on 
some of the most difficult and significant budgets, 
appropriations issues, facing several very significant 
departments. That is a tremendous accomplishment.
    I have been told that today is the thirty-fifth Labor 
Appropriations hearing that Jim has attended. As you know, 
Chairman Harkin and Senator Specter, Jim has been the Senate's 
institutional knowledge, not only for the Senate, but also for 
the Department of Labor as well.
    He understands these issues. He has always been an honest 
broker. We have valued his judgment, and also, many times, his 
advice. He knows how much this committee has spent on the 
Department's programs and which states they operate. All these 
kinds of details.
    Most of all, I think we all know that at the Department, he 
really appreciates the staff at the Department of Labor, the 
tremendous work that the Department does to advance the 
interest and the concerns of working men and women. So thank 
you, Jim, so much.
    You obviously have had a wonderful time up here. We want to 
wish you the best. We hope that you will take it easy, really 
enjoy yourself, and also get the time that your family so 
richly deserves, and your loved ones as well. Thank you.
    Mr. Sourwine. Thank you all so much.
    I will have to get a copy of the transcript now.
    Senator Harkin. Thank you, Jim. It will never be the same 
without you.
    Well, Madam Secretary, thank you very much. We will now 
turn to our hearing, as soon as I find my right page here.

                           OPENING STATEMENT

    First of all, Madam Chairman, I would like to welcome you 
again to the committee, and return to the subject of today's 
hearing, the budget of the Department of Labor. First and 
foremost, I would be remiss if I did not thank you for the 
great work you did on the Job Corps Center in Ottumwa, Iowa. 
Also in Wyoming and New Hampshire.
    As we just said about the Job Corps, it is interesting that 
this was Jim's deal when he first started. To this day, and 
today, we are still opening new Job Corps centers around the 
country. These three, I think, will be a welcome addition to 
all the other Job Corps centers around the country. So I thank 
you for that. We will see what we do to work together to make 
sure we move these along as rapidly as possible. Whatever else 
we need to do up here.
    Madam Secretary, your Department has several critical 
responsibilities. One is administering Federal labor laws that 
guarantee workers' rights to safe and healthful working 
conditions. Another is helping workers find and prepare for 
work, such as a worker displaced by an employer that is 
relocating overseas and other things.

                    MINE COMMUNICATIONS TECHNOLOGIES

    Now, Madam Secretary, I am a little disturbed by some of 
the progress, or I should say lack of progress being made on 
some of these objectives. Now we had hearings here last month 
on MSHA; the assistant secretary of Mine and Safety Health 
Administration was here. I expressed my disappointment with the 
small number of communications technologies approved by MSHA to 
date.
    We had had that hearing a year ago or so. That was under 
Chairman Specter's reign at that time. We had those hearings. 
We were talking to MSHA about moving ahead on some of these 
technologies. But it does not seem like we are making much 
progress on that.
    Earlier this month, United Mine Workers Association 
reporting on the Sago Mine disaster, found significant 
shortcomings in MSHA's actions that could have prevented the 
deaths of the 12 miners who perished in that tragedy.

                   OIL REFINING INDUSTRY INSPECTIONS

    Last week, the Chemical, Safety, and Hazard Investigation 
Board released a report on the BP Texas City Refinery explosion 
in 2005 that resulted in the deaths of 15 workers and more than 
100 injuries. The Board found that on your watch the 
Occupational Safety and Health Administration has not conducted 
one planned comprehensive inspection in the oil refining 
industry.

                       INTERNATIONAL CHILD LABOR

    I am also concerned, as you might guess, Madam Secretary, 
about the proposed--once again, the fight against international 
child labor. Now this is something that this committee has 
focused on, oh, for 12, 13, 14, years. Something like that. 
Last year, the International Labor Organization's global 
report, ``The End of Child Labor Within Reach,'' stated that 
for the first time, child labor, especially in its worst forms, 
is in decline across the globe.
    Between the years 2000 and 2004, the number of child 
laborers worldwide fell by 11 percent. So we are making real 
progress that could be reversed by the proposed cuts in this 
budget on that.
    So I do not think this is the time to rest on our laurels. 
We are making headway. This Department has been a partner with 
us, as I said, going back a dozen years maybe or so in the 
efforts on child labor. I hope we are not going to be backing 
off on that now.

                           DOL BUDGET REQUEST

    We may get into talking about ergonomic standards, 
enforcing the requirements for protective equipment. Effective 
enforcement under the Family Medical Leave Act. But it is not 
just worker protection program. Your budget proposes a cut of 
$1 billion in job training programs.
    Earlier this month, Bill Gates testified before the HELP 
Committee, on which I also sit, the authorizing committee, and 
he said, and I quote, ``Workforce enhancement should be treated 
as a matter of national competitive survival.'' He went on to 
say, ``It is a down payment on our future. An extremely vital 
step to secure American competitiveness for future generations 
and to honor the American ideal that every single one of us 
deserves the opportunity to participate in America's success.'' 
So I wonder what kind of a future can we expect if we are going 
to be cutting our budget by $1 billion.
    So Madam Secretary, that is what we are here to talk about, 
is the budget. Obviously, we are going to have some 
disagreements in that budget, because these values and 
policies, I think, this committee has supported strongly in the 
past under both Democratic and Republican chairmen.
    We just cannot turn a blind eye towards employers who are 
denying their workers a safe place to work. Our continued 
success, I believe, in this country depends on investments that 
we make in workforce. Workforce training.
    So again, we will get into more of that later and talk 
about these proposed cuts and stuff. But first, I would 
recognize my ranking member, Senator Specter, for any comments.
    Senator Specter. Thank you. Thank you, Mr. Chairman. Madam 
Secretary, I join the chairman in welcoming you to this 
hearing. I compliment you, on your seventh year of service to 
the administration of President Bush. If you are not the 
longest serving secretary, you are certainly tied, because you 
have been here for the entire tenure of the President.
    At the outset, I want to thank you for the Department's 
prompt response and your prompt response to the inclusion of 
$25 million in the continuing resolution--directed at at-risk 
youth and tremendous problems in juvenile crime across this 
country.
    It takes very prompt action to get those funds moving, so 
that they will be available for the start of the school year, 
and perhaps even sooner.
    I share the concern about the budget. I know we live in an 
era of severe budget constraints. I know we made a large--or we 
are in the process of making a large appropriation on an 
emergency basis for the administration's programs, including 
the funding in Iraq.
    But it seems to me that with the very heavy 
responsibilities which your Department has, that a decrease in 
the budget of $1.1 billion, almost 10 percent from the fiscal 
year 2007 level, is hard to sustain.
    If there is going to be this kind of a cut, there are going 
to have to be some very important programs affected. The $1 
billion decrease in job training and employment services, is a 
real problem. It impacts directly upon juvenile crime. As does 
the $55 million cut in the Job Corps.
    You have the prisoner reentry initiative and the 
reintegration of ex-offenders, with a decrease of $25.4 
million. These cuts will be very, very difficult to sustain, 
given the issues which that funding addresses.
    We will, obviously, be taking a very, very close look at 
these recommendations. On our constitutional responsibility to 
appropriate, we will be putting our own imprint on the budget, 
as we always do. But we thank you for your hard work and your 
diligence, and look forward to your testimony.
    Senator Harkin. Thank you very much. Secretary Elaine Chao 
was sworn in as the twenty-fourth Secretary of Labor on January 
31, 2001. She is the first Asian-American woman appointed to 
the President's cabinet in U.S. history.
    Secretary Chao was president and CEO of the United Way 
Foundation from 1992 to 1996, and served as Director of the 
Peace Corps and Deputy Secretary of the Department of 
Transportation under former President Bush.
    Most recently, she was a distinguished fellow at the 
Heritage Foundation. Secretary Chao received her MBA from 
Harvard Business School and her undergraduate degree from Mount 
Holyoke College. She also studied at M.I.T., Dartmouth, and 
Columbia University.
    Madam Secretary, my first question for you--are you the 
longest-serving Labor secretary?
    Secretary Chao. No. I am not.
    Senator Harkin. Oh.
    Secretary Chao. Frances Perkins was Secretary of Labor for 
12 years, under Franklin Delano Roosevelt. There was also Mr. 
Wilson.
    Senator Harkin. Has anyone served longer as a secretary in 
the administration of George W. Bush?
    Secretary Chao. I am probably the longest serving. Since 
the 1960s, I am probably the longest-serving Secretary of 
Labor.
    Senator Harkin. Very good. Welcome, Madam Secretary. And 
please proceed.

                SUMMARY STATEMENT OF HON. ELAINE L. CHAO

    Secretary Chao. Thank you. Mr. Chairman, I have got a 
longer statement, which I will leave for the record. And then I 
have a shorter statement. I will go through it very quickly.
    Senator Harkin. That will be great.
    Secretary Chao. I will just go through some of the numbers, 
which we know already. But just also emphasize some of the 
priorities.
    Chairman Harkin, Senator Specter, thank you for the 
opportunity to present the administration's fiscal year 2008 
budget for the Department of Labor. The total budget for the 
Department is $50.4 billion, of which $10.6 billion is for 
discretionary spending. The Department's fiscal year 2008 
budget focuses on four overall priorities: Protecting workers' 
health and safety; protecting workers' pay, benefits, pensions, 
and union dues; securing the employment rights of America's 
veterans; and increasing the competitiveness of America's 
workforce.
    In fiscal year 2008, $1.5 billion is requested for the 
Department's worker protection programs. The fiscal year 2008 
budget request for MSHA is $313.5 million, and 2,306 FTEs. The 
request will allow MSHA to continue implementing the historic 
MINER Act. This request also includes $16.6 million 
specifically targeted to retain the 170 mine and safety 
enforcement personnel that were added in 2006 and 2007.
    The budget would support MSHA's efforts to provide for the 
following: approval of emergency response plans; strengthening 
compliance for increased civil penalties; improving the safety 
of abandoned areas of mines and increasing the effectiveness of 
mine rescue teams.
    This request will also enable MSHA to continue testing and 
evaluating promising new technologies that could be deployed in 
support of mine rescue operations.
    The fiscal year 2008 request also includes $490.3 million 
and 2,186 FTEs for OSHA. This request will enable OSHA to focus 
its enforcement efforts on high hazard industries that 
typically employ disproportionate numbers of low-wage, 
vulnerable workers.
    The fiscal year 2008 budget request before this committee 
for the Employment Standards Administration is $699.6 million 
and an FTE of 4,082. The request for ESA includes $182.4 
million, and 1,336 FTEs for the wage and hour division. The 
request for wage and hour includes funding for additional 
inspectors, enhanced enforcement in low waging industries, and 
a legislative proposal to increase civil monetary policies 
associated with the violation of child labor laws.
    The ESA request also includes $84.2 million and 625 FTEs 
for the Office of Federal and Contract Compliance Programs, 
OFCCP, to protect workers from discrimination by, obviously, 
Federal contractors. Another $106.6 million and 867 FTEs are 
requested for the Office of Workers' Compensation Programs. ESA 
also requests an additional $56.9 million and 369 FTEs for the 
Office of Labor-Management Standards.
    For the Employee Benefits Security Administration, EBSA, 
which protects the health and retirement benefits of 150 
million workers, the fiscal year 2008 budget request is $147.4 
million, and 855 FTE.
    This request will enable EBSA to implement important 
regulations required under the Pension Protection Act, 
including making it easy for Americans to save for retirement, 
ensuring that the pension promises made to workers are kept, 
and that retirement security for workers is, indeed, 
maintained.
    Then on your point, Mr. Chairman, as we all know, the 
United States is transitioning to a knowledge-based economy, 
closely intertwined with the worldwide economy. Our country's 
worker training programs need to keep pace with these 
developments. We need to equip workers with the skills needed 
to succeed in this new economic environment.
    The fiscal year 2008 budget request includes $8.3 billion 
and 1,196 FTEs for the Department's Employment and Training 
Administration, ETA. This request includes proposals for 
innovative reforms that will increase the quality of the 
training offered, as well as the number of workers trained.
    The next priority is this Nation's commitment to our 
veterans must be honored. The Department is committed to 
providing returning veterans with the support needed to make 
the transition back to the non-military workforce a smooth and 
successful one.
    So for the Department's Veterans' Employment and Training 
Service, the fiscal year 2008 budget request is $228.1 million 
and 244 FTEs. This will enable VETS to maximize employment 
opportunities for veterans and protect their employment and re-
employment rights.

                           PREPARED STATEMENT

    So, Mr. Chairman, the Department's fiscal year 2008 budget 
request will enable us to meet our key priorities. That is 
protecting workers, preparing workers for the 21st century 
workforce and economy, ensuring veterans' employment and re-
employment rights, and maintaining fiscal discipline.
    I will be happy to answer any questions.
    Senator Harkin. Yes, your statement, full statement will be 
made part of the record in its entirety.
    Secretary Chao. Thank you.
    [The statement follows:]

               Prepared Statement of Hon. Elaine L. Chao

    Good morning Mr. Chairman, Ranking Member Specter, distinguished 
Members of the Subcommittee, ladies and gentlemen. Thank you for the 
opportunity to appear before you today to present the fiscal year 2008 
budget for the Department of Labor.
    The total request for the Department in fiscal year 2008 is $50.4 
billion and 16,869 FTE, of which $15.4 billion is before the Committee. 
Of that amount, $10.6 billion is requested for discretionary budget 
authority. Our budget request will allow us to build on the 
accomplishments achieved in recent years and enable the Department to 
meet its critical priorities for fiscal year 2008, while helping to 
achieve the President's deficit reduction goals by reforming programs 
and reducing or eliminating ineffective or duplicative activities.
    As the President has noted, our country's economy is strong and 
growing. We have seen:
  --42 months of uninterrupted job growth;
  --7.6 million new jobs created since August 2003;
  --An unemployment rate that has fallen to 4.5 percent since June 
        2003;
  --An increase in average hourly earnings of 4.1 percent over the past 
        12 months (before adjustment for inflation); and
  --GDP growth of 3.1 percent in 2006.
    These achievements are a tribute to the flexibility of our 
workforce and the dynamism of our economy. The Department's fiscal year 
2008 budget will promote continued economic growth by strengthening the 
health, safety, and competitiveness of our Nation's vibrant workforce.

                         RECENT ACCOMPLISHMENTS

    As an introduction to the fiscal year 2008 budget, I would like to 
highlight some of the Department's recent accomplishments, which 
reflect the strong enforcement of worker protection laws and efforts to 
assist American workers. For example:
  --In 2006, the Employee Benefits Security Administration achieved 
        monetary results in the protection of workers' pension and 
        health benefits that were 94 percent higher than in 2001.
  --Since 2001, there has been a nearly 7 percent reduction in the 
        fatality rate, an achievement that can be partially attributed 
        to the Occupational Safety and Health Administration's 
        enforcement and cooperative programs. The fatality rate among 
        Hispanic workers has fallen by 18 percent during the same 
        period. There has been a more than 13 percent reduction in the 
        overall injury and illness rate since 2002.
  --In 2006, as a result of the Wage and Hour Division's enforcement, 
        more than 246,000 workers received $172 million in back wages, 
        including overtime. This is a 30 percent increase over the 
        amount of back wages recovered in 2001.
  --The Office of Federal Contract Compliance Programs has posted 
        record results in enforcing equal opportunity rights for 
        employees of Federal contractors, with an increase in financial 
        recoveries of nearly 80 percent between 2001 and 2006. In 2006, 
        OFCCP recovered $52 million in back pay, salaries, and benefits 
        for over 15,000 employees.
  --The Employment and Training Administration has enhanced its 
        services to American workers through innovative initiatives 
        designed to link economic development, education and workforce 
        development.

                      FISCAL YEAR 2008 PRIORITIES

    The Department's fiscal year 2008 budget seeks to build on the 
success of previous years. The budget features three overall 
priorities: protecting workers' safety and health; protecting workers' 
pay, benefits, pensions, and union dues; and increasing the 
competitiveness of America's workforce.

                 PROTECTING WORKERS' SAFETY AND HEALTH

    The 2008 budget includes $1.5 billion in discretionary funds for 
DOL's worker protection activities. This funding level will enable the 
Department to continue its record-setting protection of workers' 
health, safety, pay, benefits and union dues.
Mine Safety and Health Administration (MSHA)
    The fiscal year 2008 budget request for MSHA is $313.5 million and 
2,306 FTE. The request will allow MSHA to continue implementing the 
historic Mine Improvement and New Emergency Response (MINER) Act, the 
most sweeping mine safety legislation in 30 years.
    Since the President signed the MINER Act of 2006, the Department 
has taken aggressive action to implement and enforce the Act. For 
example, we have:
  --Established new policies regarding the approval of Emergency 
        Response Plans and the creation of a Family Liaison program;
  --Proposed regulations to increase the Civil Penalties for violations 
        of safety and health standards;
  --Issued information bulletins regarding the provision of post-
        accident breathable air to trapped miners and guidance for 
        sealing abandoned areas of mines;
  --Initiated rulemaking to develop new standards for Mine Rescue 
        Teams;
  --Coordinated the first meeting of the Belt Air and Conveyor Belt 
        Materials technical study panel to review the use of belt air 
        to ventilate the mine production area;
  --Begun to aggressively hire and train 170 new mine safety 
        enforcement personnel; and
  --Issued an Emergency Mine Evacuation Final Rule (ETS).
    The fiscal year 2008 budget will allow the Department to continue 
these efforts and improve the health and safety of all miners. The 
request includes $16.6 million specifically targeted to retain the 170 
coal enforcement personnel that were added in 2006 and 2007 in response 
to the increase in coal mine fatalities. The budget will support MSHA's 
efforts to provide for approval of Emergency Response Plans; strengthen 
compliance through increased civil penalties; improve the safety of 
abandoned areas of mines; and increase the effectiveness of mine rescue 
teams. The request allows MSHA to continue testing and evaluating 
promising new technologies that could be deployed in support of mine 
rescue operations.
Occupational Safety and Health Administration (OSHA)
    The fiscal year 2008 budget request for OSHA is $490.3 million and 
2,186 FTE. The request provides resources to support 89,700 Federal and 
State safety and health inspections.
    With an emphasis on enforcement, complemented by compliance 
assistance, OSHA will focus on those high-hazard industries where we 
typically find large numbers of non-English speaking workers. In fiscal 
year 2008, all elements of OSHA's intervention strategies--enforcement, 
training, compliance assistance, outreach, cooperative programs and 
guidelines--will be brought to bear to protect this vulnerable 
population. The request for OSHA includes $4.6 million and 13 FTE to 
expand OSHA's Voluntary Protection Programs (VPP), a cooperative health 
and safety recognition program that has been very effective in reducing 
illness and injury rates. Employers participating in VPP achieve lost-
time injury and illness rates that are 50 percent lower than their 
industry average.

           PROTECTING WORKERS' PAY, BENEFITS, AND UNION DUES

    The Department will also continue its high priority programs to 
protect workers' pay, benefits, and union dues.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) 
administers and enforces a variety of laws designed to enhance the 
welfare and protect the rights of American workers. The fiscal year 
2008 budget request for administrative expenses for ESA is $699.6 
million and 4,082 FTE.
Wage and Hour Division
    The Wage and Hour Division is responsible for the administration 
and enforcement of a wide range of worker protection laws, including 
the Fair Labor Standards Act, Family and Medical Leave Act, Migrant and 
Seasonal Agricultural Worker Protection Act, worker protections 
provided in several temporary non-immigrant visa programs, and 
prevailing wage requirements of the Davis-Bacon Act and the Service 
Contract Act. These laws collectively cover virtually all private 
sector workers, as well as State and local government employees.
    The fiscal year 2008 budget also includes resources to hire 
additional Wage and Hour investigators to strengthen enforcement 
resources for industries and workplaces that employ low-wage, immigrant 
workers. The budget also re-proposes legislation to increase civil 
monetary penalties associated with violation of child labor laws, 
raising the penalties from $11,000 to $50,000 for violations that 
result in the death or serious injury of youth in the workplace, and 
increasing the penalty to $100,000 for willful or repeat violations 
that result in death or serious injury. The administration expects to 
transmit legislation to the 110th Congress shortly, and urges Congress 
to act swiftly to pass it.
    The fiscal year 2008 budget request for the Wage and Hour Division 
totals $182.4 million and 1,336 FTE, which excludes $31.0 million in 
estimated fee revenue from DOL's portion of the H-1B visa fraud 
prevention fee authorized by the 2004 H-1B Visa Reform Act. Given 
strict statutory limits on the use of these funds DOL has been unable 
to spend more than $5 million in any single year and entered 2007 with 
more than $60 million in unspent balances. The fiscal year 2008 budget 
cancels $50 million of these balances and amends the Immigration and 
Nationality Act to permit a more effective use of the fraud prevention 
fees collected under this provision going forward.
Office of Federal Contract Compliance
    The fiscal year 2008 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $84.2 million and 625 FTE. 
OFCCP is responsible for ensuring equal employment opportunity and non-
discrimination in employment for businesses contracting with the 
Federal Government. OFCCP carries out this mandate by conducting 
compliance evaluations to identify instances of systemic discrimination 
in the workplace, taking appropriate enforcement action, and providing 
relevant and effective compliance assistance programs. During fiscal 
year 2008, OFCCP will use its Active Case Management and Functional 
Affirmative Action Programs to target non-compliant contractors and 
continue to improve the effectiveness of OFCCP's enforcement 
activities, meaning more workers will be protected.
Office of Workers' Compensation Programs
    The fiscal year 2008 discretionary budget request for 
administration of the Office of Workers' Compensation Programs (OWCP) 
totals $106.6 million and 867 FTE to support the Federal Employees' 
Compensation Act (FECA) ($93.4 million) and the Longshore and Harbor 
Workers' Compensation program ($13.2 million).
    The OWCP budget also includes mandatory funding totaling $104.7 
million (including $55.4 million for HHS/NIOSH) and 275 FTE to 
administer Part B of the Energy Employees Occupational Illness 
Compensation Program Act (EEOICPA), and $56.9 million and 189 FTE for 
Part E of the act. EEOICPA provides compensation and medical benefits 
to employees or survivors of employees of the Department of Energy and 
certain of its contractors and subcontractors, who suffer from a 
radiation-related cancer, beryllium-related disease, chronic silicosis 
or other covered illness as a result of work at covered Department of 
Energy or DOE contractor facilities.
    Lastly, OWCP's fiscal year 2008 budget includes $37.6 million in 
mandatory funding and 201 FTE for its administration of Parts B and C 
of the Black Lung Benefits Act, and $52.3 million and 127 FTE in FECA 
Fair Share administrative funding.
    The 2008 budget includes two legislative proposals affecting OWCP 
programs that play a critical role in protecting workers' economic 
security, by providing monetary and medical benefits to Federal 
employees and coal miners whose ability to work has been diminished by 
an occupational injury or illness. The first re-proposes reforms to the 
Federal Employees Compensation Act to update its benefit structure, 
adopt best practices of State workers' compensation systems, and 
strengthen return-to-work incentives. This proposal is expected to 
generate Government-wide savings of $608 million over 10 years. The 
second is a proposal to restructure, and eventually retire, the 
mounting debt of the Black Lung Disability Trust Fund--a debt that now 
approaches $10 billion.
Office of Labor-Management Standards
    The fiscal year 2008 budget request for the Office of Labor-
Management Standards (OLMS) totals $56.9 million and 369 FTE. OLMS 
enforces provisions of Federal law that establish standards for union 
democracy and financial integrity. OLMS conducts investigative audits 
and criminal investigations for embezzlement and other financial 
mismanagement; conducts civil investigations of union officer elections 
and supervises remedial elections where required; administers statutory 
union financial reporting requirements; and provides for public 
disclosure of filed reports. OLMS also administers employee protective 
provisions created under Federal transit legislation.
    The resources requested will allow OLMS to continue to further the 
goals of financial integrity, union democracy, and transparency. The 
budget also supports legislation that would authorize OLMS to impose 
civil money penalties on unions and others that fail to file required 
financial reports on a timely basis.
Employee Benefits Security Administration
    The Department's Employee Benefits Security Administration (EBSA) 
protects the integrity of pensions, health plans, and other employee 
benefits for more than 150 million workers. The fiscal year 2008 budget 
request for EBSA is $147.4 million and 855 FTE. The request includes a 
$5.5 million increase to be supplemented with $2.5 million of agency-
absorbed costs to complete the replacement of EBSA's outdated, paper-
based ERISA Filing and Acceptance System, known as EFAST. I note that 
the amount of the fiscal year 2008 EFAST2 funding request may be 
reduced pending the final resolution of EFAST2 funding in fiscal year 
2007, and we appreciate the opportunity to continue working with the 
committee on this important project. The new electronic filing system 
for Form 5500 reports will strengthen the protection of employee 
benefits by greatly reducing processing times for Form 5500 filings and 
improving the reliability of Form 5500 data. By making data on the 
funding of pension and other benefit plans more transparent and 
accessible, this new system will support the President's efforts to 
strengthen retirement security for the Nation's workers and retirees.
Pension Benefit Guaranty Corporation
    The Pension Protection Act of 2006 made important structural 
reforms to the defined benefit pension system, but further premium 
changes are needed to restore long-term solvency to the pension 
insurance program. The President's fiscal year 2008 budget proposes to 
adjust insurance premiums paid by underfunded pension plans to address 
the nearly $19 billion gap between the liabilities and assets of the 
Pension Benefit Guaranty Corporation (PBGC). Although PBGC will be able 
to pay benefits for some years to come, it is projected to be unable to 
meet its long-term obligations under current law. The proposed reforms 
would improve PBGC's financial condition and safeguard the future 
benefits of workers and retirees.

                PREPARING WORKERS FOR NEW OPPORTUNITIES

Reforming the Workforce Investment System
    The fiscal year 2008 budget request for the Department's Employment 
and Training Administration (ETA) is $8.3 billion in discretionary 
funds and 1,196 FTE, not including the 120 FTE associated with the PERM 
fee legislative proposal. Through innovative reforms, the budget 
request for ETA will allow the Department to increase the 
competitiveness of the American workforce in a knowledge-based economy.
    The United States competes in a global economy that is far 
different from the international markets of the past. As our Nation's 
economy and businesses transform to meet the challenges of the 21st 
century, so too must the government systems and structures that support 
our economic growth and job creation.
    The President has sought to transform worker training programs into 
a demand-driven system that prepares workers for jobs in growth sectors 
of the economy. The workforce investment system should recognize and 
strengthen workers' ownership of their careers, and provide more 
flexible resources and services designed to meet their changing needs.
    American workers will need higher levels of education and skills 
than at any time in our history, as evidenced by the fact that almost 
90 percent of new jobs in high-growth, high-wage occupations are 
expected to be filled by workers with at least some post-secondary 
education. However, the current workforce investment system does not 
provide the necessary educational and training opportunities for 
workers. Too much money is spent on competing bureaucracies, overhead 
costs, and unnecessary infrastructure, and not enough on meaningful 
skills training that leads to employment opportunities and advancement 
for workers.
    To increase the quality of training offered, as well as the number 
of workers trained, the Department proposes legislative reforms to 
consolidate funds for the following programs into a single funding 
stream:
  --Workforce Investment Act (WIA) Adult Program;
  --WIA Dislocated Worker Program;
  --WIA Youth Program; and
  --Employment Service programs (including Employment Service formula 
        grants, labor market information grants, and grants for 
        administration of the Work Opportunity Tax Credit and the 
        Welfare-to-Work Tax Credit).
    States would use these funds primarily to provide Career 
Advancement Accounts (CAAs) to individuals who need employment 
assistance. CAAs are self-directed accounts of up to $3,000, an amount 
sufficient to finance approximately 1 year's study at a community 
college. The accounts could be renewed for one additional year, for a 
total 2-year account amount of up to $6,000 per worker. CAAs would be 
used to pay for expenses directly related to education and training. 
The accounts would be available to both adults and out-of-school youth 
entering the workforce or transitioning between jobs, and incumbent 
workers in need of new skills to remain employed. The funds would also 
be used by States to provide basic employment services such as career 
assessment, workforce information, and job search assistance to job 
seekers. By removing bureaucratic restrictions that can prevent workers 
from being trained, increasing the flexibility of State and local 
officials to shift funding to where it is most needed, and requiring 
the majority of dollars in the system to be spent on training instead 
of infrastructure, these reforms will significantly increase the number 
of individuals who receive job training and attain new and higher-level 
job skills.
Community-Based Job Training Initiative
    The fiscal year 2008 budget provides $150 million for the fourth 
year of grants under the President's Community-Based Job Training 
Initiative. This competitive grant program leverages the expertise of 
America's community colleges and takes advantage of the strong natural 
links between community colleges, local labor markets and employers to 
train workers for jobs in high-demand industries. In October 2005, the 
Department awarded the first grants totaling $125 million to 70 
community colleges in 40 States. A second competition for Community-
Based Job Training Grants was held in the summer of 2006, and in 
December 2006, the Department awarded $125 million in grants to 72 
entities in 34 States. These grants will be used to increase the 
capacity of community colleges to provide training in local high 
growth, high demand industries and train new and experienced workers 
for jobs in these industries. The Department plans to hold the 
competition for the fiscal year 2007 Community-Based Job Training 
Grants in the summer of 2007.
YouthBuild
    In the summer of 2006, Congress unanimously passed the YouthBuild 
Transfer Act to transfer the YouthBuild program from the Department of 
Housing and Urban Development to the Department of Labor, as 
recommended by the White House Task Force on Disadvantaged Youth. The 
fiscal year 2008 budget includes $50 million for YouthBuild to provide 
competitive grants to local organizations for the education and 
training of disadvantaged youth age 16-24. Under these grants, youth 
will participate in classroom training as well as learn construction 
skills by helping to build affordable housing. Within DOL, YouthBuild 
will take advantage of better connections to the workforce investment 
system, closer association with occupational safety and health and 
youth employment protection programs, stronger ties to Job Corps and 
apprenticeship programs, new links to the President's High Growth Job 
Training Initiative, improved access to the postsecondary and community 
college system, and stronger connections to employers and local labor 
markets.
Reintegration of Ex-Offenders
    The fiscal year 2008 budget requests $39.6 million for a program 
that brings together the President's Prisoner Re-entry Initiative (PRI) 
and the Responsible Reintegration of Youthful Offenders (RRYO) program. 
This new consolidated program would avoid the duplication of efforts 
that currently exists between PRI and RRYO and adopt the practices of 
these two efforts that have shown great promise in boosting employment 
and reducing recidivism among ex-offenders. Through competitively 
awarded, employment-centered grants that holistically address the 
multiple challenges facing offenders upon their release, the 
Reintegration of Ex-Offenders program would tap the unique strength, 
networks, and relationships of faith-based and community organizations 
to reach out to ex-offenders to help them find jobs and build new 
lives.
Strengthening Unemployment Insurance Integrity and Promoting Re-
        Employment
    The fiscal year 2008 budget continues the administration's efforts 
to ensure the financial integrity of the Unemployment Insurance (UI) 
system, and help unemployed workers return to work promptly. Our three-
pronged approach includes:
  --A package of legislative changes that would prevent, identify, and 
        collect UI overpayments and delinquent employer taxes. These 
        changes include: allowing States to use a small amount of 
        recovered overpayments and collected delinquent taxes to 
        support additional integrity efforts; authorizing the U.S. 
        Treasury to recover UI benefit overpayments and certain 
        delinquent employer taxes from Federal income tax refunds; 
        requiring States to impose a penalty on UI benefits that 
        individuals obtain through fraud and using those funds for 
        integrity activities; and requiring employers to include a 
        ``start work'' date on New Hire reports to help identify 
        persons who have returned to work but continue to receive UI 
        benefits. We estimate that these legislative proposals would 
        reduce overpayments and increase recoveries and delinquent tax 
        collections by a total of $2.3 billion over 5 years.
  --A $40 million discretionary funding increase to expand Reemployment 
        and Eligibility Assessments (REAs), which review UI 
        beneficiaries' need for reemployment services and their 
        continuing eligibility for benefits through in-person 
        interviews in One-Stop Career Centers. This initiative already 
        has yielded quicker returns to work for UI beneficiaries. We 
        estimate that annual benefit savings of $205 million could 
        result from this investment.
  --A legislative proposal to permit waivers of certain Federal 
        requirements to allow States to experiment with innovative 
        projects aimed at improving administration of the UI program, 
        and speeding the reemployment of UI beneficiaries.
    We urge the Congress to act on these important proposals to 
strengthen the financial integrity of the UI system and help unemployed 
workers return to work.
Senior Community Service Employment Program
    The fiscal year 2008 budget requests $350 million for the Senior 
Community Service Employment Program (SCSEP). The Department is pleased 
that the recently reauthorized Older Americans Act includes many of the 
administration's reform proposals to streamline SCSEP and increase the 
number of persons who may enjoy the benefits of unsubsidized 
employment. The Department expects that legislative reforms will 
improve program efficiency and reduce costs compared to the previous 
program design. We are optimistic that the important reforms included 
in SCSEP reauthorization--including the elimination of inappropriate 
fringe benefits, caps on the duration of program participation, 
additional flexibility to provide training, and increased emphasis on 
placement in unsubsidized employment--will allow SCSEP to use funds 
more efficiently, serve more participants per dollar, and allow 
participants to achieve greater economic self-sufficiency than ever 
before.
Job Corps Transfer
    The budget includes $1.5 billion to operate a nationwide network of 
123 Job Corps centers in fiscal year 2008. Job Corps provides training 
to address the individual needs of at-risk youth and ultimately equip 
them to become qualified candidates for the world of work. In the 
fiscal year 2006 appropriation act, the Congress directed the 
Department to transfer the Job Corps program out of the Employment and 
Training Administration (ETA) into the Office of the Secretary. The 
2008 budget proposes to return the program to ETA, where it had been 
administered for more than 30 years, to ensure close coordination with 
the other job training and employment programs administered by ETA, 
including the YouthBuild program. Moving the program back to ETA will 
ensure these young people have access to the principal experts on labor 
markets as well as other youth employment programs.

                             OTHER PROGRAMS

Veterans' Employment and Training Service
    This Nation's commitment to our veterans must be honored. No 
veteran should return home without the support that is needed to make 
the transition back to private life a smooth and successful one. For 
the Department's Veterans' Employment and Training Service (VETS), the 
fiscal year 2008 budget request is $228.1 million and 244 FTE. This 
will enable VETS to maximize employment opportunities for veterans and 
protect their employment and reemployment rights.
    The $161.9 million requested for State grants will help over 
approximately 700,000 veterans seeking reemployment services. The 
fiscal year 2008 budget includes $23.6 million for the Homeless 
Veterans Reintegration Program (HVRP), allowing the program to provide 
employment and training assistance to an estimated 15,100 homeless 
veterans. In addition, the budget requests an additional $2.5 million 
to meet the increased demand for Transition Assistance Program (TAP) 
services. It is projected that the number of departing service members 
receiving TAP Employment Workshops will increase from 160,000 in fiscal 
year 2007 to 170,000 in fiscal year 2008. TAP Workshops play a key role 
in reducing jobless spells and helping service members transition 
successfully to civilian employment. The fiscal year 2008 request will 
also enable VETS staff to carefully monitor our performance in 
administering the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) to protect the civilian job rights and benefits of 
veterans and members of the armed forces, including members of the 
Guard and Reserve and others.
Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2008 
budget provides the Bureau of Labor Statistics (BLS) with $574.4 
million and 2,431 FTE. This funding level provides BLS with the 
necessary resources to continue producing sensitive and critical 
economic data, including the Consumer Price Index (CPI) and the monthly 
Employment Situation report. The CPI is a key measure of the Nation's 
economic well-being that directly affects the income of millions of 
Americans. To ensure that the CPI is accurate and up-to-date, the 
budget includes funding of $10.4 million to continually update the 
housing and geographic samples that underlie the index to ensure that 
these samples fully incorporate the most recent demographic and 
geographic trends and changes. The current sample was derived from the 
1990 Census and has not been updated since the late 1990s.
Office of Disability Employment Policy
    The fiscal year 2008 budget request provides the Office of 
Disability Employment Policy (ODEP) with a total of $18.6 million and 
40 FTE. The fiscal year 2008 budget reflects a decrease in ODEP's 
grantmaking function, which duplicates those of other Federal agencies 
like the Department of Education. The fiscal year 2008 budget focuses 
ODEP on its core and critical mission of providing national leadership 
in developing disability employment policy and influencing its 
implementation to increase employment opportunities and the 
recruitment, retention and promotion of people with disabilities.
Bureau of International Labor Affairs
    The request for the Bureau of International Labor Affairs (ILAB) in 
fiscal year 2008 is $14.1 million and 58 FTE. In recent years, ILAB has 
had a very large grantmaking function, duplicating activities that are 
carried out by State, USAID, and other agencies with a larger role in 
international affairs. The budget returns ILAB to its core mission of 
developing international labor policy and performing research, 
analysis, and advocacy. It also includes $1.5 million to allow ILAB to 
monitor the use of forced labor and child labor in violation of 
international standards, as required in the Trafficking Victims 
Protection Reauthorization Act (TVPRA) of 2005.
    The requested funding levels would allow ILAB to implement the 
labor supplementary agreement to NAFTA and the labor provisions of 
trade agreements negotiated under the Trade Act of 2002, participate in 
the formulation of U.S. trade policy and negotiation of trade 
agreements, conduct research and report on global working conditions, 
assess the impact on U.S. employment of trade agreements, and represent 
the U.S. Government before international labor organizations, including 
the International Labor Organization.
    ILAB will continue to implement ongoing efforts in more than 70 
countries funded in previous years to eliminate the worst forms of 
child labor and promote the application of core labor standards.
Office of the Solicitor
    The fiscal year 2008 budget includes $103.1 million and 643 FTE for 
the Office of the Solicitor (SOL). This amount includes $95.5 million 
in discretionary resources and $7.7 million in mandatory funding. The 
Solicitor's Office provides the legal services that support the 
Department, including the Department's enforcement programs. This 
appropriation level will allow SOL to provide legal services for the 
nearly 200 laws the Department must enforce, including new legislation 
that Congress recently passed to strengthen mine safety and retirement 
security. The fiscal year 2008 budget includes $3.5 million and 23 FTE 
to provide additional legal support for DOL client agencies, and $4.4 
million to support 30 FTE who are currently providing certain auxiliary 
administrative services to client agencies that are closely related to 
legal services provided by SOL. The requested appropriation level is 
essential to allow SOL to fulfill its primary mission of ensuring that 
the Nation's labor laws are forcefully and fairly applied.
Women's Bureau
    The fiscal year 2008 budget includes $9.8 million and 60 FTE for 
the Women's Bureau. This budget will allow the Women's Bureau to 
continue its mission of designing innovative projects addressing issues 
of importance to working women and providing information about programs 
and polices that help women succeed in the 21st century workplace.
President's Management Agenda and Department-wide Management 
        Initiatives
    Before I close today, Mr. Chairman, I also want to highlight the 
Department's ongoing efforts to implement the President's Management 
Agenda. In August 2001, President Bush sent to Congress his President's 
Management Agenda (PMA), a strategy for improving the management and 
performance of the Federal government. The agenda called for focused 
efforts in the following five government-wide initiatives aimed at 
improving results for citizens: Strategic Management of Human Capital; 
Competitive Sourcing, Improved Financial Performance; Expanded 
Electronic Government; and budget and Performance Integration. DOL is 
also responsible for three of the PMA initiatives that are found only 
in selected departments: Faith-Based and Community Initiatives; Real 
Property Asset Management; and Eliminating Improper Payments.
    I am proud to say that the Department was the first Cabinet agency 
to earn ``green'' ratings in all five government-wide PMA scorecards. 
By the close of fiscal year 2006, the Department had achieved two 
additional ``green'' ratings, for its efforts to Eliminate Improper 
Payments and support the President's Faith-Based and Community 
Initiative. In December 2006, DOL was honored with the President's 
Quality Award for excellence in Expanded Electronic Government, in 
addition to previous presidential honors received for management 
excellence.
    The Program Assessment Rating Tool, or PART, is central to our 
efforts at the Department of Labor to improve the performance of our 
programs. To date, 32 DOL programs have been assessed through the PART. 
The PART assessments have not only been useful to informing the public 
and policy makers of our programs' strengths and weaknesses, but they 
have provided our programs and their managers a systematic method of 
self-assessment. A PART review helps inform both funding and management 
decisions aimed at making programs more effective. The Department is 
actively implementing program improvements identified through PART 
assessments and its 5-year plan to conduct re-assessments of programs 
that have previously undergone a PART review.
                               conclusion
    With the resources we have requested for fiscal year 2008, the 
Department will continue its strong enforcement of worker protection 
laws, provide innovative programs to increase the competitiveness of 
our Nation's workers, secure the employment rights of veterans, and 
maintain fiscal discipline.
    Mr. Chairman, this is an overview of the programs we have planned 
at the Department of Labor for fiscal year 2008.
    I am happy to respond to any questions that you may have.
    Thank you.

                        OTTUMWA JOB CORPS CENTER

    Senator Harkin. We will start with a round of questions.
    First of all, Madam Secretary, I started out by 
congratulating you and thanking you for your work on getting 
these three Job Corps things designated in New Hampshire, 
Wyoming, and in Iowa; Ottumwa, Iowa. But we hear things from 
different sources, and just the other day I heard from a source 
that said that maybe the Ottumwa Job Corps center is going to 
be delayed.
    Secretary Chao. Oh, we hope not.
    Senator Harkin. Oh, okay. I just want reassurance. I hear 
it might be delayed perhaps up to 8 years.
    Secretary Chao. Oh. I hope not. That is not our intent. We 
are going ahead with the design and construction.
    Senator Harkin. Okay.
    Secretary Chao. Each Job Corps center costs about $40 
million.
    Senator Harkin. Right.
    Secretary Chao. There are different phases. So I do not see 
any delays in that.
    Senator Harkin. In all three of them?
    Secretary Chao. We do not anticipate delays. Unless there 
are funding issues. But it is never the practice to fund 100 
percent up front anyway.
    Senator Harkin. Okay. But when are you going to----
    Secretary Chao. I think that----
    Senator Harkin. When are you going to finalize the Ottumwa 
center? I do not know about the other two, but----
    Secretary Chao. There are design--there are planning, 
feasibility studies, design, construction. So it is a multi-
year project. We do not anticipate delaying it. It is on 
target, as far as I know.
    Senator Harkin. Okay.
    Secretary Chao. We are proceeding with planning----
    Senator Harkin. Yes.
    Secretary Chao [continuing]. The satellite facility in 
Iowa. We know, also, the priorities of this committee on these 
issues.
    Senator Harkin. Yes. Well, I appreciate that. I was told, 
correct me if I am wrong, that the Ottumwa is to be looking at 
opening sometime by 2010. Is that----
    Secretary Chao. That might be possible. It takes about 4 
years to go through the planning. Because there is--you have to 
go--it takes about a year for the planning. It takes another 
year for the design. It takes a couple of years for 
construction. But those are usual planning----
    Senator Harkin. Okay. But there is nothing----
    Secretary Chao [continuing]. Time lines, so----
    Senator Harkin [continuing]. That you know of that is going 
to be delaying this at all.
    Secretary Chao. No, Mr. Chairman. I would also assure you 
that, again, we know how important this----
    Senator Harkin. Okay. Thank you.
    Secretary Chao [continuing]. Issue is.

                            FMLA ENFORCEMENT

    Senator Harkin. Thank you very much. There was one--oh, 
yes. I have been contacted by a number of Iowans who have told 
me that Wage and Hour in Iowa is telling them that if they 
belong to a union, they cannot ask Wage and Hour to intervene 
on their behalf in resolving Family Medical Leave Act 
enforcement. Rather, it is up to them to go through the labor 
management grievance process instead. Then even if they cannot 
resolve the situation satisfactorily, they still cannot even 
appeal that decision to Wage and Hour.
    My question is: Is this action by Wage and Hour in Iowa 
coming from some DOL directive that I do not know about, and 
that we have not seen?
    Secretary Chao. I am not aware of that complaint. I will be 
more than glad to look into it.
    Senator Harkin. Would you, please?
    Secretary Chao. There is a lot of--Family Medical Leave 
was, obviously, passed in 1993. Regulations are promulgated. 
There have been a number of court challenges. It has been very 
confusing. But I have not heard that one. So I will be more 
than glad to take a look at that.
    Senator Harkin. I wish you would. I would like to resolve 
this. Do you feel that DOL is doing what it can to proactively 
improve overall FMLA compliance and employee understanding of 
their rights?
    Secretary Chao. Enforcement of the law is always our 
priority. So we are always very concerned when there are any 
lapses or any non-compliance. We enforce the law.
    Senator Harkin. Well, let us look at that one in Iowa and 
see what is happening there.
    Secretary Chao. I will do so.

                 FUNDING FOR INTERNATIONAL CHILD LABOR

    Senator Harkin. I would appreciate that. International 
child labor. One of my priorities as you know. Has been for a 
long time. The fiscal year 2008 budget requests $14 million for 
international labor affairs. A decrease of $58.4 million from 
last year. An 80 percent cut.
    Well, that is just like tearing it out. This would cause 
reduction of 27 FTEs, and significant reduction in grants for 
technical assistance on ending international child labor. Madam 
Secretary, could you, again, just tell us why you are proposing 
to cut funds for fighting international child labor? What is 
the reasoning behind this?
    Secretary Chao. We care about this issue. Mr. Chairman, I 
think we have talked about this before. We are just going to 
have to respectfully disagree.
    ILAB was an organization that was fairly small. I know that 
in 1996, this committee gave ILAB about $76 million, $74 
million. In 2000, it increased the budget further to about $147 
million.
    Senator Harkin. That was under his chairmanship.
    Secretary Chao. We know this is a priority, but the 
administration respectfully disagrees with the mission of this 
organization. We believe that it should be pared back to its 
original mission of providing technical assistance, providing 
participation at the ILO, working on advocacy and increasing 
core labor standards. That grant making is not really a 
function that was the original intent of this organization. But 
we care about this issue. Obviously, when given the money, we 
have used it wisely.
    Senator Harkin. But it is all right to care about it.
    Secretary Chao. Yes.
    Senator Harkin. We all care about it. But we are trying to 
do something about it. Quite frankly, the Department of Labor 
has done some really good things in the past, both before you 
and in your earlier time--I mean in your first few years. But 
lately, it seems like we are just totally backing off of this. 
At a time when the ILO and others, they are making--they are 
saying, ``Things are--you know, things are happening. These 
things take time.''
    Once we started on this back in the 1990s, and we kept at 
it, as I said, we have actually seen some discernible progress. 
Also, in the past couple of years, the Department of State has 
come to the Department of Labor to carry out projects and 
workers' rights, in relation to CAFTA, the Central American 
Free Trade Agreement.
    So when I see something like that, obviously, the 
Department of State is saying, ``You have the expertise. You 
know how to do it.'' They come to you to ask you to handle it. 
So it is not that somebody else is going to pick this up 
someplace. It is the Department of Labor. I just do not think 
that it is befitting a great Nation like ours, that has put so 
much stock in human rights and the value of children, to make 
sure that children are not abused, and make sure that they get 
a decent education, and that they are not exploited.
    I think it is one of the best faces that America can give 
the rest of the world. That is to help try to end this 
exploitative labor of children in other countries. I visited 
some of these things around the world. The reverberations are 
great.
    When we work on that and--and I am just telling you, it has 
been one of the best, I think, reflections of America anywhere 
in the world. We may respectfully disagree on it, but this is 
something that this committee has charged the Department of 
Labor to do, and we will again.
    Secretary Chao. Yes, I understand.
    Senator Harkin. I am just sorry to see that we are having 
this conflict on it. Because I just do not think we want to 
back down on that one and back off of what we have been doing 
around the world.

                             CAFTA FUNDING

    Secretary Chao. We agree with you on the goals. I think the 
disagreement, perhaps, may be that we are just not quite sure 
this is the right agency or the organization with which to 
channel these funds.
    On the State Department, the CAFTA, we got additional 
funding for that. The money was----
    Senator Harkin. They transferred money over.
    Secretary Chao. Yes. It was given to us. Yes.
    Senator Harkin. They gave you money----
    Secretary Chao. Right.
    Senator Harkin [continuing]. To do it.
    Secretary Chao. But it was given to State. No. I agree with 
you. So the State Department gave it to us.
    Senator Harkin. Yes.
    Secretary Chao. We will do the same thing.
    Senator Harkin. You seem to indicate----
    Secretary Chao. We will do the same thing. We were given 
the money. We will do the same thing.
    Senator Harkin. We are going to give you money, and we are 
going to ask you to enforce it.
    Secretary Chao. We will do so.
    Senator Harkin. All right, Madam Secretary. Well, you know 
that we are going to be tough on it. Well, my time has run out. 
I am going to yield this round and I will yield to Senator 
Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Secretary Chao, at the outset, I would associate myself 
with the remarks that Senator Harkin made about the 
international child labor issue. He has emphasized it 
sufficiently. But I just want you to know that he has my 
concurrence.

                          JOB TRAINING FUNDING

    On the issue of the cuts which are made for job training 
and Job Corps, and the prisoner reentry initiative, and 
reintegration of ex-offenders, Madam Secretary, I would 
emphasize that the increase in crime across the country, and 
especially juvenile crime, really underscores the need for 
those programs.
    I think that our budget recommendations will reflect that, 
but I want you to know how deeply at least I feel about it. As 
you know, I have had a lot of experience in the field of being 
a district attorney of a city like Philadelphia, and seeing the 
kind of crime problems. It is characteristic of cities across 
the country.
    When you have job training, you are trying to provide the 
background to take these at-risk youth off the streets. When 
you are talking about reentry, it has been a problem that I 
have been intimately concerned with for decades. The recidivism 
rates are extremely high because of the lack of job training, 
and releasing functional illiterates from jail without a trade 
or skill--so they go back to a life of crime. It would be 
surprising if they did not. So these reentry programs and the 
legislation that is pending now on second chance, these, I 
think, are of the highest priority.

                              PANDEMIC FLU

    Let me ask you now about the issue of pandemic flu. It 
could be a catastrophe of phenomenal proportions. We have had a 
series of hearings on the subject and, to date, this 
subcommittee has included $5.4 billion for pandemic flu.
    There was a petition filed in December 2005 for the 
Department of Labor to issue standards for public health care 
workers in the event of such a pandemic. On February 26, your 
Department denied the petition on the grounds that no human 
influenza virus exists at this time.
    Shouldn't there be protections in place to protect workers, 
in case there is a pandemic? Shouldn't we be prepared. Every 
day you see an article on the H5N1 virus, though regrettably, 
they are in the back pages of the papers. I believe yesterday 
Pakistan was going to submit information on the virus, but in a 
limited extent. I would ask you to take another look at this 
regulation.
    Secretary Chao. I will do so. There is a government-wide 
task force on pandemic flu. So we, through, OSHA, have 
participated in this government-wide interagency workforce, and 
have been a very active participant. We have issued five 
significant guidance documents. I will take a look at that.
    Senator Specter. Well, it looks to me as if the rejection 
of that petition may have been decided by someone at a lesser 
level than the Secretary.
    Secretary Chao. The emergency--I did not quite understand 
the question.

               EMERGENCY STANDARD FOR HEALTH CARE WORKERS

    Senator Specter. The petition was for an emergency standard 
to protect health care workers in the event of a pandemic. So 
take another look at it.
    Secretary Chao. I will take another look, but I think the 
original premise was that it was not--there are very strict 
guidelines as to what constitutes an emergency standard. Based 
on our review of the situation, it was not deemed to fit those 
quite--I mean it has to be a--well, I am not being very 
eloquent. But it has to be--there are emergency standards, 
there are rules and criteria to when that should be issued. It 
has to be like a pandemic.
    I do not want to defend that without looking----
    Senator Specter. Do we have to be in the middle of the 
pandemic before the rules are issued?
    Secretary Chao. Pretty near it. But as ridiculous as that 
sounds, I do not want to talk any further. I will take a look 
at----
    Senator Specter. Now we have finally found something we 
agree upon. That is as ridiculous as it sounds.
    Secretary Chao. Yes. I will take another look at that.

                      OSHA'S SUSAN HARWOOD GRANTS

    Senator Specter. Okay. Speaking of OSHA, why is the 
administration proposing to eliminate the $10 million OSHA 
program for worker training and education? Have these programs 
been unsuccessful?
    Secretary Chao. I suppose you mean the Susan Harwood 
grants. That was a very narrow, a very--a targeted--it was a 
very narrow set of grants given out to a very narrow 
constituency. We are concerned about worker training. We 
thought that with a wider approach through more--a web-based 
educational approach, more outreach, and efforts to other 
groups, to a larger array of groups, would be a more effective 
way to use those education grants.
    Senator Specter. Well, we may have a disagreement there, 
too.
    Mr. Chairman, I know my red light is on, but I have two 
more questions, and that will eliminate the need for a second 
round. If I may?
    Senator Harkin. I have some that I want to follow-up on, 
but go ahead.

                    FUNDING FOR MIGRANT JOB TRAINING

    Senator Specter. Okay. Well, I will proceed here. The 
funding for the migrant and seasonal farm workers program has 
been eliminated. Almost $80 million. We are right in the middle 
of our new immigration bill, which is a very high priority for 
the President. Migrant job training is a big part of that. We 
are dealing with gigantic costs on employer verification and 
border patrol.
    Why the repeated effort to eliminate that program when 
every time you do, both the House and Senate come back and 
insist on it?
    Secretary Chao. The whole issue of trying to integrate 
migrant workers into the work force is one that we both share. 
The question is how best to do that. This administration's 
philosophy has always been to take specific programs that are 
segregating workers into separate funding streams and finding 
that that is not a very effective way of helping workers, when 
there is a whole nationwide publicly funded network of one-stop 
career centers, with all its full array of services that will 
be much better to help workers access the professionals that 
are in this system as well as the full array of funding 
programs. So the intent is to integrate more fully the migrant 
workers into the workforce development system.
    Senator Specter. Well, do not the migrant farm workers have 
very unique needs, contrasted with the rest of the work force?
    Secretary Chao. Well, the program--we understand how 
important this is to members of this committee and to others on 
this committee. But there does seem to be some disagreement as 
well. We have found that this program, aside from the reason 
that I just gave previously, has been very often used as an 
income support program. We want to be able to use these funds 
to help migrant workers find better jobs, be able to transition 
into other opportunities on a seasonal basis, if they--if that 
were to occur.
    Senator Specter. Well, I do not think it should be an 
income support program. But I think you could eliminate that 
and still have the training.

                        H-2B LABOR CERTIFICATION

    The final question I have for you, Madam Secretary, relates 
to the H-2B labor certification. We are in the middle of a 
great human cry from some of the leading entrepreneurs of the 
world. Bill Gates is leading the charge on this.
    The current regulations permit employers to file 
applications only 120 days in advance of their seasonal needs. 
Your Department's regulations call for an adjudication, a 
decision, within 30 days. Now the processing takes more than 
100 days.
    Two questions. Can you reduce or eliminate that delay in 
applications? Should we allow employers to file their 
applications more than 120 days in advance of their seasonal 
needs, in light of the delays in your Department's decisions on 
the applications?
    Secretary Chao. You are referring to the H-2A, H-2B program 
or to the H-1----
    Senator Specter. To the H-2B labor certification----
    Secretary Chao. Okay. The H-2B.
    Senator Specter [continuing]. Program.
    Secretary Chao. Right. Unfortunately, we have had an 
increase in backlog in the H-2B program this year. As 
background, let me say that when we first came into this 
Department, we had tremendous backlogs in the PERM and in other 
visa programs.
    We have worked diligently to work down the backlog. This 
particular year, there has been a 40 percent increase in the 
number of H-2B visas. We do have a backlog in Georgia, in that 
processing center.
    We have diverted additional personnel and additional 
resources to that region in an effort to work down the backlog. 
But the real problem is the cap that occurs on this visa and 
the time line that is involved, of which we are not in control. 
We play a very small part in this whole visa/immigration issue. 
Most of it is over at the Department of Homeland Security.
    Where it is possible, where we have control, we have been 
able to decrease the backlog from over 100 days to process to--
to be a little bit under 30.
    Senator Specter. Well, Madam Secretary, I can understand 
the problem of the backlog, especially when the funding for 
your Department is cut.
    Secretary Chao. Well, this comes out of a different fund. 
That is not--it does not come out of--in fact, we have 
requested funding every year for the last 5 years, and the 
Congress has not given us additional funding. We have been 
underfunded for about $8 million.
    Senator Specter. It does not come out of your overall 
budget?
    Secretary Chao. Some of that is--we have asked for, like, 
$37 million and $46 million, and we have been given about $37 
million.
    Senator Specter. Well, is it not a part of your $10 
billion-plus appropriations?
    Secretary Chao. Yes. It is.
    Senator Specter. Well, if you would submit a bigger budget 
request to OMB, or if you could get OMB to give you more money, 
you would have more money.
    Secretary Chao. It is the President's request. The 
President has traditionally asked for about $46 million. We 
have gotten about $37 million for the last 5 years.
    Senator Specter. Well, you make the request, but it is a 
question of how we slice up the pie. If the pie were a little 
bigger, we would be able to give more to your requests. That 
means you have to come in here and bang the table. Before that, 
you have to have practice at OMB banging the table.
    Secretary Chao. Well, we went over there----
    Senator Specter. You might even go from banging the table 
to banging heads. You are a strong secretary.
    Secretary Chao. Well, we have succeeded at OMB. We have 
requested about $45 million, $47 million for the last 3 years. 
The enacted was about $37 million.
    Senator Specter. Well, we will continue to work with you, 
Madam Secretary. We have been for a long time. These are big, 
big problems. We want to do our best to try to solve them.
    Secretary Chao. Thank you very much.
    Senator Specter. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Harkin. Thank you, Senator Specter. Madam 
Secretary, I just have a few areas I would like to also go 
through with you. You just mentioned something I wrote down 
about narrow grants to narrow constituencies. I want to get 
into an area----
    Secretary Chao. I did not----

                         CONGRESSIONAL EARMARKS

    Senator Harkin [continuing]. That has gotten a lot of 
publicity lately, as it concerns Congress. I am not going to 
single you out, Madam Secretary. I am going to bring this up 
with every secretary that appears here. Secretary of Health and 
Human Services. Secretary of Education. Those are the three 
under our jurisdiction. That has to do with earmarks. Earmarks.
    In President Bush's State of the Union address this year, 
he stated, and I quote, ``Next, there is the matter of 
earmarks. These special-interest items are often slipped into 
bills at the last hour, when not even C-SPAN is watching. The 
time has come to end the practice.''
    Now for the record, I do not think that more than 1 
percent--almost all the earmarks are less than 1 percent. One-
third to two-thirds of 1 percent of all that we appropriate 
here, but they have really gotten hit by the President.

                    HIGH-GROWTH JOB TRAINING GRANTS

    On the other hand, a recent Congressional Research Service 
report found that 90 percent of the funds under DOL's high-
growth job training initiative were awarded non-competitively. 
Ninety percent. In other words, over the past 5 years, DOL 
earmarked more than $250 million without any competition and 
without any transparency.
    Now I understand that Federal regulations allow for the 
awarding of sole-source contracts in certain situations. 
However, earmarking 90 percent of these funds raises some very 
serious questions.
    Now I just drafted a letter for the inspector general, Mr. 
Heddell, of the Department of Labor. I said, ``Dear Mr. 
Heddell, I am writing today to request that you look into the 
Department's practices of awarding non-competitive awards under 
its high-growth job training initiative.'' As I said, ``As you 
may know, the Congressional Research Service recently analyzed 
the Department's funding practices under this initiative, and 
found that 90 percent of the funds were awarded through non-
competitive awards. These actions resulted in more than $250 
million in funding being awarded without full and open 
competition.''
    ``I understand''--and this is my letter--``I understand it 
is sometimes maybe in the public's best interest to award funds 
on a non-competitive basis. For example, if the services are 
available from only one responsible source and no substitute 
will suffice.''
    ``The Federal Grant and Cooperative Agreement Act 
identifies other exceptions to the general rule of competition. 
However, I believe such extensive use of non-competitive grant 
making raises serious questions.''
    ``I encourage you to look into these matters on an 
expedited basis. I ask that you audit a sufficient number of 
non-competitive awards to understand whether relevant statutes 
and regulations were adhered to, and to evaluate the extent to 
which these awards are meeting their specific performance 
objectives and contributing to the Department's missions.''
    So Madam Secretary, that is a lot of money. Ninety percent 
raises a lot of questions. Could you explain the criteria that 
you used when making the decision to earmark a quarter-of-a-
billion dollars under this initiative?
    What are the specific performance measures, the evaluation 
criteria, and operational requirements of grantees? I would 
like to know what the results of these grants are thus far. So, 
again, help me understand, what is your criteria in sole 
sourcing 90 percent of this money?

            COMPETITION FOR HIGH-GROWTH JOB TRAINING GRANTS

    Secretary Chao. First of all, let me say that it is a 
philosophy--it is, in fact, the tendency of the Department to 
engage in competitive bidding. All high-growth grants are now 
competitive. The initial grants in the sectors were--in the 
high-growth job training program were initially directly 
responsive to worker shortage sectors. So that was just the 
first round.
    All single-source contracts have to go through what is 
called a procurement review board. They were all approved by 
the procurement review board.
    Having said that, our preference is always to competitively 
bid. So I think the particular instance that you mention--I 
wonder about the 90 percent. Because it depends on what you use 
as a base. But it is our preference to always competitively 
bid.
    There are single-source contracts that do have to go 
through the procurement review board. As for the specific 
criteria, it is done by a group of--by the Employment Training 
Administration, which was trying, again, to meet the tremendous 
deficits in worker shortages in some of the high-growth 
industries.
    Senator Harkin. Madam Secretary, you said they are all 
competitive now. Not because of what you did. But because 
Congress required it.
    Secretary Chao. I do not think so. I think it was always 
the intent to competitively bid these.
    Senator Harkin. Intent? When 90 percent went 
uncompetitively?
    Secretary Chao. That was the only first round, to my 
understanding. That was to get the program off to a rapid 
start, because we were receiving a great deal of concerns.
    Senator Harkin. So you are saying that that did not happen 
over 5 years. It just happened in 1 year?
    Secretary Chao. I do not--I do not believe that is true. I 
do not believe that is the case. Whether it was 5 years or 1 
year, it was--it was the first round. I will look more into it, 
but it was never our--our preference always is to competitively 
bid. And it was part of an overall effort to get--you know, we 
also--you asked about the performance measures, and----

             RECIPIENTS OF HIGH-GROWTH JOB TRAINING GRANTS

    Senator Harkin. Okay. Well, I am looking at some of these, 
and I asked the IG to look at them. One went to the National 
Retail Federation Foundation. $2.25 million.
    Secretary Chao. I was not involved in that. But I would 
suspect that that, again, was to address the tremendous need 
for retail workers. We were trying to match workers' skill sets 
with high-growth industries that needed particular workers. 
There are many others as well. Construction workers are at a 
premium. Skilled trade workers are at a premium. We needed 
workers in financial and professional services.
    I mean these were dire requirements in our economy. We 
actually can have a larger discussion about how training occurs 
through the Employment Training Administration and the 
workforce development system. I think it is actually quite 
valuable to have a discussion like that. Because right now 
there is a disconnect between the workers--between the skill 
sets that are needed, and what workers are being trained in. 
How many workers are being trained.
    Senator Harkin. Well, some of these--I do not know. There 
is one in 2004 to the Manufacturing Institute of the National 
Association of Manufacturers.
    Secretary Chao. Again, I was not involved in that. But that 
is probably involving advanced manufacturing workers. 
Traditional manufacturing is declining as we all know. It has 
been declining worldwide for the last 40 years. Yet, 
manufacturing is evolving.
    There is a new phenomenon now called advanced 
manufacturing, in which workers with higher technological and 
information technology skills are desperately needed. So what 
we are seeing, and this is precisely what the issue is facing 
our workforce, it is a skills gap. We have--at any one time, 
about 4 million jobs are vacant. We have high-growth industries 
that are desperately seeking workers. Yet, we do not have 
workers with the right skills.
    So we have to train workers, help to train workers for 
relevant skills, so that they can get a job when they graduate.
    Senator Harkin. Madam Secretary, you are right.
    Secretary Chao. Okay.
    Senator Harkin. So then why is your budget cutting a 
billion dollars out of workforce training and all of that?

                      WORKFORCE INVESTMENT SYSTEM

    Secretary Chao. Well, it is an excellent question. I am 
pleased to answer it. It is, primarily, because--and I am 
grateful for this dialogue, because it is so important.
    I agree with Bill Gates. We need to prepare our workforce. 
But what is happening is that of the workforce--I love the 
system. We all support and treasure the system. But even people 
who work in the system are frustrated by the bureaucracy, the 
overlaying, duplicative infrastructure.
    Most of the funding goes to salaries and infrastructure. We 
are training 200,000 people at a budget of $6.8 billion. We 
have employment services offices that reside right next to one-
stop career systems. They do the same thing. Yet they cannot 
talk to one another or they do not coordinate.
    We have $1.1 billion to $1.7 billion in excess carryover 
funds every year. So in terms of just good cash management, 
that is not a very good practice. Over $3.4 billion goes to 
infrastructure.
    We need to--all of us who work in the system need to 
challenge ourselves more to do more to ensure that workers are 
being trained for the relevant skills. We have this wonderful 
system. Yet we also have high-growth industries, where they 
cannot find enough workers. So something is wrong. Again, we 
need to challenge ourselves to do more and take a look at the 
system.
    How can we use this money better? How can we train more 
workers? That is an issue----
    Senator Harkin. So you are saying you do not need any 
more--you can use--you can do all of this with a lot less 
money. That is what you are saying.
    Secretary Chao. We need to carry out reforms. We need to 
carry out reforms that will enable----
    Senator Harkin. Have you suggested any reforms to this 
committee and to the Congress?
    Secretary Chao. We have. That is part of the overall debate 
and discussion that we need to have.
    Senator Harkin. All right.
    Secretary Chao. It takes 10 years--7 to 10 years for the 
whole system and for these national debates to occur. It 
happened with----
    Senator Harkin. Well, we have been there----
    Secretary Chao [continuing]. JPTA and, you know, in 1998 
with WIA. So we are in the process of discussing further 
enhancements and reforms to this workforce investment program.

                         WIA CARRYOVER BALANCES

    But the reality is, there is $1.1 billion in carryover 
funds that are not used. Every State has excess funds.
    Senator Harkin. Well, I am going to have to look at that, 
too. But I wanted to follow up on just one thing. You mentioned 
that there were 200,000 being trained annually. GAO has 
consistently refuted the data that you have presented to us. 
GAO found that your Department's calculation of carryover, what 
you just mentioned, has created a mistaken impression of excess 
unspent balances. Now this is GAO.
    GAO found in their June 2005 report that GAO's estimates 
represent a more complete and accurate picture than Department 
of Labor's. Because they are based on information obtained 
directly from the local workforce areas. Include all funds 
spent or obligated for training. Count all adults who received 
training in program year 2003, not just those who exited the 
program.
    So your Department's justification for a $335 million 
cancellation of job training funds rests on your claim of 
excess unspent carryover, which you just mentioned. 
Overestimates, according to the GAO. The GAO found that most 
unspent balances in states had already been obligated or 
committed.
    So I hear you. I hear what you are saying. But GAO does not 
agree with you and we rely on GAO. That is our investigative 
arm. So we have to rely on GAO to give us accurate information. 
So are you telling me that GAO is not giving us accurate 
information?
    Secretary Chao. Unfortunately, we respectfully disagree 
with GAO's findings. We are also disturbed--and just from that 
passage that you just read--we are very results oriented. If we 
ask--if we help a person go through training, we owe it to that 
person to ensure that they get relevant training, so they can 
access a real job when they graduate.
    So we have performance measurements. So graduation rates do 
make a difference. Placement rates do make a difference. We are 
looking at employment upon graduation, retention, and also 
earnings. We want to know how long that person stays on the job 
after they graduate. After they get a job. Also what the 
earnings are.
    So we are concerned about, again, the outcome. The 
graduation rate is important.
    Senator Harkin. I never said it was not.
    Secretary Chao. I thought that GAO said that they were 
looking at not only those who exit the program.
    Senator Harkin. That is right. But GAO--but they are 
looking--what they are talking about is the actual picture. 
Because they said their information is obtained directly from 
local workforce areas, directly. They include all the funds 
spent or obligated for training. Count all adults who receive 
training in program year 2003. Not just those who graduated.
    Secretary Chao. Yes.
    Senator Harkin. So to get a whole picture of what is 
happening, obviously, graduation rates are important. But you 
have to look at the whole pool that is out there.
    Secretary Chao. Absolutely. But we do--we do not--I want to 
just--I want to be respectful. So we disagree with that.
    If you look at the unspent balances in each of the states, 
there are unspent balances. Every year, there are carryovers. 
Every year. They range from $1.7 million to $1.1 billion.
    Senator Harkin. Let me put it this way. Let us say that I 
have a contract in 2006 to do certain things in 2007, to meet 
certain obligations. I have a contract to do that. That 
contract is $1,000.
    Let us say in December 2006, I have $1,000 in my pocket. 
Well, you can say in December 2006, I have $1,000 of unspent 
money. But if you really calculate it on a balance sheet, like 
GAO would look at it, they would say, ``Well, no, because that 
is obligated.'' You really do not have any unspent --you have 
not spent it yet, but you are obligated to it.
    That is what they are looking at here. So I respectfully 
also say, are we playing some word games here? I am looking at 
obligated--what they have. You say unspent. GAO says obligated 
to spend. When you look at it that way, you do not have that 
much carryover money.
    Secretary Chao. Well, that brings us, unfortunately, to 
another area of discussion. Related, of course. That is the 
whole issue of when you--if you have $1,000, and let us say 
someone buys 3 years of training slots, because, first of all, 
WIA does not train. We purchase the training slots from a 
training provider.
    Senator Harkin. Right.
    Secretary Chao. So whether the training slots are actually 
used or not is another story. So you can obligate it for 3 
years or 330 slots, or 2 years, and then 334, for another. But 
whether workers are actually filling those slots is another 
question.
    So there are a lot of--not only is there the issue of 
excess balances, or in your words, obligated funds, but there 
is also the tremendous need for reforms in this program. When 
we talk about the money, that is just part of it. We need to 
reform this program so that it is relevant.

                              WIA REFORMS

    Senator Harkin. What is the most significant reform that 
comes to your mind that we need to do?
    Secretary Chao. I think we need to give the States more 
flexibility. Right now, I keep--the Federal Government keeps 5 
percent. The rest of the money goes down to the State. 
Depending on the 17 different revenue funding streams, the 
State keeps about 15 to 35 percent, and the remainder goes into 
the municipalities.
    What we have sometimes are adjoining districts. When they 
have a surplus, when they have a deficit. Yet, the State will 
not have any flexibility in shifting those funds around. We do 
not want to shift those funds around. We are not proposing that 
we be given the authority. But we think that these funds, at 
least, should be more flexible. So that at the State level, 
they can shift them around. Right now, that cannot be done. 
Also, we have----
    Senator Harkin. But you can.
    Secretary Chao. Not really. It is very strict. It is very 
strict.
    Senator Harkin. Well, I will have to look into that. I 
mean, obviously, I do not know it as well as you do. But it has 
been my information that DOL can do that, if you have----
    Secretary Chao. Not really. If you have employment 
services. Adult. Youth. Dislocated. These are very strict 
funding----
    Senator Harkin. You are saying your hands are tied. If you 
have a deficit area right next to a surplus area, you cannot 
take it from the surplus area and put it in the deficit area if 
that is needed?
    Secretary Chao. No. Because it is their money. It has 
already been given out, by statute.
    Senator Harkin. Okay.
    Secretary Chao. So what we are asking for is just more 
flexibility. Again, we are not asking for the authority 
ourselves. We are just asking that the State level be given 
more flexibility.
    Senator Harkin. Why will you not ask for the authority? Why 
not give it to the DOL? Why give it to the States?
    Secretary Chao. Because I think probably----
    Senator Harkin. You have a better handle on the national 
picture.
    Secretary Chao. Well, number one, it is by statute. So 
there has to be a statutory change. And number two, probably 
the States would----
    Senator Harkin. Well, there would have to be a statute 
change for the States to do it, too.
    Secretary Chao. Yes.
    Senator Harkin. Well, I am just saying, I do not know--I 
mean it would seem to me that if you are talking about 
flexibility to do that--and I will look at that and consider 
that.
    Secretary Chao. There are workforce investment boards. I 
think that the thought was that probably the States know 
better. They are more direct to the grassroots and to the 
ground. They would know at a faster rate--they would know 
faster what the needs are.
    Then another thing is incumbent workers. I will give you 
another example. Right now, we have major companies in our 
country that have said that in 2 or 3 years they are going to 
close a plant. With all the money that we have in this fund, we 
do not have any money for incumbent workers. So we have to wait 
until the workers are laid off before we can offer them 
transition employment services assistance.
    These days, companies are getting further and further in 
advance notice of when they plan to shift facilities around. 
Yet, we cannot do anything to help these incumbent workers 
while they are waiting for this transitional period. So we--and 
so this is a big issue, too.
    There are reforms such as this that we believe that would 
really make the system better, more responsive.
    Senator Harkin. That is interesting.
    Secretary Chao. More helpful to workers. Because we support 
the system. But there has got to be a better way to do all 
this.
    Senator Harkin. Well, I will look at that, too. I mean if 
you have some suggestions on changes in that, we will look at 
that. Let me just consult with my staff on that.
    Well, now I am getting different information.
    Secretary Chao. Okay.
    Senator Harkin. I am told for the last 5 years we have 
given you the authority for flexibility to train incumbent 
workers. I have just been told that for the last 5 years we 
have given you that authority. So----
    Secretary Chao. Okay. I hate to give you piecemeal answers. 
So I apologize. I have been told that it is only at the State 
level, but not at the local level.
    Senator Harkin. What? The State level?
    Secretary Chao. Because all the funds, if you recall, go 
directly to the local--most of the funds go directly to the 
local WIB boards.

                        WIA FUNDING FLEXIBILITY

    Senator Harkin. My brains over here just told me that we 
have provided for an authority for 30 percent to shift between 
the adult block grant and the other block grant. So you have a 
30 percent authority there. Is that right?
    Second, you say it is at the State level, not the local 
level. But I am also told that when the State takes the block 
grant and gives it to the local level, they can provide the 
flexibility to the local level. States can do that.
    So you are saying they do not have the flexibility at the 
local level. That has more to do with the State than us. If you 
want to give more money to the States, then--but they are not 
providing the flexibility at the local area. Not us. The States 
are not doing it.
    Secretary Chao. I guess what we are saying is that we need 
flexibility, not only at the State level, but at the local 
level as well. The whole system is very important.
    Senator Harkin. Well then we are going to have to tell the 
States that--obviously, we are going to have to tell the States 
they have to do certain things. So it is not just a block 
grant. We are going to have to tie some strings to it, to tell 
the States that they have to give the flexibility at the local 
level.
    Secretary Chao. We would agree with that as well. Because a 
lot of times the funding goes directly to the local, and it is 
used for deficit reduction purposes as well sometimes.
    I would really welcome a discussion with your staff about 
this. We would welcome that.
    Senator Harkin. Well, because--and the reason I am caught 
up in this is because we really have a difference here between 
what GAO is telling us and what you are telling us. We have a 
real difference here.
    Secretary Chao. Inflexibility in the system and the 
different silos, in terms of funding streams, makes it very 
difficult to shift money around. We are not trying to decrease 
the money. We are just trying to shift it around, so that it is 
more responsive to local conditions.
    Senator Harkin. But is it 30--as I have just been told by 
counsel, you have 30--up to 30 percent to shift around.
    Secretary Chao. I was told it was an insignificant amount, 
not as large an amount as that. Is it 30 percent?
    Let me correct it. It is 30 percent. But apparently the 
local boards do not think that that is significant or large 
enough.
    Senator Harkin. Well, are they even utilizing the 30 
percent?
    Secretary Chao. It is on--I believe so. We get a lot of 
waivers. We get a lot of requests. That is very burdensome. It 
is very--it is done only under extraordinary circumstances.
    Senator Harkin. Well, we will get to the bottom of it. We 
will, and I will have my staff get a hold of your staff and 
start working some of this stuff out here.
    Secretary Chao. Thank you.

                    HIGH-GROWTH JOB TRAINING GRANTS

    Senator Harkin. I still just repeat for emphasis sake, and 
I am going to have the IG look at this earmarking, the 90 
percent. We changed it. We stopped it, in law. Did I just read 
to you the public law that we just passed, that said you cannot 
do that any more. That is why, because----
    Again, Madam Secretary, I do not think anyone would have 
minded if it were 10 percent or 4 percent. I mean we, in 
Congress, our congressionally directed funding is less than 1 
percent.
    Secretary Chao. Yes.
    Senator Harkin. All the newspapers and all the press are 
out there going after Congress. It is less then 1 percent.
    Secretary Chao. It is a bigger budget, too.
    Senator Harkin. I agree that sometimes you have--what?
    Secretary Chao. It is a bigger budget, too.
    Senator Harkin. But it is still less than 1 percent. If you 
look at it percentage wise.
    Secretary Chao. I do not want to dispute on the 90 percent. 
We have to take a look at that, because that is a surprising 
number to me. I think, again, it depends on what you--it was 
that one particular year, when it was starting up. That was an 
effort to jumpstart some worker training programs in high-
growth industries that were desperately seeking workers. But I 
will take a look at that.
    Senator Harkin. Well, like I said, I think there is a need 
for you as a secretary, me as a senator, Senator Specter as a 
Senator, and others, to respond to certain needs that may not 
be applicable on a competitive basis. But we have guidelines 
for that.
    Secretary Chao. Absolutely.
    Senator Harkin. We have guidelines for that. But when it 
comes out to 90 percent, that sort of--is pretty startling. I 
think that is one of the reasons we put that in the law this 
year. Just this year. Well, last year. Pertaining to this year.

                      WORKFORCE INVESTMENT SYSTEM

    Secretary Chao. Mr. Chairman, may I also suggest--request 
one other thing. As we talk about some of these issues with the 
overhang and the excess balance, may we also talk about some of 
the--may our staffs also discuss some of the need for how to 
handle the duplicative structure? Because right now----
    Senator Harkin. Duplicative----
    Secretary Chao [continuing]. We have dual structures within 
the workforce investment system. Again, I believe that everyone 
wants to do the right thing. The issue is: How do we break down 
some of these silos that are preventing a full focus on the 
worker?
    All of these services should be arrayed with the worker in 
the center. Nowadays, the workforce investment system is so 
complicated that a worker almost needs an advanced degree to be 
able to access the various different types of programs. It is 
very confusing, so----
    Senator Harkin. Back in the nineties, then Secretary of 
Labor--I do not remember who, which one it was. We started 
these--I remember they had a big deal about this one-stop shop. 
This one-stop thing. What has happened to all that?
    Secretary Chao. Well, it was an improvement over the 
previous years. But the idea is not complete. So more needs to 
be done to bring that about.
    Senator Harkin. Legislatively? Or administratively? You are 
the administrator.
    Secretary Chao. I think we--we have tried to do as much as 
we can, administratively. Then some of it has to be 
legislatively done as well.
    Senator Harkin. Have you----
    Secretary Chao. We would hope that----
    Senator Harkin. Have you suggested legislative language to 
us?
    Secretary Chao. We have.
    Senator Harkin. I mean, if you have, I am sorry.
    Secretary Chao. I----
    Senator Harkin. In fact, that is the other committee, but I 
am on that committee, also.
    Secretary Chao. Right. Again, we have. It is part of the 
national discussion that we need to be having.
    Senator Harkin. Because, obviously, my concern here is 
budget-wise, money-wise, but that has to do with the issues, 
and how the programs are carried out. Then, of course--then the 
other committee I serve on the--the HELP Committee, in terms of 
the----
    Secretary Chao. So you are ideally positioned, Mr. 
Chairman.
    Senator Harkin. Say what?
    Secretary Chao. You are ideally positioned, Mr. Chairman.
    Senator Harkin. Well, maybe if I was chairman of that other 
committee, too, maybe.
    Let me--a couple of other things, Madam Secretary. I do not 
mean to drag it out too--but there are some issues here that I 
want to cover with you.

                               ERGONOMICS

    One of your four stated goals is protecting worker safety. 
I am going to get into an issue that has sort of been a sore 
point between us for a long time. Not between you and me, but 
just between the Department and Congress. Ergonomics.
    Secretary Chao. Yes.
    Senator Harkin. Approximately one-third of all injuries and 
illnesses with days away from work are musculoskeletal 
disorders that result from exposure to ergonomic hazards on the 
job. In 2005, the last year we have data for, there were 
375,540 serious ergonomic injuries, resulting in time off the 
job, reported by employers.
    In 2002, after the repeal of OSHA ergonomics standard, you, 
Madam Secretary, announced a comprehensive plan to address 
ergonomic injuries, including, and I quote, ``Industry-targeted 
guidelines and tough enforcement measures.'' You stated, ``Our 
goal is to help workers by reducing ergonomic injuries in the 
shortest possible timeframe.''
    Well, let us look at the tough enforcement measures. OSHA 
has only issued 17 ergonomic citations since 2001. Twelve were 
issued in 2003. Four in 2004. One in 2005. None in 2006. So 
Madam Secretary, when are you going to practice this tough 
enforcement that you have committed to?
    One citation, I think, over the past 2 years does not sound 
like tough enforcement, when we see there were 375,000-plus 
serious injuries reported by employers, resulting in time off.
    So I want to ask you about, where is the tough--where is 
this tough enforcement?

                         ERGONOMIC ENFORCEMENT

    Secretary Chao. Well, as you mentioned, the approach that 
we have taken is strong enforcement, outreach, research based 
on sound science, and, of course, industry-specific guidelines. 
So we have issued the final ergonomic guidelines for nursing 
homes, retail grocery stores, poultry processing. They are 
obviously all industries of high rates of MSDs.
    Then a fourth guideline on shipyards was delayed, because 
of some information quality challenges. OSHA is in the process 
of updating that, and we hope to have a draft for public 
comment shortly, soon.
    We have conducted over--OSHA has conducted over 850 
ergonomic inspections per year and sent out about 408 hazard 
alert letters.
    Senator Harkin. Well, why one citation in the last 2 years, 
when you have all these injuries? Why only one citation? How 
come it has gone from 17--or 12 in 2003, down to none? I mean 
that is just----
    Secretary Chao. I will take a look at that.
    Senator Harkin. That just does not sound right, you know, 
when no citations are being issued. So someone at OSHA is just 
not--I do not know--I am trying to figure this out. Why? What 
is happening at OSHA?
    I hope that you will provide us with some plans to step up 
these enforcement efforts. Now that is enforcement of the 
guidelines. You mentioned the guidelines.

                          ERGONOMIC GUIDELINES

    You appointed members to a national advisory committee on 
ergonomics, which recommended 16 industries--you mentioned some 
of them there--for the development of guidelines. But only 
three guidelines have been issued, and none since 2004. So when 
are the other 13 guidelines going to be provided or completed?
    Secretary Chao. If you--I will just bring this up. If you 
recall, we did not have an OSHA Administrator for almost 18 
months. So it does--leadership does count. When we do not have 
leadership at the agency level, it does make a difference.
    We now have a new Administrator. He is committed to 
ensuring the worker's safety and health of our workforce. I 
will take a look at that.
    Senator Harkin. Well, please take a look at it, because 
these guidelines are just dead. Nothing is happening. Can you 
provide us with a specific time--not today. But can you provide 
us with a specific time line for the number of guidelines 
issued this fiscal year and next? Looking at those 13.
    Secretary Chao. Yes. May I also just mention that we take, 
of course, these issues seriously. But the musculoskeletal 
disorders involving days away from work declined 13.7 percent. 
So they have been declining.
    Now the total number of cases evolving and days away from 
work declined both in 2003 to 2005. So the decline in the MSD 
is twice that of other cases. But your point is well taken. I 
will take a look at it.
    [The information follows:]

    OSHA has carefully considered the recommendations offered by the 
National Advisory Committee on Ergonomics (NACE) which was established 
to advise the Secretary of Labor on ergonomics guidelines, research, 
and outreach and assistance. We have updated the NACE analysis using 
more recent injury statistics. The agency is using the results of this 
updated analysis as one source of information as it considers 
candidates for future ergonomics guidelines. It should be noted that 
NACE recommended that OSHA consider ``Other Criteria'' (e.g., injury 
trends, absence of available guidelines) established by the Guidelines 
Workgroup when making specific industry selections from the NACE list.
    Our past experience with guideline development is the best 
indicator of future timelines. The Guidelines for Nursing Homes were 
completed in about a year. The Guidelines for Poultry Processing and 
the Guidelines for Retail Grocery Stores were completed simultaneously 
in a 2-year period. We plan to publish draft Guidelines for Shipyards 
in fiscal year 2007, and anticipate finalizing them in late fiscal year 
2007 or early fiscal year 2008.

    Senator Harkin. All right. Thank you. One last question 
about this.
    Secretary Chao. Sure.

                MUSCULOSKELETAL DISORDER REPORTING FORM

    Senator Harkin. You talk about decreases. I have been told 
that you changed the reporting form and eliminated the column 
that had been used to report musculoskeletal disorders. Is that 
so?
    Secretary Chao. I seem to recall----
    Senator Harkin. I was told that you changed the reporting 
form and eliminated the column that had been used to report 
musculoskeletal disorders. So then it would make it look like 
there is less.
    Secretary Chao. I do not think that was the intent. I do 
remember something to that effect, but I do not have the answer 
at hand.
    Senator Harkin. Can you provide the committee----
    Secretary Chao. I will look into--sure.
    Senator Harkin [continuing]. With that information, too, on 
this? Also, any analysis that you have done concerning the 
effect that the elimination of this column may have had on the 
accuracy of reporting. I am not here saying it has or it has 
not.
    Secretary Chao. Okay.
    Senator Harkin. I am just asking if you had done any 
looking at getting rid of that column--I do not know why it was 
gotten rid of. I am not an expert in that area. But why it was 
gotten rid of. Analyzing if it has had any effect on the 
accuracy of reporting.
    Secretary Chao. We will do so.
    Senator Harkin. If you can provide that to us, I would 
appreciate that.
    [The information follows:]

    Each year, the Bureau of Labor Statistics (BLS) produces statistics 
of Musculoskeletal Disorders (MSDs) as part of its annual survey of 
occupational injuries and illnesses. The BLS is able to calculate and 
publish both the number and rate of MSDs involving days away from work, 
using individual case data collected from the detailed OSHA injury and 
illness 301 form. MSD statistics are available by industry and 
occupation, along with various estimates of MSD characteristics (such 
as median days away from work), and demographics (such as the age and 
sex of the injured employee). The BLS statistics on MSDs are generated 
by including cases with a defined combination of nature of the injury 
or illness and event or exposure, and a specific MSD column on the OSHA 
form is not needed to generate them. The BLS MSD statistics enable OSHA 
and the general public to accurately evaluate the scope and trend of 
MSDs in America's workplaces.
    OSHA has never implemented a specific column for recording MSDs on 
its injury and illness forms. OSHA's old 200 Log contained a column for 
``repeated trauma'' cases, which captured some, but not all MSDs, but 
also included other conditions, such as occupational hearing loss. 
Since the column did not provide an accurate tally of all MSDs, it 
caused confusion regarding MSD statistics and was removed in 2001 as 
part of a comprehensive injury and illness recordkeeping revision.
    An MSD case is recorded on the OSHA Log 300 using the same process 
as for any other type of injury or illness. If an MSD is work-related, 
and is a new case, and meets one or more of the general recording 
criteria, the case must be recorded on the OSHA forms. Inclusion of a 
specific MSD column would have no bearing on the recordability of an 
MSD case. However, requirements for entering MSD cases in a specified 
MSD column would have relied on the same MSD definition used in the 
ergonomics standard repealed by the Congress. The requirements for the 
MSD column were delayed while the agency reconsidered the issue, and in 
2003, following public comment and extensive deliberation, OSHA decided 
not to include an MSD column on the form. The agency decision was based 
on several factors, including: (1) the column would not impact 
employer, employee and OSHA MSD analyses at the establishment level; 
(2) the column had no impact on OSHA's ability to carry out ergonomics 
enforcement under Section 5(a)(1) of the OSH Act; (3) different 
definitions of MSD may be appropriate depending upon the context in 
which they are used; and (4) accurate MSD statistics were already 
available from BLS.


    Senator Harkin. I do not know why we are having so much 
trouble with ergonomics. I just do not know why. You know. We 
know it is happening. We see people every day. We hear the 
reports. We see the data. Yet nothing ever seems to get done 
about it. It is--it is a health problem in America.
    I mean if we had workers exposed to asbestos or dangerous 
substances, we would be taking action. Yet, they are exposed to 
repetitive motion injuries that many times will plague them for 
the rest of their lives. Yet we just seem to just do nothing 
about it.
    Secretary Chao. I do want to correct one perception. When 
we inspect workplaces, it is not that we do not inspect for 
ergonomic infractions. When we talk about some of this, this is 
specifically ergonomics--specific ergonomics investigations or 
inspections. When our inspectors go into a workplace, they will 
take a look at the whole array of non-compliance activities and 
behaviors, which include many times, but it is not specifically 
targeted out as ergonomics.

                    MSHA'S REVIEW OF MINE ACCIDENTS

    Senator Harkin. Senator Byrd cannot be here today, and 
wanted me to just ask a couple of questions on MSHA. It has 
been more than 16 months since the mining tragedies at Sago and 
Alma. The United Mineworkers Association, as I said in my 
opening statement, issued a report recently stating that if 
MSHA had followed their legislative mandates, all 12 Sago 
miners would have survived. That was according to the United 
Mineworkers Association.
    MSHA's internal reviews of these accidents will be released 
shortly. I do not know when. Sometime soon. Could you provide 
for the record: One, a plan and time line for taking the 
corrective actions necessary to prevent tragedies, like those 
that occurred last year. Number two, the specific steps MSHA 
will take to get better communication and tracking technology 
into mines as soon as possible, until wireless systems are 
available. Third, provide for the record quarterly reports on 
MSHA funds being used to and outcomes achieved related to the 
specific requirements of the MINER Act.
    So if you could provide that to the committee. I will have 
these----
    Secretary Chao. I will do so.
    [The information follows:]

    MSHA is currently conducting exhaustive internal reviews of its own 
enforcement activities at the Aracoma, Darby, and Sago mines. These 
will evaluate the actions of MSHA prior to the accidents and provide 
appropriate recommendations to improve the quality and effectiveness of 
MSHA's enforcement program at the field offices, district offices and 
the headquarters levels of MSHA. MSHA will assess any deficiencies in 
its enforcement program and take corrective actions as soon as possible 
to address all identified shortcomings and issues.
    MSHA Technical Support has conducted an exhaustive review of 
communication and tracking technologies available in other industries 
globally and solicited interest from providers of this technology. We 
have received suggested technology improvements from more than 138 
interested parties, met with 52 of these parties and witnessed 20 
underground demonstrations of these improved technologies. MSHA's focus 
has shifted from evaluating and encouraging new technology 
manufacturers into the mining industry (as was done last year) to 
testing and evaluating for MSHA approval of this new technology. MSHA 
has received a total of 51 applications for approval of new 
communications and/or tracking technology since January 2006, and 25 of 
these were received in 2007. This represents a very significant 
increase from the typical number of communications systems approval 
applications. MSHA's Approval and Certification Center has prioritized 
all communications and tracking approval applications and has shifted 
internal resources towards evaluation of these applications. Six new 
communications or tracking products and 15 revised products have 
already been approved as of May 24, 2007, and it is anticipated that a 
significant number of improved technology products will be approved in 
the near future. Under the MINER Act, MSHA is ensuring that each mine's 
accident response plan provides for a redundant means of communication 
with the surface, such as secondary telephone or equivalent 2-way 
communication, and provides for pre-accident tracking as an interim 
step to wireless 2-way communication and electronic tracking systems.
    MSHA does not directly track expenditures of funds to the MINER 
Act. However, MSHA has implemented, or is in the process of 
implementing, all mandated MINER Act provisions. The following table 
summarizes MSHA's actions to date to implement the MINER Act:

               MINER ACT--IMPLEMENTATION DATES AND STATUS
------------------------------------------------------------------------
            Description of task                        Status
------------------------------------------------------------------------
        SEC. 2. EMERGENCY RESPONSE

Develop and adopt an Emergency Response         MSHA issued Program
 Plan (ERP) that contains provisions for     Policy Letters P06-V-8 on
 post-accident communications and            07/21/06; P06-V-9 on 08/04/
 tracking; post-accident breathable air;     06; P06-V-10 on 10/24/06
 lifelines; training; and local              implementing the Emergency
 coordination.                               Response Plan (ERP)
                                             provisions in section 2 of
                                             the MINER Act.
Update plans periodically.................      MSHA issued breathable
                                             air guidance on 2/8/07 in
                                             Program Information
                                             Bulletin (PIB) No. P07-03.
                                                ERPs submitted to MSHA
                                             by 08/14/06 or citations
                                             were issued to operators.
                                                MSHA has partially
                                             approved 100 percent of
                                             ERPs and fully approved 66
                                             percent of ERPs for active,
                                             producing underground coal
                                             mines. Once the breathable
                                             air provisions and other
                                             deficiencies are addressed,
                                             ERPs can be fully approved.
Post-accident communications and tracking.      MSHA issued a Request
                                             for Information (RFI) on 01/
                                             25/06 soliciting proposals
                                             for new communication and
                                             tracking technology. MSHA
                                             is sharing results of
                                             evaluations and testing
                                             with NIOSH. MSHA is
                                             evaluating submitted
                                             proposals, assisting in
                                             arranging demonstrations,
                                             observing testing at
                                             various mine sites, meeting
                                             with communication and
                                             tracking system company
                                             representatives, and
                                             communicating with parties
                                             interested in developing a
                                             mine communication and/or
                                             tracking system.
                                                MSHA approved four
                                             communication systems in
                                             2006 that are commercially
                                             available now.
                                                MSHA issued PIB P07-01
                                             on 01/18/07 addressing the
                                             use of Global Positioning
                                             Systems during storms.
Post-accident breathable air for                MSHA published an RFI on
 maintenance of individuals trapped          8/30/06; comments received
 underground.                                10/16/06.
                                                MSHA issued PIB P07-03
                                             and associated compliance
                                             materials containing
                                             options for providing post-
                                             accident breathable air to
                                             underground coal miners on
                                             02/08/07.
                                                Mine operators were
                                             required to submit a
                                             portion of the ERP
                                             addressing breathable air
                                             by 3/12/07. Mine operators
                                             have resubmitted ERPs with
                                             provisions for breathable
                                             air. As of May 31, 2007,
                                             306 of these ERPs have been
                                             fully approved while the
                                             remaining are currently
                                             being reviewed by the
                                             districts for breathable
                                             air and other deficiencies.
                                             The National Mining
                                             Association has challenged
                                             MSHA's breathable air
                                             guidance in the Court of
                                             Appeals for the District of
                                             Columbia.
                                                Mine operators must
                                             implement breathable air
                                             provisions 60 days after
                                             MSHA approval of ERP.
Post-accident, flame resistant,                 Emergency mine
 directional lifelines.                      evacuation final rule was
                                             published 12/08/06. The
                                             final rule requires that
                                             lifelines be made of flame-
                                             resistant material upon
                                             replacement, and that all
                                             lifelines be flame-
                                             resistant no later than
                                             June 15, 2009
Training program for emergency procedures.      Required in emergency
                                             mine evacuation final rule
                                             published 12/08/06.
Local coordination and communication            Required in ERPs
 between the operators, mine rescue teams,
 and local emergency response personnel.
Emergency Response Plan approval and            Required to be submitted
 review.                                     to MSHA by 8/14/06 and
                                             every 6 months thereafter

         SEC. 4. MINE RESCUE TEAMS

Provides certification, composition, and        MSHA drafting proposed
 training requirements for underground       rule expected. The final
 coal mine rescue teams.                     rule is due under the MINER
                                             Act on 12/14/07.

   SEC. 5. PROMPT INCIDENT NOTIFICATION

Requires operator to notify MSHA within 15      Included in Emergency
 minutes of a death or an injury or          Mine Evacuation final rule
 entrapment, which has a reasonable          (published on 12/08/06).
 potential to cause death.
                                                Minimum civil penalties
                                             under the MINER Act are in
                                             effect (see penalties,
                                             below).

   SEC. 7. REQUIREMENT CONCERNING FAMILY
                 LIAISONS

MSHA to be liaison and primary                  Assistant Secretary for
 communicator with families of victims and   MSHA was assigned
 primary communicator with mine operators,   responsibility for
 the press, and the public.                  developing Family Liaison
                                             Program on 11/02/06.
                                                MSHA issued PPL P06-V-11
                                             on family liaison and
                                             primary communicator on 12/
                                             22/06.
                                                MSHA is developing
                                             policy to be implemented as
                                             a part of accident
                                             investigation handbook.
                                                Training completed for
                                             14 designated MSHA
                                             personnel.

             SEC. 8. PENALTIES

Revise existing rule to increase minimum        MSHA immediately
 penalties for unwarrantable failure         implemented new minimum
 citations and orders; and ``flagrant''      civil penalties after
 violations.                                 passage of the MINER Act
                                             for unwarrantable failure
                                             and failure to notify
                                             violations. MSHA
                                             established procedures for
                                             evaluating ``flagrant''
                                             violations in October 2006.
                                                MSHA's final rule on
                                             civil penalties was
                                             published on 03/22/07 and
                                             is now in effect.

    SEC. 10. SEALING OF ABANDONED AREAS

Requires increase of 20 psi standard for        MSHA issued PIBs
 sealing of abandoned areas in underground   establishing a temporary
 coal mines.                                 moratorium on new seal
                                             construction until the
                                             agency issued subsequent
                                             guidance for addressing
                                             alternative seals: PIB-06-
                                             11 issued 06/01/06; PIB-06-
                                             12 issued 06/12/06; PIB-06-
                                             14 issued 06/21/06; PIB-06-
                                             16 issued 07/19/06. Seal
                                             strength for alternative
                                             seals was increased to 50
                                             psi under this PIB.
                                                MSHA issued Procedure
                                             Instruction Letter (PIL)
                                             I06-V-09 on 08/21/06
                                             establishing procedures for
                                             agency approval of
                                             ventilation plans that
                                             include alternative seals.
                                             MSHA has approved one plan
                                             that included alternative
                                             seals and has approved a
                                             number of others
                                             provisionally.
                                                MSHA will continue to
                                             work with NIOSH on research
                                             and testing of seals, pa
                                             articularly full-scale
                                             testing of seals at higher
                                             explosion pressures.
                                                NIOSH draft report
                                             issued 02/09/07.
                                                Emergency Temporary
                                             Standard (ETS) issued on
                                             May 22, 2007. The ETS,
                                             effective May 22, 2007,
                                             addresses the design,
                                             construction, maintenance
                                             and repair of seals, as
                                             well as requirements for
                                             sampling and controlling
                                             atmospheres behind seals.
                                             It requires training for
                                             persons who conduct
                                             sampling, and who construct
                                             and repair seals. Mine
                                             operators must submit
                                             design and installation
                                             applications for MSHA
                                             approval. In accordance
                                             with the Mine Act, the ETS
                                             must be finalized by
                                             February 22, 2008.

      SEC. 11. TECHNICAL STUDY PANEL

Establish Belt Air Technical Study Panel        Belt Air Technical Study
 to provide review and recommendations on    Panel established 12/20/06.
 the use of belt air and the composition
 and fire retardant properties of belt
 materials in underground coal mining.
                                                1st meeting held on
                                             January 9-10, 2007.
                                                2nd meeting held on
                                             March 28-30, 2007.
                                                3rd meeting held on May
                                             16-18, 2007.
                                                Procedures and timetable
                                             established. Relevant
                                             documents posted on MSHA's
                                             website.
                                                4th meeting will be June
                                             20-22, 2007 in Birmingham,
                                             AL.
                                                5th meeting will be
                                             scheduled to summarize all
                                             the Panel's activities.
Submit a report to the Secretaries of           Panel report due 12/20/
 Labor and HHS and to the Congress.          07.
Provide a response to Congress describing       Secretary of Labor's
 the actions that the Secretary intends to   response due 6/20/08.
 take based on the report and the reasons
 for such actions.

    SEC. 13. RESEARCH CONCERNING REFUGE
               ALTERNATIVES

Conduct research, including field tests,        MSHA will share with
 on the utility, practicality,               NIOSH data collected as a
 survivability, and cost of refuge           result of MSH's Request for
 alternatives in an underground coal mine    Information (RFI),
 environment.                                published 01/25/06, and
                                             other MSHA/NIOSH public
                                             meetings, including 03/13/
                                             06 meeting on mine rescue
                                             communication and tracking
                                             technology and 4/18/06
                                             meeting on Mine Escape
                                             Planning and Emergency
                                             Shelters.
Issue report to Congress concerning its         NIOSH report due 12/15/
 research re-  sults.                        07.
Provide response to Congress describing         MSHA response due 6/15/
 the actions that the Secretary intends to   07.
 take based on the report, including
 proposing regulatory changes.

      EMERGENCY MINE EVACUATION RULE

MSHA issued final rule, effective               National Mining
 immediately, on 12/08/06 finalizing         Association has challenged
 emergency temporary standard providing      the final rule in the Court
 improved protections for emergency mine     of Appeals for the District
 evacuation.                                 of Columbia.
                                                On 03/30/07, MSHA issued
                                             notice on availability of
                                             SCSR training units which
                                             must be used within 60 days
                                             after receipt of the units.
------------------------------------------------------------------------

    Senator Harkin [continuing]. Submitted----
    Secretary Chao. Did you want me to answer some of that or--
--
    Senator Harkin. What?
    Secretary Chao. Did you want me to answer some of that?
    Senator Harkin. Do you want to answer that? I just----
    Secretary Chao. We will provide more for the record as 
well. Obviously, we have been very, very focused----
    Senator Harkin. Okay.
    Secretary Chao [continuing]. On all of this in the 
aftermath of the tragedy of 2006.
    Senator Harkin. Do you know when this review is going to be 
issued? Do you have any idea on MSHA's review?
    Secretary Chao. Yes.
    Senator Harkin. Shortly?

                       MSHA'S ARACOMA MINE REPORT

    Secretary Chao. Yes. In fact, the Aracoma Mine report will 
be coming out tomorrow. I respectfully ask that we debrief--we 
brief the family members first before doing so to the 
committee.
    Senator Harkin. Okay.
    Secretary Chao. That has always been the procedure. But we 
are--it takes a long time to file these reports. Please know 
that we are diligently working away to find out the causes. We 
do not want to prejudge. There is an internal review process 
that occurs. Then that report is usually released about a month 
after the accident report.

                     PERSONAL PROTECTIVE EQUIPMENT

    Senator Harkin. One last thing and then we will, I think--
one or two last things here. Personal protective equipment.
    Secretary Chao. Yes.
    Senator Harkin. OSHA's own estimates indicate that 
requiring employers to pay for basic personal protective 
equipment such as safety goggles and earplugs could prevent 
workers from suffering nearly 50,000 workplace injuries per 
year. These are OSHA's estimates.
    It has now been 8 years since a standard was first 
proposed. Despite repeated assurances, OSHA has let this 
fundamental worker safety requirement languish. In response to 
a recent lawsuit, OSHA, again, is promising to issue a 
standard. This time by November. OSHA has offered no assurances 
about what kind of standard it will issue.
    So my question, Madam Secretary, is: When will you issue 
the standard that OSHA first proposed in 1999? Given the 
opposition to this proposal by special industry interests, what 
assurances can you give us that you will not weaken the final 
standard in comparison to the 1999 proposal?
    Secretary Chao. We have been, actually, working on this 
issue for quite a while. The issue as to who should pay for 
personal protective equipment, you know, appears pretty 
straightforward on the surface. But, in fact, it is a very 
complicated issue. It requires careful deliberation to address 
a lot of the complex issues that have been raised in the 
rulemaking record.
    We are currently considering the issues raised in the 
rulemaking. We reopened it for comment in 2004. We do--we know 
that this is important. So the Department does intend to issue 
a final rule, absent, again, unforseen circumstances, by 
November of this year. We think that we can probably do it. It 
is our intent to do it by that time.
    Now regardless as to who pays for PPEs, our standards 
require employers to determine and ensure that workers use PPEs 
appropriately, so they can be protected. That is very firm.
    Senator Harkin. All right. Thank you very much.
    Let me loop back to something that I talked about earlier. 
Because in between time, I talked about these earmarks and 
stuff. These special non-competitive awards.

                    INTERNATIONAL LABOR ORGANIZATION

    Again, back to international child labor. Which has been an 
interest of this Subcommittee--mine, but also Senator Specter's 
too, when he was chair.
    We--you, the Department of Labor, had a relationship with 
the International Labor Organization for a long time. What I am 
hearing--what I am hearing is that you are now thinking of 
putting that out for other recipients.
    As I said earlier, a small amount of non-competitive grants 
is reasonable. We have guidelines for that. Considering certain 
factors, such as the unique qualifications of a grant 
recipient. The continuance of an existing relationship that has 
allowed for the maintenance of services are of particular 
significance to the agency on a long-term basis.
    So I am concerned that you are undergoing efforts to 
discontinue the relationship that Labor has had with the 
International Labor Organization. I am wondering what that is 
all about.
    Secretary Chao. Well, that certainly is not true. I mean I, 
myself, have gone to every single International Labor 
Organization's annual meeting. I think I have gone more 
frequently than any other secretary. I think that is pretty 
accurate.
    As I mentioned, the stance of the Department is that we try 
to competitively bid these grants. Because we want to ensure 
that the best services are available to the recipients and 
beneficiaries of these grants.
    The 90 percent that you mentioned, I will look at that.
    Senator Harkin. Okay. Well, we do not need to go over ----
    Secretary Chao. I do not think that is quite correct.
    Senator Harkin [continuing]. That ground any more.

                        PERFORMANCE REVIEW BOARD

    Secretary Chao. Then where there are instances for sole-
source, which, again, we try not to do, it has to go through a 
performance review board. As you mentioned, there has to be 
some pretty extraordinary circumstances.
    Senator Harkin. Who makes up that performance review board 
anyway? How are they appointed? How are they picked? Who picks? 
How many are there?
    Secretary Chao. I think I--I think I choose them, but I 
think I sign off on the candidates who are nominated for this 
board, and it goes--you know, goes through clearance. It is 
primarily----
    Senator Harkin. Could you find out for me?
    Secretary Chao [continuing]. Professionals----
    Senator Harkin. I want to find out who this performance 
review board is, and how they are picked, and how many. I do 
not have any idea whatsoever.
    Secretary Chao. They are primarily career people.
    Senator Harkin. Yes.
    Secretary Chao. It has been there before we--you know, it 
has been there for a very long time.
    Senator Harkin. I think so. I just do not know anything 
about it.

                        ILO FUNDING THROUGH ILAB

    Secretary Chao. We hope that the ILO will compete in this 
grant-making process. ILO is very competent. They should be 
able to do very well in the grant competition.
    We have over 30 other organizations, however, that do work 
in child labor. We have AED. Catholic Relief Services. 
International Rescue Committee. Save the Children. Winrock 
International. International Youth Foundation. UNICEF, even.
    So absent, again, a hard earmark within the legislation, 
there are many other organizations that have this capability to 
provide the services. So--
    Senator Harkin. Well, I would respectfully disagree with 
you on that. In terms of this--I mean they do good stuff. Do 
not get me wrong. But this is something I have tracked down for 
a long time. The ILO has been involved in this. They have the 
structures. They work with these other agencies. They 
coordinate with these other agencies to do certain things in 
the field on child labor.
    Secretary Chao. Then if they fund----
    Senator Harkin. Gathering data, for example. That type of 
thing. Pardon?
    Secretary Chao. If they fund these other organizations 
then, they of course, take a fee, you know, for the management. 
There is an overhead--excess overhead charge. Again, we are not 
against ILO for doing this. We just say--we are just saying 
that in the current situation--as you well know, throughout the 
administration, there is this emphasis on earmarks. Unless--in 
the language of the bill, which, of course, could not happen in 
this last go-around. But nevertheless, anything short of that, 
we basically are opening it up for competitive bidding.
    So we hope the ILO will compete.
    Senator Harkin. Well----
    Secretary Chao. I mean with their particular expertise, 
they should do very well.
    Senator Harkin. Again, as I said, there is a--there is an 
exception made for unique qualifications, continuance of an 
existing relationship for maintenance and services, on a long-
term basis, that allow for non-competitive grants.
    The problem I see with this is that--obviously, everybody 
wants some money. So if you throw it out there, sure, you may--
I do not want to see this parceled out. I do not want to see a 
little bit going to Catholic Relief Services, and a little 
bit--Lutheran Relief Services. A little bit to Red Cross, or 
whoever, out there. They are all good organizations. They do 
great work in a lot of ways.
    We have had a focus on international child labor from this 
Department through ILO, for about, if I am not mistaken, 12 
years now. I think that has been about right. Maybe a little 
bit longer.
    As I said, we are making great progress. It is something 
that I monitor closely personally, and my staff. I am concerned 
about parceling things out and sort of taking the focus off. 
You have just got to--you have a good focus on it. I think ILO 
has been uniquely qualified to do that. Only because they--
well, they have been doing it for a long time.
    All of the things I have seen in the field indicates that 
they are doing a good job. If you have other information other 
than that, I would be more than happy to see it. But I am 
concerned about that aspect of it. So we will leave it at that, 
I guess.
    Secretary Chao. I take your advice on not fragmenting or 
parceling out----
    Senator Harkin. Yes.
    Secretary Chao [continuing]. These----
    Senator Harkin. Because it is not that much money anyway.
    Secretary Chao. It is a lot of money.
    Senator Harkin. Well, you are trying to cut it. You are 
trying to cut it. I know that. But I am not trying to cut it.
    Secretary Chao. I understand your point about not parceling 
it out. But I think that is still separate from competitive 
bidding. So----
    Senator Harkin. I do not know about that.
    Secretary Chao. Okay.
    Senator Harkin. We will have to take a look at it----
    Secretary Chao. I will.
    Senator Harkin [continuing]. And see. See who else--see if 
there is anyone else out there qualified. Only because I said 
that we have--unless you have information and data that can 
show me that ILO is not doing its job, and that it has been 
falling down on it, and that, then that is different. That is 
quite different.
    Secretary Chao. Yes. I do not think that is the case 
either. I think it has always been--we just try to--more and 
more we are just trying to competitively bid these contracts, 
again, with----
    Senator Harkin. I do not have anything wrong with 
competitive bidding, unless that would lead to a derogation----
    Secretary Chao. I understand.
    Senator Harkin [continuing]. Of the efforts that we have 
ongoing. Well, Madam Secretary, first, before I--this is really 
all I wanted to cover, that I had. The only other thing I would 
just say is that a 9.4 percent cut in this budget is--it is not 
good. Especially, just the whole area of Job Corps cut, $55 
million. A 3.5 percent cut.

                 OFFICE OF DISABILITY EMPLOYMENT POLICY

    The other one--oh. Yes. There is one other area I just want 
to bring to your attention. There is a proposed cut in funds 
for the Office of Disability Employment Policy by $9 million. 
That is a 32 percent cut.
    Madam Secretary, we passed the American Disabilities Act in 
1990. President Bush, the first Bush, signed it into law. It 
was bipartisan. We have had 17--and my name is on that, by the 
way. We have had 17 years of experience under ADA. One of the 
goals of ADA was self-sufficiency, that people with 
disabilities would become self-sufficient.
    Yet, 17 years later, the unemployment rate among people 
with disabilities is over 60 percent.
    Secretary Chao. Right.
    Senator Harkin. It is over 60 percent.
    Secretary Chao. I agree with you, yes.
    Senator Harkin. So, you know, this is one where we just 
have to start focusing more attention. Now that is why, and 
this is not in your area, but--I am making sure we have 
reasonable accommodations for people with disabilities. 
Transportation. All those other things. But that is outside of 
your bailiwick.
    But one thing that is in there is this disability 
employment policy. I do not know why--what is the reason for a 
32 percent cut when we have over 60 percent unemployment among 
people with disabilities.
    Secretary Chao. We share your concern about the high rate 
of unemployment among Americans with disabilities. But I think 
we disagree on what ODEP should be doing. By having ODEP give 
out grants, we do not feel it is the best way to tackle this 
problem either. ODEP should be a catalyst. It should be a 
facilitator. It should be a--you know, a convener. It should be 
sharing best practices. It should be doing the kind of--
advocacy. Promotion work. Rather than give out grants. We are 
very limited on----

                              ODEP GRANTS

    Senator Harkin. What do those grants do?
    Secretary Chao [continuing]. What people----
    Senator Harkin. What do those grants do, Madam Secretary?
    Secretary Chao. With not very much results, I am afraid.
    Senator Harkin. But what do they do? What do those grants 
do?
    Secretary Chao. They give them out--sometimes they are 
direct grants to increase employment. A very small amount. $20 
million, basically.
    Senator Harkin. Is that $20 million just given out in 
grants?
    Secretary Chao. Actually, the budget is about $40 million. 
So we have asked for $20 million. So there is a difference of 
about $20 million. But we do not think that, again, ODEP should 
be involved in grant making.
    Senator Harkin. Well, can your staff give us some idea of 
what those grants are?
    Secretary Chao. Sure.
    Senator Harkin. I have been told that some of those grants 
actually go out to show employers how they can employ people 
with disabilities by making modest, small accommodations that 
do not cost a lot of money.
    I have heard all kinds of stories of these grants going out 
and showing an employer that by just a small amount of 
investment, they can hire people with disabilities, and have 
good workers who are very productive.
    But a lot of times, they do not think about things. It is 
not that they are bad. The employers do not think about things 
like that. They have businesses to run, and they are trying to 
move ahead and stuff. But sometimes these grants go out to 
really show what can be done. Then others can see it.
    So if I am wrong in that, let me know. I would like to know 
what some of these----
    Secretary Chao. I will take a look.
    Senator Harkin [continuing]. Grants look like.
    Secretary Chao. I will do so.
    Senator Harkin. I am not sure if I agree with you that we 
should not be giving grants. It depends on what the grants are 
for. If the grants are just busy work and studying something to 
death, well, you are right. I would agree with you that that 
would not be--but if it is actually going out to provide 
information and support to employers, especially small 
employers, to show what they can do to enhance the workplace 
for people with disabilities, well, I would not think those 
would be bad things to do. But if you would just give me some 
information on it, I would sure appreciate it.
    Well, actually, I have kept you long enough, Madam 
Secretary. There are some others, but--well, we may have some 
questions for the record we will submit to you.
    One last thing. Madam Secretary, I am concerned that the 
Department is not responding to requests from the subcommittee. 
We are still waiting for responses to questions for the mine 
and safety hearing record, which were due last week, and the 
State tables on the impact of your proposed $335 million 
cancellation of Job Training funds.
    Again, will you assure me that your Department will provide 
this subcommittee, our staffs, both sides, with timely and 
accurate responses to requests for information?
    Secretary Chao. I am sorry that that has been delayed. I 
thought they were--I am sorry that you have to bring it up. It 
will not happen again.
    Senator Harkin. I appreciate that very much. Then we also 
have some questions for the record.
    Secretary Chao. I would be more than glad----
    Senator Harkin. Anything else?
    Secretary Chao [continuing]. To answer them.
    Senator Harkin. All right. Anything else, Madam Secretary, 
you would like to request of us, or bring our attention to, or 
anything? I mean----
    Secretary Chao. I think we are okay. We have a good 
relationship with your staff. We look forward to working with 
them on some of these----
    Senator Harkin. Very good. Yes.
    Secretary Chao [continuing]. Tough issues.
    Senator Harkin. Okay. Well, thank you very much. You have 
been generous--oh, wait. Just a moment.
    Secretary Chao. I will submit a document on the balances 
per the State. I thought you might be interested in this.
    Senator Harkin. Oh. Yes. Yes. Yes. We would like to see 
that.
    Secretary Chao. All right.
    Senator Harkin. I will get my staff to take a little bit 
more look at that. On the balances. This is the carryovers that 
we were talking about earlier.
    Secretary Chao. Right.
    Senator Harkin. Yes.
    Secretary Chao. Because this comes up every year.
    Senator Harkin. I know. I would like to get a handle on it.
    Secretary Chao. Yes.
    Senator Harkin. I have one kind of view, or something, or 
one way that I think about it. I do not know if that is the 
right way or not, because--well, I mentioned about the 
contractual obligations. That type of thing.
    You had a different way of looking at it, as to whether or 
not that money is actually spent or not. Well, I do not know 
the answer to that question.
    Secretary Chao. We look forward to working with you on 
this.
    Senator Harkin. I appreciate it very much.
    Secretary Chao. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Well, you have been very generous with your 
time, and your answers and responses.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
            number trained under career advancement accounts
    Question. Please provide a chart displaying for the past 5 program 
years, the number of individuals trained under the proposed 
consolidated programs versus the number trained under the proposed 
Career Advancement Accounts. Please provide a quantitative analysis of 
how this proposal, which reduces funding sources for consolidated 
programs by more than $600 million, or 16 percent, can result in an 
increase of the number of trained individuals from 200,000 under 
current law to 600,000 under your proposal.
    Answer. The Career Advancement Account proposal for Workforce 
Investment Act (WIA) reauthorization proposes the consolidation of four 
programs--the WIA Adult, Dislocated Worker, and Youth programs and the 
Employment Service. The following table shows the number of individuals 
trained in each of the past 5 years in the WIA Adult and Dislocated 
Worker programs. A minimal number of youth receive training under the 
WIA Youth program, and training is not provided under the Employment 
Service.

----------------------------------------------------------------------------------------------------------------
                                                                       Number of Individuals Trained
                                                          ------------------------------------------------------
                         Program                                                Program year
                                                          ------------------------------------------------------
                                                              2001       2002       2003       2004       2005
----------------------------------------------------------------------------------------------------------------
WIA Adult................................................     75,963    107,671    102,950    109,492    105,457
WIA Dislocated Worker....................................     66,192     98,540    102,415     95,113     83,669
----------------------------------------------------------------------------------------------------------------
Source: Workforce Investment Act Standardized Record Data file.

    The President's proposal for WIA Reauthorization would result in 
over 600,000 individuals trained through Career Advancement Accounts 
each year. Under the proposal, the amount of WIA funding dedicated to 
training would be substantially increased. This would be accomplished 
by (1) eliminating the current inefficient ``silo'' business model 
whereby programs are duplicative and create inefficient and parallel 
service delivery structures and (2) implementing a customer-focused 
model that enhances access to postsecondary education and training.
    At the President's request level in the fiscal year 2008 budget, 
local areas would be required to spend a total of $1,899,000,000 on 
training. A Career Advancement Account would provide up to $3,000 each 
year for a worker to obtain training, resulting in an estimated 633,000 
individuals trained each year. Additional funds are provided to States 
for Employment Services, to be used by local areas for the provision of 
intensive services and discretionary One-Stop Career Center services in 
addition to the provision of core services. More detail on the proposed 
funding structure is provided in the following table.

 WIA REAUTHORIZATION PROPOSAL FUNDING STRUCTURE PRESIDENT'S FISCAL YEAR
                           2008 BUDGET REQUEST
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
      Total Appropriation............................     $3,413,000,000
National Reserve (7.5 percent of Total Appropriation)        255,975,000
                                                      ==================
      Total Funding to States........................      3,157,025,000
Set Aside for Outlying Areas (.025 percent)..........          7,892,563
State Administration (5 percent of Total Funding to          157,456,622
 States).............................................
                                                      ------------------
33 percent to State Level............................      1,039,213,704
    State Administration (5 percent of the Total             157,456,622
     Funding to States)..............................
Employment Services (67 percent of State Level funds)        696,273,182
    State-wide Activities (Remaining State Level             185,483,901
     funds)..........................................
                                                      ==================
67 percent to Local Areas............................      2,109,918,733
    Local Administration (10 percent of Local Area           210,991,873
     funds)..........................................
    Career Advancement Accounts (90 percent of Local       1,898,926,860
     Area funds).....................................
                                                      ==================
Average Account......................................              3,000
Number of Accounts...................................            632,976
------------------------------------------------------------------------


                     FUNDS SPENT ON ADMINISTRATION

    Question. The budget justification States that ``too many resources 
are being used to pay for administrative functions, overhead costs, and 
multiple layers of staff.'' What is the specific evidence for these 
conclusions? Please provide more detailed information about the amounts 
of resources that DOL believes is spent inappropriately on 
administrative functions.
    Answer. The Department's belief that too much workforce investment 
funding is used for administration and overhead costs comes from a 
number of sources. First, while the Employment Service is intended to 
be a cornerstone of the One-Stop Career Center system under the 
Workforce Investment Act (WIA), many States continue to have separate 
Employment Service offices offering the same core services that are 
available in the same communities at the One-Stop Career Centers under 
WIA. The lack of integration in the delivery of core services by 
different programs has continued duplicative bureaucracies that divert 
funds that could be spent on services, including education and 
training.
    Second, the current WIA regulation at 20 CFR 667.220(b) enumerates 
the specific functions defined as administrative costs. As required by 
WIA, this definition of administrative costs was developed in 
consultation with Governors and other stakeholder groups in 1999, and 
was more narrow than the definition in use before 1999. However, 
instead of reducing the level of administrative activity when the caps 
were lowered, some States and local areas charge some activities 
considered administrative costs under earlier programs as program 
costs. Activities such as performing oversight and monitoring of the 
program, the costs of facilities used for programmatic activities, the 
provision of technical assistance, the activities of State and local 
boards, professional organization membership dues, and the evaluation 
of program results, which have traditionally been classified as 
administrative costs, are currently classified as programmatic costs. 
As a result, there is no effective administrative cost ceiling.
    Finally, based on expenditure data submitted by the States, the 
Department estimates that the proportion of WIA and Employment Service 
funding that has been spent on infrastructure is about one-quarter for 
the last 4 program years. For this estimate, the Department looks at 
the costs of infrastructure, including both physical and organizational 
costs, at the State and local levels that support the delivery of 
services to participants by the One-Stop system such as local 
administration and other infrastructure costs. While the Department 
does not question whether some of these costs are necessary or 
appropriate, taken in total, too large a proportion of WIA funds is 
spent on infrastructure and overhead rather than direct services.

                  COMMUNITY-BASED JOB TRAINING GRANTS

    Question. The budget request proposes to continue a fourth year of 
investments in two related initiatives that according to the Department 
are critical to the ``transformation of the workforce system and talent 
development''--the High Growth Job Training Initiative and the 
Community-Based Job Training Initiative, better known as the Community 
College Initiative.
    To improve the training capacity in many communities, the budget 
request also includes the Community College Initiative. How does the 
Department plan to evaluate the impact of this investment--$250 million 
in the first two rounds alone--on increased community college capacity, 
better skilled workers, and community economic growth? How does the 
Department plan to identify and share promising practices with the 
education, workforce and economic development networks to further 
advance these improvements? How will the Department determine what is a 
``promising or best'' practice?
    Answer. The Department of Labor's Employment and Training 
Administration (ETA) is launching a full evaluation of the Community-
Based Job Training Grant (CBJTG) program, also known as the Community-
College Initiative, in Program Year (PY) 2007. It is focused on all 
grants awarded under the first two competitive Solicitations for Grant 
Applications. The evaluation will be composed of two parts. The first 
part is an implementation study that explores the effectiveness of 
capacity building efforts. The second part of the CBJTG evaluation is a 
net-impact study. This study, using non-experimental matching 
methodologies, will assess the net impacts of CBJTG training against a 
comparison group of like individuals. Additionally, grantees report 
their progress towards meeting their capacity building goals and the 
impact of their capacity building activities to ETA on a quarterly 
basis. ETA is in the process of compiling and validating the impact 
data reported to date.
    Grantees are taking a variety of approaches to help bridge the gap 
between the workforce needs of industry, and the training and education 
provided to individuals who need jobs. As a result of these new 
approaches, grantees are producing a variety of products including best 
practice case studies, curriculum, competency models, distance learning 
tools, career awareness and outreach materials, research, career 
lattices, creation of industry skill centers, and Web sites.
    CBJTGs were funded because they met an identified high growth or 
high demand industry need by implementing a capacity building and 
training strategy. Therefore, ETA believes all products developed under 
these grants may provide useful resources to the workforce system and 
many are potential promising or best practices. ETA is currently 
implementing a comprehensive dissemination plan to distribute the 
approaches, products, models, and tools from both the CBJTG and High 
Growth Job Training Initiative grantees to the public workforce 
investment system and educators from across the country. To do this, 
ETA utilizes a network of national, regional, State, and local 
stakeholders including industry, education, and the workforce 
investment system. ETA makes all of these grantee tools, models, and 
products available through the Workforce3One Web site 
(www.workforce3one.org), a site designed for sharing innovative 
resources, tools and learning events with workforce and education 
professionals. ETA routinely features products and promising practices 
through Webinars and monthly electronic newsletters distributed through 
Workforce\3\One. In addition, ETA is developing a series of industry 
product CDs in order to share all Workforce\3\One materials with 1,900 
community colleges, 3,200 local One-Stop Career Centers, State and 
Local Workforce Investment Boards, Governors, and a wide variety of 
industry associations.

                    WIA REALLOCATION AND RESCISSION

    Question. The budget proposes to cancel $335,000,000 of unexpended 
balances from various State formula grant programs authorized under the 
Workforce Investment Act. Since this proposal will cancel unexpended 
balances in State WIA funds, how will the Department know whether these 
funds are obligated already for authorized activities, including 
training?
    Answer. States submit quarterly financial status reports to the 
Department which include data on Workforce Investment Act (WIA) title I 
formula fund obligations as well as expenditures. By using data 
reported at the end of Program Year (PY) 2005 (the most recent 
completed program year) as a guideline, approximately $555 million in 
WIA formula funds not obligated by the State and local areas were 
carried over into PY 2006. Since these unobligated funds greatly exceed 
the proposed $335 million cancellation, and make up only part of the 
total unexpended carryover balance that reaches over $1.1 billion, the 
Department does not expect obligated balances to be impacted 
significantly. Furthermore, the proposal would provide flexibility for 
the Secretary, at the request of the State, to allow a portion of the 
cancellation to be applied to a State's current-year funds, which are 
less likely to be fully obligated.
    Question. The budget proposes to allow the Secretary to reallocate 
among the States for program year 2007 any amount that a State had 
unexpended for certain WIA program in excess of 30 percent and provide 
those funds to any State that did not have a balance greater than this 
amount. In addition, bill language is proposed that would allow 
Governors to reallocate funds in the same manner at the local level.
    For each of the last 3 program years, please provide information on 
the extent to which reallocations at the local level take place 
currently, by State. Is there good enough data available to the 
Secretary and governors for making the reallocations, under the 
authority requested in the fiscal year 2008 budget?
    Answer. The fiscal year 2008 budget proposes that the Secretary for 
States, and the Governor for local areas, have the authority to 
recapture and reallocate unexpended funds in excess of 30 percent of 
available funds. This would expand the current law recapture and 
reallocation authority that only applies to unobligated funds. The 
Department currently receives certified reports on expenditures from 
States providing the information needed to calculate which States would 
be affected by the proposed recapture and reallocation. Because of 
early concerns about the quality of accounting and financial reporting, 
the Department has conducted extensive financial training sessions with 
State and local staff to ensure that financial data is accurately 
gathered, recorded and reported. For instance, the Department developed 
and offered across the Nation a course on accrual accounting.
    Individual local area financial data is reported to the State, but 
only aggregate local information is reported by the State to the 
Department of Labor. The State determines the recapture and 
reallocation of local funds and the Department does not collect 
reallocation data from the States; therefore, the Department cannot 
provide that information.

                      FINANCIAL REPORTING GUIDANCE

    Question. Has DOL provided more financial reporting guidance, 
technical assistance and promising practices, as recommended by the 
Government Accountability Report, GAO-03-239? Please describe the 
actions taken and/or planned (including a timeline) to address the 
recommendations in this report.
    Answer. Yes, the Department has provided financial reporting 
guidance and technical assistance. Between fiscal year 2004 and fiscal 
year 2006, the Department provided a number of States considerable 
technical assistance through Accrual Accounting and Financial Reporting 
training sessions. During these sessions, the Department provided 23 
States with guidance and technical assistance on accrual accounting and 
financial reporting requirements, such as in-depth training on the 
reporting requirements for WIA funds as well how to account for, 
define, and report consistently on obligations, unliquidated 
obligations, and accrued expenditures.
    The Department conducted Accrual Accounting and Financial Reporting 
training sessions for State and local employees on the following dates:
  --January 23-27, 2006--Two sessions in Washington
  --April 11-12, 2006--One session in Maryland
  --April 18-19, 2006--One session each in Wisconsin and Arkansas
  --April 25-26, 2006--One session each in Minnesota and Oklahoma
  --May 9-10, 2006--One session in New Mexico
  --May 17-18, 2006--One session in Michigan
  --May 23-24, 2006--One session in Oregon
  --June 27-28, 2006--One session in Ohio
  --June 20-21, 2006--One session in Pennsylvania
  --July 17-18, 2006--One session in Nebraska
    Additionally, the Department has held three major national 
conferences around the country during the most recent year to train 
State, local and other financial and administrative staff on WIA and 
other Federal requirements that must be followed, including those 
relating to financial reporting.

                MIGRANT AND SEASONAL FARMWORKER PROGRAM

    Question. The budget proposes to eliminate funding for this 
program, inpart, because the Department believes the program does not 
focus enough on providing employment and training services. Over the 
last 5 years, about 5 percent of grant funds have been spent on related 
assistance, of which some is for gas and car repairs and some for 
emergency food, housing and medical care. Over 80 percent of the funds 
have been spent on job training and placement activities. About 90 
percent of the jobs farmworkers were placed into were outside of 
agriculture and came with benefits and significant wage gains. Are 
these figures consistent with Department of Labor records? If not, why 
not? If the data is accurate, what's wrong with spending patterns and 
outcomes achieved by grantees under this program?
    Answer. The Department does not collect data on whether jobs into 
which farmworkers are placed are outside of the agricultural industry. 
However, the goal of the program, and of all job placements, is 
economic self-sufficiency.
    The expenditure rates cited are largely consistent with what 
grantees have reported to us. The Department of Labor's Employment and 
Training Administration (ETA) has been concerned that, historically, a 
majority of participants have been receiving only low cost related 
assistance services, which are available through other Federal programs 
and do not promote self-sufficiency, compared to those receiving 
employment and training services. This concern led ETA to implement 
three new approaches during the 2005 Program Year (PY):
    (1) refocusing the Solicitation for Grant Applications by 
highlighting that the National Farmworkers Jobs Program (NFJP) is a job 
training program;
    (2) establishing a cap on the number of participants who could 
receive related assistance services only; and
    (3) changing the reporting system so that, for the first time, ETA 
could collect both participant and financial data on related assistance 
services only. Therefore, the PY 2005 expenditures for related 
assistance, accounting for 5.4 percent of the total, reflect, for the 
first time, the expenditures for those participants receiving these 
services and no others.
    Currently, the NFJP provides services to about 20,250 of an 
estimated 2 million farmworkers, which demonstrates the need for a 
wider system approach. The One-Stop Career Center system can provide a 
full array of employment and training services, as well as supportive 
services and other related assistance, available from 17 Federal 
programs. Those being served by the NFJP have similar types of barriers 
to full-time employment that other workers do, and the relatively small 
NFJP does not provide its participants with the full array of benefits 
they would derive from the workforce investment system.

            COMMUNITY SERVICE EMPLOYMENT FOR OLDER AMERICANS

    Question. The budget proposes a reduction of $133.6 million for the 
Community Service Employment for Older Americans program, based in part 
by efficiencies that could be realized under the reauthorization of the 
program. Specifically, what are the efficiencies that DOL believes will 
be achieved for administration of this program? What factors and 
assumptions did DOL use to calculate the proposed reduction of $133.6 
million?
    Answer. Improvements to the program as a result of the changes made 
by the 2006 amendments to title V of the Older Americans Act (OAA), 
which authorizes the program, allow the Department to more efficiently 
use funds to serve workers than is possible under current law. Reforms 
that will contribute to increased efficiency in the program include the 
following:
  --A new time limit on participation of eligible individuals in the 
        program is a key reform of the program. This ensures that more 
        people can access the program by rotating individuals more 
        promptly through available slots, and helps grantees focus on 
        the end goal of the program--helping seniors find unsubsidized 
        employment.
  --Performance measures have been streamlined and strengthened, 
        holding grantees accountable for results, and promoting 
        efficient and effective use of program funds.
  --The newly reauthorized program provides more training options for 
        participants. While community service can provide valuable work 
        experience, many seniors need additional education and training 
        in order for their skills to be viable in regional labor 
        markets.
  --The reauthorized OAA requires that an open competition for national 
        grants be conducted every 4 years, ensuring that the best 
        grantees operate the program and provide a stimulus for new 
        ideas, innovation, and high-quality service.
    The Department examined a number of factors in determining its 
fiscal year 2008 request. These include excessive recaptured funds, 
which have steadily increased over the past few years and topped $13 
million in PY 2004. The Department also considered the high number of 
unfilled slots among program grantees, which totaled over 1,500 in 
Program Year 2005. These factors indicate that program improvements are 
still needed in order to provide the most efficient and responsive 
services to low income seniors.
    Question. What is the cost of maintaining the participant level at 
the 2007 program year level as adjusted by the higher minimum wage 
provided by H.R. 2, which was passed by the Senate on February 1, 2007?
    Answer. Program Year (PY) 2007 has not yet begun, but will begin on 
July 1, 2007. In PY 2006 (July 1, 2006-June 30, 2007), the Department 
allocated 60,438 SCSEP authorized positions. The higher minimum wage 
provided by H.R. 2 would increase the unit cost. The unit cost 
represents how much each authorized position costs, and its calculation 
is set by the Older Americans Act section 506(g). The current unit cost 
is $7,153. The minimum wage increase was signed into law May 25, and 
will become effective 60 days later on July 24, 1 month into PY 2007. 
The new unit cost for PY 2007 will be $7,949. To support 60,438 
positions at the PY 2007 unit cost of $7,949 requires $480,421,662 
($7,949 unit cost times 60,438 authorized positions). To support 60,438 
positions at the $6.55 minimum wage and a unit cost of $8,850 requires 
$534,876,300 ($8,850 unit cost times 60,438 authorized positions). The 
actual unit cost of SCSEP authorized positions will depend on whether a 
minimum wage bill is passed by the Congress, and the effective date of 
the minimum wage increase.
    Question. How does the Department analyze and interpret the data 
that it has collected from all SCSEP grantees since July 2004 as well 
as the SCSEP evaluation completed by DAH Consulting for DOL in 2006? 
Both provide a very positive report on SCSEP's effectiveness. For 
example, SCSEP is given a higher customer satisfaction score than WIA 
by participating seniors and employers, according to a national survey 
published by the Charter Oak Group, a DOL contractor.
    Answer. The Department regularly analyzes Senior Community Service 
Employment Program (SCSEP) data using the following sources: (1) 
grantee data in the SCSEP Performance and Results Quarterly Progress 
Report (SPARQ) system and (2) customer satisfaction surveys returned by 
SCSEP participants, host agencies, and employers. Although the customer 
satisfaction scores from participants, host agencies and employers are 
quite high, an analysis of performance data and financial data raises 
concerns about program effectiveness and indicates that some grantees 
have not provided services at the full level for which they receive 
funds, resulting in a significant amount of funds being recaptured and 
a significant number of authorized training positions or ``slots'' 
being unfilled. Improvements to the SPARQ system will result in 
increasingly accurate data and will allow the Department to provide 
better guidance and technical assistance to grantees in efforts to 
perform more efficiently.
    The Department also has analyzed results from a draft of the SCSEP 
evaluation by DAH Consulting. Although the DAH evaluation was positive 
overall, it also pointed to some areas where the SCSEP needs 
improvement. Specifically, the program could be more effective at 
moving participants into unsubsidized employment. As the report points 
out, this involves improving collaboration between SCSEP and the One-
Stop Career Center system and improving access to training for good 
jobs. Two specific aspects of the newly reauthorized SCSEP--providing 
more training options for participants and placing a time limit on 
participation--should begin to address this challenge, ultimately 
enabling more individuals to secure unsubsidized employment. Finally, 
although the evaluation included some analysis of outcomes, it did not 
look at a critical aspect of the program's effectiveness: its impact on 
the longer-term self-sufficiency of its participants. The Department 
will begin a study of that aspect of SCSEP this summer.

                            JOB CORPS OFFICE

    Question. The fiscal year 2008 budget proposes to transfer the Job 
Corps office back to ETA on the basis of better integration of Job 
Corps within the workforce system and greater efficiencies. Please 
provide a more detailed justification for this proposal.
    Answer. We continue to believe that the unique services of the Job 
Corps program are maximized when leveraged with the other job training 
and employment programs administered by ETA. The transfer back to ETA 
will maximize coordination and strategic planning efforts, and achieve 
efficiencies in overhead and administrative costs.
    ETA already has an accountability structure in place. The Office of 
the Secretary, by contrast, is not structured to directly administer 
over $1 billion in contracts. Doing so would require creating new 
bureaucracy in the Office of the Secretary to coordinate many 
functions, including:
    1. National contracting support from the Office of Administration 
and Management.
    2. Policy guidance from the Office of Policy.
    3. Approval of media campaigns by the Office of Public Affairs.
    4. Technology support from the Office of Administration and 
Management.
    5. Administrative support for human resources, payroll, staff 
training, etc. from Administration and Management.

                       TEACHER SALARY INITIATIVE

    Question. How will funds be allocated for the teacher salary 
initiative identified in the fiscal year 2008 budget? Which occupations 
will be covered and will it apply to all individuals in those 
occupations? How many individuals will receive an increase under the 
proposal and by how much?
    Answer. Funding will be provided to each center operating 
contractor based upon the differential between their existing salary 
structure at that time and the salaries indicated by the comparability 
study for the positions in their area. The occupations covered are the 
Academic and Vocational Instructors (teachers). There are 2,051 
teachers eligible to receive a pay increase under this proposal. 
However, the actual salary increase will be based on their salary 
comparability at that time, as indicated in the study, and by the 
center operator's determination of qualifications (certifications 
received, experience).

                  EFFICIENCIES IN JOB CORPS OPERATIONS

    Question. What are the efficiencies identified in the budget that 
will be achieved in Job Corps operations? How did the Department 
calculate the $57 million in savings that could be achieved without any 
programmatic impact?
    Answer. By identifying the number and location of student training 
slots that have remained consistently unfilled, we are able to reduce 
the slot levels at centers at the beginning of their contract or option 
year and thus reduce the fixed costs associated with providing services 
for more students than are on the center. Currently, we recover cost 
underruns from the contractors at approximately 15 percent of the per 
student cost because they must maintain fixed costs in anticipation 
that those training slots might be filled. It is far more efficient to 
price the contract at what is actually needed based upon consistent 
trends in on board strength. The services to those students who are at 
the center are retained and thus, there is no impact on the program.
    The savings were calculated by determining the per student training 
slot cost multiplied by the number of training slots identified for 
reduction. Some of the savings were offset by increases for pay and 
FECA, rent, inflation for all other categories resulting in an overall 
savings of approximately $57 million.

                      JOB CORPS MARKETING CAMPAIGN

    Question. DOL has announced a ``major national marketing campaign 
to try to attract and to get more young people interested in attending 
the Job Corps program.'' Can you describe this campaign, including the 
amounts budgeted in fiscal year 2007 and fiscal year 2008 for related 
activities?
    Answer. On a national level, Job Corps' National Recruitment and 
Outreach Campaign consists of program recruitment on television, radio, 
and specific print publications. Television spots remain the largest 
component of the campaign and are the most successful referral source 
in driving calls to Job Corps' National Call Center, the first step of 
the admissions process. For Program Year 2006, we funded the campaign 
at $5 million; for Program Years 2007 and 2008, Job Corps intends to 
fund it at $6 million (which is the same level of funding from PY 1999 
thru PY 2005).
    Additionally, in October 2006, we launched Job Corps' Consolidated 
Outreach Plan, which combined the program recruitment efforts of the 
National Office and its six Regional Offices into a single recruitment 
contract, which allows Job Corps to take advantage of economies of 
scale and ensures that a single message and unified brand is 
communicated to our target audience. With this consolidated plan, we 
are rolling out new Job Corps recruitment materials and television 
spots beginning May 1, 2007. All OA contractors, Regional Offices, and 
the Job Corps National Call Center will be provided with these national 
materials.

                         JOB CORPS RECRUITMENT

    Question. Historically, Job Corps' student enrollment levels have 
been cyclical and dependent on various factors including the economy, 
retention and recruitment. In the past, Job Corps has quickly devised 
plans to increase enrollment on Job Corps centers across the country. 
What is your national recruitment plan? What amounts are planned to be 
spent in fiscal year 2007 and fiscal year 2008 to implement the plan? 
When do you expect to see results?
    Answer. Recruitment is a priority at all levels of the program and 
is independent from the decision to reallocate student slots. We do not 
believe that it makes economic sense to funnel additional recruitment 
funds to centers that have historically not been able to maintain full 
capacity. Instead, we would prefer to set more realistic slot levels at 
these centers and move the unfilled slots to other centers where they 
can be filled.
    It is important to note that the number of students enrolled in the 
program is not solely a function of recruitment and admissions. In 
addition to student arrivals, the number of student separations and 
students' average length of stay also factor into the OBS count. Even 
if student arrivals increase, students' length of stay must not 
decrease (just as the student separation rate must not increase) if 
centers are to be filled. A vital component of increasing Job Corps' 
OBS is student commitment, or the willingness and readiness of a 
student to remain in the program through graduation. To improve 
performance in this area, Job Corps has implemented the Speakers, 
Tutors, Achievement, Retention, and Success program (STARS), offering 
structured tutoring and mentoring to provide those students at risk of 
leaving early the encouragement and support necessary to remain longer 
in the program, thereby increasing the number of program graduates. 
Furthermore, we have implemented Career Success Skills (CSS) which 
permeates employability and social skills development into all aspects 
of the program, leading to a more personalized relationship between 
staff and students, improving center culture, and students' willingness 
to remain in Job Corps. Additionally, we are piloting a drug screening 
program in which applicants are tested for drug use prior to admissions 
to further ensure that we are enrolling students who are committed to 
their education and ready for the rigor and demands of the program.
    Job Corps monitors the programs' arrivals, separations, weekly 
termination rates, average length of stays, and reasons for separation, 
at the center, regional and national levels, to ensure that any 
unexpected fluctuations in these areas are identified and reviewed, and 
to evaluate the effect new programs and programmatic changes may have 
on the OBS.
    On a national level, Job Corps' National Recruitment and Outreach 
Campaign consists of program recruitment on television, radio, and 
specific print publications. Television spots remain the largest 
component of the campaign and are the most successful referral source 
in driving calls to Job Corps' National Call Center, the first step of 
the admissions process. For PY 2006, we funded the campaign at $5 
million; for PYs 2007 and 2008, Job Corps intends to fund it at $6 
million (which is the same level of funding from PY 1999 thru PY 2005).
    Thus, Job Corps is addressing challenges with recruitment and 
retention throughout the program in order to implement a more holistic 
solution.

                           WIA ADULT PROGRAM

    Question. ETA is developing and disseminating policy guidance and 
practical technical assistance to assist the WF system to increase 
education opportunities for adults and eliminate duplicative 
administrative and service delivery structures. What specifically has 
been provided in fiscal year 2006 and fiscal year 2007?
    Answer. The Department of Labor's Employment and Training 
Administration (ETA) has issued a number of policy guidance documents 
designed to support the State and local workforce investment system in 
increasing adults' access to education opportunities and to ensure that 
the majority of workforce investment system resources are invested 
strategically in training and education, rather than in administrative 
expenditures and duplicative infrastructure. Examples of such policy 
guidance include the following:
  --In March 2006, ETA issued policy guidance entitled, ``Using 
        Workforce Investment Act Funds to Serve Incumbent Workers and 
        Employed Workers'' (Training and Employment Guidance Letter 
        (TEGL) No. 18-05). This guidance encourages the workforce 
        investment system to take advantage of existing flexibilities 
        under the Workforce Investment Act (WIA) to provide education 
        and training to employed workers in order to support their 
        career advancement and mobility.
  --In November 2006, ETA issued Training and Employment Notice (TEN) 
        No. 17-06, ``Vision for 21st Century Apprenticeship.'' The TEN 
        encourages the workforce investment system to adopt innovative 
        apprenticeship models as a critical post-secondary education 
        and training approach for adults.
  --In January 2007, ETA issued policy guidance on the development and 
        submission of States' strategic State Plans (TEGL No. 13-06, 
        ``Instructions for Workforce Investment Act and Wagner-Peyser 
        Act State Planning and Waiver Requests for Years Three and Four 
        of the Strategic Five-Year State Plan (Program Years 2007 and 
        2008)''). The TEGL explicitly requires that States discuss in 
        detail their strategies for reducing duplicative administrative 
        expenditures and structures, in support of increasing adults' 
        access to education and training.
    In addition to these policy issuances, ETA is currently developing 
guidance documents that, when published, will support the workforce 
system in increasing access to education for adults, while eliminating 
duplicative spending and service delivery structures. ETA expects to 
publish all of these draft policy guidance documents this year. 
Examples of policy currently in development include:
  --Policy guidance on enhancing the integration of reemployment 
        services for unemployed workers identified as most likely to 
        exhaust their unemployment insurance benefits, within the 
        broader continuum of education and training services provided 
        through the public workforce investment system.
  --Policy guidance that builds off of TEN No. 17-06 and provides the 
        workforce investment system and the Registered Apprenticeship 
        system with additional guidance on strategies for using the 
        apprenticeship model as an innovative competency-building and 
        education approach for adults, which could result in greater 
        access for women in this program, as recommended by the PART 
        assessment.
  --Policy guidance that encourages the workforce investment system to 
        implement innovative approaches to providing adults with access 
        to entrepreneurship training and education.
  --A TEN that communicates to the workforce investment system ETA's 
        vision for the critical role of talent development and 
        education as the key drivers of competitiveness and growth in 
        regional economies.
  --Policy guidance that provides the workforce investment system with 
        guidance on accessing supportive service resources and support 
        for adults through programs other than those funded under WIA, 
        to ensure that the maximum amount of WIA resources are devoted 
        to education and training, rather than to duplicative 
        supportive service expenditures.
  --Policy guidance encouraging the use of technology-based learning to 
        increase access to learning opportunities for workforce 
        investment system customers within existing statutory and 
        regulatory flexibilities.
    In addition to policy guidance currently in development, ETA is 
pursuing a number of cross-cutting initiatives and approaches aimed at 
enhancing adults' access to education and lifelong learning 
opportunities and improving the provision of training for adults under 
WIA. Examples of these efforts follow.
  --The Workforce Innovation in Regional Economic Development (WIRED) 
        initiative is focused on developing and replicating innovative 
        talent development strategies that create high skill, high wage 
        jobs for workers. Increasing education and training 
        opportunities is a strong component of the WIRED initiative. In 
        each region, the workforce investment system is collaborating 
        with the continuum of education, industry, and economic 
        development partners to ensure that workers are becoming 
        educated and trained for high growth occupations and sectors. 
        Promising practices from the WIRED Initiative will be 
        highlighted at Workforce Innovations 2007 and shared widely on 
        Workforce\3\One, a knowledge network for the workforce system, 
        industry, and economic development stakeholders.
  --Both ETA's High Growth Job Training Initiative and Community-Based 
        Job Training Grants seek to develop, implement, and support the 
        dissemination and replication of innovative models for 
        providing adults with education and training in high growth, 
        high demand, and emerging industries and sectors.
  --Through the Technology-Based Learning (TBL) Initiative, ETA seeks 
        to increase the number of people trained in high growth jobs 
        through the broadening of opportunities for skill and 
        competency development made available timely and conveniently 
        through the use of technology-based learning methodologies.
  --Our Performance Enhancement Project (PEP), a dynamic technical 
        assistance contractual resource that assists ETA in improving 
        the performance of WIA program operators, has provided a varied 
        array of customized technical assistance to under-performing 
        State and local areas over the past 4 years. One topic PEP 
        addresses for the benefit of the workforce investment system as 
        a whole is service integration. Through PEP, ETA is providing 
        States and local areas with promising practice examples and 
        simple training tools to help them better integrate programs.
  --Workforce\3\One is an interactive learning tool designed to build 
        the capacity of the workforce investment system to develop 
        strategies that enable individuals to be successful in the 21st 
        century economy by fully understanding the skills and 
        competencies needed of business and industry and working 
        collaboratively with a wide range of strategic partners to 
        develop innovative workforce solutions. Workforce3One carries 
        out this mission through a variety of strategies:
    --Allowing the workforce system, educators, business and industry, 
            and others to share their innovative approaches, products, 
            and tools;
    --Hosting online learning events as Webinars that highlight 
            promising practices and provide a forum for policy 
            discussions;
    --Providing a vehicle for ETA to share information and products 
            developed at the national level;
    --Serving as a key point of dissemination for the approaches, 
            products, and tools of the High Growth Job Training 
            Initiative, Community-Based Job Training Grants, and WIRED; 
            and
    --Offering a searchable database of over 3,500 learning objects, 
            including tools, data, Webinars, and self-paced learning 
            events.
    Question. What guidance and tools have been disseminated to assist 
in working with veterans?
    Answer. It is the Employment and Training Administration's (ETA) 
specific mission to ensure that the public workforce investment system 
is positioned to provide priority of service to veterans and to help 
veterans maximize their employment opportunities in civilian life by 
providing them access to education and training opportunities they need 
to obtain good jobs with career pathways. This requires understanding 
the full array of services and resources that are available to veterans 
and collaborating across organizations and programs to ensure 
leveraging of those resources for the benefit of veterans.
    In response to the unique career and job placement assistance needs 
of transitioning military personnel and veterans, ETA has collaborated 
with the Department of Defense (DOD) and the Department of Labor's 
Veterans Employment and Training Service (VETS) on multiple efforts to 
create integrated and substantive employment, training, and support 
services. These efforts include providing guidance to the workforce 
investment system, including State workforce agencies, grantees, and 
One-Stop system leads, on priority of service for veterans; promoting 
awareness among veterans of One-Stop Career Center assistance; and 
exploring ways to ease the transition into civilian employment.
    ETA has focused efforts on ensuring that veterans are provided with 
priority of service at One-Stop Career Centers. Training and Employment 
Guidance Letter (TEGL) No. 5-03, ``Implementing the Veterans Priority 
Provisions of the Jobs for Veterans Act (Public Law 107-288)'' was 
issued on September 16, 2003. This guidance was followed with the 
development of the Jobs for Veterans Act Web site, www.doleta.gov/
programs/vets, and the posting of a series of questions and answers on 
this site for 15 programs administered by ETA.
    With a policy of priority of service to veterans and an extensive 
array of programs and services in place, the Department has turned its 
focus to increasing veterans' awareness of, access to, and use of these 
employment and training services. The Key to Career Success campaign is 
designed to connect veterans and separating military personnel to 
services and resources available from One-Stop Career Centers 
nationwide. Announced by Secretary Elaine L. Chao on November 10, 2005, 
the centerpiece of the Key to Career Success campaign is a special 
wallet card issued worldwide to military personnel and others 
transitioning to civilian life. Information on the card guides veterans 
to their nearest One-Stop Career Center. To date, over 300,000 Key to 
Career Success cards and brochures have been distributed to over 300 
DOD and DOL-VETS locations in the United States and abroad, mainly 
through Transition Assistance Program (TAP) workshops worldwide. The 
TAP is a partnership among the Departments of Defense, Veterans 
Affairs, Transportation and the Department of Labor's Veterans' 
Employment and Training Service (VETS) to give employment and training 
information to armed forces members within 180 days of separation or 
retirement through comprehensive 3-day workshops at selected military 
installations nationwide.
    In November 2006, a Key to Career Success Military Transition 
Portal was launched at www.careeronestop.org/militarytransition. The 
portal provides career information and links to services that help 
veterans and military service members successfully transition to 
civilian careers and functions as a landing page for accessing the 
resources that are currently available on the suite of CareerOneStop 
Web sites. The Key to Career Success portal will continue to be 
upgraded and will provide key components to the DOD TurboTAP Web site 
under development by the DOD in cooperation with DOL-VETS and ETA. The 
TurboTAP Web site provides information for service members on 
transitioning from military service and is a supplement to the services 
offered by the Transition Assistance Offices and other groups. The site 
is supported by DOL-VETS and ETA.
    ETA will work with One-Stop Career Center staff to further 
implement the Key to Career Success campaign by documenting best 
practices and success stories at local One-Stop Career Centers. During 
the next few months, a 60-minute Web conference will be available 
through ETA's Workforce3One Website targeted at service providers with 
the goal of sharing best practices. Also, at Workforce Innovations, 
ETA's annual workforce conference, a workshop will focus on developing 
and connecting a local HireVetsFirst campaign to the Key to Career 
Success campaign.
    In addition to connecting veterans with One-Stop Career Centers 
through the Key to Career Success campaign, ETA is examining ways to 
ease the transition into civilian employment for returning veterans. 
DOD and ETA have established a ``Credentialing Working Group'' to help 
remove credentialing barriers that some veterans and transitioning 
service members face. Translation of qualifications from the context of 
the military mission to the civilian setting still presents challenges 
for individual transitioning military members. In many cases, this is 
due to the range of civilian occupational licensing and certification 
requirements, which vary from State to State. The group will target 
high-value occupations that are both significant to the military and 
are sought by civilian employers. In those areas, the group will 
sponsor work to: (1) map career pathways between military occupations 
and civilian occupational employment, (2) promote uniformity/
reciprocity across States with regard to occupational licensing, and 
(3) promote efforts to maximize the transferability of military 
education and training for purposes of credit toward licensure and 
certification requirements. To support this effort, ETA has established 
the Workforce Credentials Information Center, on the Careeronestop.org 
Web site. The Center provides information on licenses, certifications, 
apprenticeship programs, educational degrees, and training, and 
includes information on matching military experience with civilian 
opportunities.

                      ADULT TRAINING OPPORTUNITIES

    Question. The budget proposal would result in more than 50,000 
fewer training opportunities under the Adult program. What's the impact 
of this proposal?
    Answer. The budget proposal would not result in more than 50,000 
fewer training opportunities under the Adult program. Under the 
President's Career Advancement Account proposal for Workforce 
Investment Act (WIA) reauthorization that is part of the fiscal year 
2008 budget, the WIA Adult, Dislocated Worker, and Youth programs and 
the Employment Service would be integrated into a single funding stream 
and, thus, a separate Adult program would no longer exist. The 
integrated funds would be used for Career Advancement Accounts and 
employment services for job seekers and employers. This proposal would 
result in significantly more individuals being trained in comparison 
with the number who now receive training under the current system. The 
Department estimates that over 600,000 individuals would receive Career 
Advancement Accounts at our fiscal year 2008 budget request level 
versus the roughly 189,000 adults who exit training under the current 
system. Under the Department's proposal, these individuals would 
include adults and out-of-school youth entering or re-entering the 
workforce or transitioning between jobs, and incumbent workers in need 
of new skills to remain employed or move up the career ladder.

            MONEY SPENT ON BUREAUCRACIES AND OVERHEAD COSTS

    Question. The budget claims that too much money is spent on 
competing bureaucracies, overhead costs, and unnecessary 
infrastructure. Please cite specifically the evidence for this 
conclusion.
    Answer. The Department's belief that too much workforce investment 
funding is used for administration and overhead costs comes from a 
number of sources. First, while the Employment Service is intended to 
be a cornerstone of the One-Stop Career Center system under the 
Workforce Investment Act (WIA), many States continue to have separate 
Employment Service offices offering the same core services that are 
available in the same communities at One-Stop Career Centers under WIA. 
The lack of integration in the delivery of core services by different 
programs has continued duplicative bureaucracies that divert funds that 
could be spent on services, including education and training.
    Second, the current WIA regulation, at 20 CFR 667.220(b) enumerates 
the specific functions defined as administrative costs. As required by 
WIA, this definition of administrative costs was developed in 
consultation with Governors and other stakeholder groups in 1999, and 
was more narrow than the definition in use before 1999. However, 
instead of reducing the level of administrative activity when the caps 
were lowered, some States and local areas charge some activities 
considered administrative costs under earlier programs as program 
costs. Activities such as performing oversight and monitoring of the 
program, the costs of facilities used for programmatic activities, the 
provision of technical assistance, the activities of State and local 
boards, professional organization membership dues, and the evaluation 
of program results, which have traditionally been classified as 
administrative costs, are currently classified as programmatic costs. 
As a result, there is no effective administrative cost ceiling.
    Finally, based on expenditure data submitted by the States, the 
Department estimates that the proportion of WIA and Employment Service 
funding that has been spent on infrastructure is about one-quarter for 
the last 4 program years. For this estimate, the Department looks at 
the costs of infrastructure, including both physical and organizational 
costs, at the State and local levels that support the delivery of 
services to participants by the One-Stop system, such as local 
administration and other infrastructure costs. While the Department 
does not question whether some of these costs are necessary or 
appropriate, taken in total, too large a proportion of WIA funds is 
spent on infrastructure and overhead rather than direct services.

                    REFOCUSING THE WORKFORCE SYSTEM

    Question. According to the budget justification, ETA is increasing 
its focus on postsecondary and training resources to help the workforce 
system be more responsive to changing labor market needs and regional 
economies. Please provide examples of what is being done and how the 
fiscal year 2008 budget supports this focus.
    Answer. There are two ways the Department is helping the workforce 
investment system be more responsive to regional economic needs: (1) by 
implementing initiatives designed to promote regional competitiveness 
and greater access to education and training, and (2) by working with 
the Congress to substantially reform the workforce investment system.
    Through the President's High Growth Job Training Initiative, ETA 
has invested over $285 million in 150 partnerships among employers, 
education programs, and the workforce investment system. Each project 
targets the skill and talent needs of high-growth, high-demand and 
transformational industries in our Nation's economy and provides the 
resources necessary to train workers in the skills demanded by the 21st 
century economy.
    Community-Based Job Training Grants, also known as the Community 
College Initiative, seek to address a critical shortcoming in the 
workforce development capacity of many regions by supporting community 
colleges to train workers for jobs in high-growth, high-demand 
industries. Due to their close connection to local labor markets, 
community colleges are well positioned to understand the intricacies of 
local economies and better prepare workers for occupations in these 
industries. The Department has provided $250 million to 142 community 
colleges and other entities under this initiative.
    The Department launched the Workforce Innovation in Regional 
Economic Development (WIRED) Initiative in February 2006 to emphasize 
the critical linkage between workforce development and economic 
development in regional economies. WIRED focuses on the role of talent 
development in driving regional economic competitiveness, job growth 
and prosperity for workers. Under the WIRED Initiative, the Department 
has invested $260 million and provided expert assistance to 26 regions 
across the Nation to implement strategies that will create high-skill 
and high-wage opportunities for American workers.
    The administration has also recently submitted to Congress 
legislation that will improve the ability of the workforce investment 
system to support our Nation's competitiveness by providing States and 
local communities more flexibility to design streamlined workforce 
systems that best fit the unique needs of their economies. Our proposal 
would also better serve the needs of American workers and employers by 
making more money directly available for education and training. Under 
the proposal, four separate funding streams would be consolidated and 
allocated to States--and through States to local areas--to provide 
Career Advancement Accounts and employment services to job seekers and 
employers. Most of these funds would be spent on education and 
training.
    Career Advancement Accounts would enable current and future workers 
to gain the skills needed to successfully enter, navigate, and advance 
in the 21st century labor market. Accounts would be available to both 
adults and out-of-school youth entering or re-entering the workforce or 
transitioning between jobs, and to incumbent workers in need of new 
skills to remain employed or move up the career ladder.

                       DISLOCATED WORKER PROGRAM

    Question. Under DWAC pilot programs--for career advancement 
accounts and other automotive industry layoffs--will help inform 
broader efforts for dislocated workers for fiscal year 2007 and beyond. 
What are these activities and specifically what is being learned that 
will shape future activities? What is proposed in the fiscal year 2008 
budget under pilot programs and based on lessons learned?
    Answer. Five States impacted by the announced General Motors and 
Ford plant closures (Georgia, Michigan, Minnesota, Missouri, and Ohio) 
have volunteered to pilot Career Advancement Accounts (CAAs) to serve 
the dislocated workers impacted by the closures as well as those 
workers who are displaced as a result of impacts on supplier companies 
and the community. This demonstration will focus on the use of CAAs for 
transitioning workers in need of tuition assistance for education, 
enabling them to either build on transferable skills or gain skills for 
new careers. Each State has received $1.5 million from the Department 
and is expected to leverage a like amount in Federal, State, and local 
resources.
    The CAA automotive demonstration is being evaluated to establish 
empirical knowledge and understanding of the provision of customer-
driven training vouchers to dislocated workers impacted by the Ford and 
GM plant closures, as well as impacted employees of supplier companies 
and in communities. The evaluation involves four steps--technical 
assistance, data collection, an implementation study, and a net-impact 
evaluation, which together will lead to evaluation results that will 
inform future proposals and activities.
  --Technical Assistance.--Technical assistance is currently being 
        provided to the five automotive States. The overall objective 
        of the technical assistance strategy is to support the CAA 
        demonstration States with information and training that will 
        help them to successfully implement their CAA projects.
  --Data Collection.--To evaluate the overall effectiveness of the CAA 
        demonstration, a standardized participant reporting system to 
        collect data on services received through the CAA demonstration 
        will be established and maintained.
  --Implementation Study.--An implementation study of the CAA 
        demonstration will examine the extent to which both individual 
        project objectives and the overall grant program objectives 
        were achieved; document project activities undertaken for 
        possible replication in other States; and measure changes in 
        outcomes relative to a baseline period prior to the funding of 
        the grantees projects. Work on the implementation evaluation 
        will begin in June 2007.
  --Net-Impact Evaluation.--A net-impact evaluation will provide 
        statistically valid and reliable estimates of the effects of 
        CAAs on key outcomes. A non-experimental net-impact evaluation 
        of the five automotive States using either comparison group or 
        comparison site methodologies will be conducted. The purpose of 
        the net-impact evaluation is to determine the effects of the 
        CAA training model on the employment and earnings of the 
        dislocated workers participating in the demonstration. The CAA 
        evaluation will also include two types of cost analyses--an 
        administrative cost analysis and a benefit-cost analysis. The 
        administrative cost study examines the extent to which the 
        workforce investment system realized savings in bureaucratic 
        and administrative costs from conducting the CAA model. The 
        benefit-cost analysis looks at the overall CAA model to 
        determine the cost effectiveness of the initiative to the 
        government, the taxpayers, and society.

                 YOUTH ACTIVITIES: YOUTH PILOT PROJECT

    Question. Youth Pilot Project--Have any States submitted the 
required reports to DOL? What is known about the changes and 
performance that have been achieved under the Pilot Projects? If DOL 
has yet to receive information, what is the timeline for the receipt of 
such reports? Please provide information about the amount of funds 
currently being spent on technical assistance to States related to 
furthering collaborative approaches for youth activities.
    Answer. In February 2007, the Department of Labor issued the 
``Shared Youth Vision Pilot Project'' application to the 16 State Teams 
that attended the 2006 Shared Youth Vision Forums. The State Teams 
submitted their completed applications to the Department on or before 
April 6, 2007. Funds will be awarded to the State Teams in two phases 
between now and June 30, 2007, based on the States' readiness as 
demonstrated by their proposals. The Shared Youth Vision Federal 
Partnership is currently reviewing these proposals to determine how 
well the State Teams responded to the criteria in the pilot application 
that States demonstrate how their collaborative strategy will support 
integrated systems development and collaboration at the local service 
delivery level.
    Because the pilot projects will not begin implementation until July 
1, 2007, it is too early to assess changes and performance that have 
been achieved under the projects. States will operate the pilot 
projects over the course of Program Year 2007 (July 1, 2007-June 30, 
2008), reporting quarterly on their progress. Also, the Department is 
funding a Shared Youth Vision Pilot Project Study to document the 
success of the shared youth vision collaborative efforts at the 
Federal, State, and local levels. This study will be completed by the 
fall of 2008. As part of this study, the Department will conduct the 
following analysis of the Shared Youth Vision Federal Partnership and 
the State Teams:
  --Documenting the work of the Federal Partnership from 2004 to 2007 
        in support of system transformation, as recommended by the 
        White House Task Force for Disadvantaged Youth.
  --Documenting the work of the State Teams in a usable and 
        transferable fashion in the following areas: (1) coordination 
        and integration of services for the targeted populations; (2) 
        multiple partner agencies working together at the service 
        delivery level to serve targeted youth population(s) that 
        reflects the State's overall shared youth vision; (3) policies 
        and practices identified and implemented based on gap analysis; 
        (4) challenges associated with higher-level strategic planning 
        and implementation among the State Teams; (5) interagency State 
        Teams definition, collection and validation of measurable 
        outcomes for neediest youth; (6) methods for engaging business 
        and industry; and (7) implementation of replication and 
        sustainability strategies.
  --Developing a ``Blueprint'' model that can be used by States and 
        local levels to assist them in their collaborative efforts 
        around a shared youth vision.
    The total amount of funding to be provided to the State Teams 
through the Shared Youth Vision Pilot Projects is $1,720,000. In 
addition, the Department is funding $100,000 of technical assistance 
for the pilot projects.

                YOUTH ACTIVITIES: ALTERNATIVE EDUCATION

    Question. In working with the Department of Education on 
identifying and bringing to scale systemic alternative education 
approaches for creating multiple pathways to graduations, how did DOL 
and the Department of Education factor in evidence of effectiveness? 
What was the standard adopted and what role did the Education's 
Institute of Education Sciences play in this collaboration? How will 
this focus on the alternative education be continued under the current 
law budget request?
    Answer. The Departments of Labor and Education promote alternative 
education through unique yet complementary initiatives, and collaborate 
in sharing evidence of effective practices and productive strategies. 
Through its implementation of the No Child Left Behind Act, the 
Department of Education is focusing its efforts on reducing the number 
of drop-outs and holding school districts accountable for low 
graduation rates. In the Department of Labor, the Employment and 
Training Administration's (ETA's) Youth Vision, developed over 2 years 
ago, augments this work by addressing the large number of youth leaving 
high school without a diploma and unprepared for the demands of the 
21st century workplace. Through the Youth Vision, ETA uses the 
Workforce Investment Act (WIA) Youth program as a catalyst for 
increasing both the quality and quantity of alternative learning 
environments and re-connecting out-of-school youth with secondary and 
post-secondary educational opportunities and high growth employment.
    ETA studied different alternative education interventions for 
evidence of effectiveness. In a report funded by ETA on alternative 
education programs that re-engage out-of-school youth with learning, 
the Urban Institute found that there are few scientifically-based 
rigorous evaluations on the effectiveness of alternative education 
approaches. However, the study points to programs that have a clear 
focus on academic learning and address the education and career 
interests of students as promising interventions.
    In an effort to build upon that research, ETA gathers evidence of 
effective practices not only from its own research and demonstrations, 
but also from the Department of Education's efforts, such as the Office 
of Vocational and Adult Education's (OVAE's) Disconnected Youth project 
and related research. Further, in an effort to comprehensively factor 
evidence of effectiveness into program planning and to learn more about 
the factors that contribute to strong, vibrant academic alternative 
learning environments, ETA has held three Alternative Education 
Listening Sessions. These sessions were attended by experts from around 
the country well-versed in alternative education including Department 
of Education representatives who shared expertise from all of 
Department of Education's sub-agencies, practitioners, policy makers, 
and individuals from various educational think tanks and affinity 
groups.
    The Listening Sessions provided invaluable input from a range of 
experts on the effectiveness of different alternative education models. 
The consensus of experts revealed an urgent need to take existing 
models that have been proven successful to scale, as well as a need to 
support the development of new models that address the rapidly changing 
skill sets needed for the workplace and post-secondary education. 
Listening Session experts concluded that in order to be effective, new 
models should:
  --Align with the No Child Left Behind legislation;
  --Focus on helping participants meet State standards in the core 
        subjects;
  --Include alternative learning strategies such as applied and/or 
        contextual learning;
  --Acknowledge the need for interdisciplinary learning;
  --Support portable credentialing;
  --Provide extensive career exploration, guidance, and planning; and
  --Provide multiple pathways for both learning and career growth.
    ETA integrated these elements in several grant competitions 
recently launched which provide support for alternative education, 
including:
  --A $47 million YouthBuild competition that will fund approximately 
        95 programs that provide an integrated academic and 
        occupational skill training model for at-risk youth;
  --A $3 million competition which will support towns with populations 
        between 75,000 and 300,000 to develop blueprints for multiple 
        education system pathways; and
  --A $6 million competition to improve alternative educational 
        pathways for youth recently released from juvenile corrections 
        or on probation.
    The Department's fiscal year 2008 current law budget request 
continues to support ETA's focus on alternative education through the 
YouthBuild program, pilot and demonstration funding, the proposed 
Reintegration of Ex-Offenders program which will serve both adults and 
youth, and the WIA Youth program which will continue its focus on out-
of-school youth by addressing alternative education. The Department 
will also address alternative education in fiscal year 2008 through the 
Workforce Innovation in Regional Economic Development (WIRED) 
initiative, through which several regions are using WIRED grant funds 
to examine their existing education infrastructure. In all of these 
efforts, the Department will continue to collaborate not only with the 
Department of Education but also with other private foundations and 
organizations that are addressing the Nation's drop-out crisis.

                     DISABILITY PROGRAM NAVIGATORS

    Question. The Disability Program Navigators have been a major 
benefit to improved services and service delivery coordination with the 
One-Stops for job seekers with disabilities. Why are you recommending 
no funding for this activity? Does DOL have a plan for serving 
individuals with disabilities and others with multiple barriers to 
employment through the Workforce Development System in the future? What 
is the plan?
    Answer. The Disability Program Navigator (DPN) program has been 
successful. However, from the outset, it has been the Department's 
intent for States to ultimately assume responsibility for this 
activity. The Department has been actively working with grantees on 
developing sustainability plans. These plans provided strategies by 
which the States could continue to provide these services through 
integration within the One-Stop Career Centers. The Department is also 
working with the Social Security Administration on the pending 
regulatory revisions to the Ticket to Work program which will make it 
much easier for One-Stop Career Centers to become Employment Networks, 
providing an additional funding source to sustain these activities.
    The DPN grants have provided effective strategies to improve the 
accessibility of One-Stop Career Center services for job seekers with 
disabilities. Effective State practices are being shared broadly 
through a variety of mediums--such as the Employment and Training 
Administration's interactive knowledge Web site, Workforce\3\One, 
grantee meetings, and conferences--in order to expand the capacity of 
the One-Stop system to serve people with disabilities and increase 
service levels to this population.

                      PRISONER REENTRY INITIATIVE

    Question. Please provide a copy of the evaluation of this 
initiative, which is expected by the end of program year 2007. Also, 
please provide information on the number of grants awarded under the 
beneficiary choice model. What is the evidence base for funding this 
model of service delivery?
    Answer. The Prisoner Reentry Initiative (PRI) evaluation will be 
completed in November 2008, with a final report submitted at that time. 
An interim report presenting early observations and findings is in 
development, a copy of which will be provided following DOL/ETA review, 
which is anticipated to be completed by November 2007.
    With regard to the Beneficiary Choice Initiative (BCI), a 
substantial body of research on ex-offenders has documented high levels 
of unemployment, substance abuse and mental illness following release 
from incarceration, in conjunction with low levels of educational 
attainment, engagement with family members, and healthy ties to the 
community. These factors contribute to renewed criminal behavior, 
reduced public safety, and a host of poor outcomes for future 
generations, all of which contributed to development of the BCI.
    Faith-based and community institutions are among the most trusted 
institutions in the urban neighborhoods to which the majority of 
released inmates will return. They have a rich tradition of outreach 
and service to those most in need of assistance and a proven ability to 
work collaboratively with other service providers and justice agencies 
for the delivery of social services. In addition, research has shown 
that ex-offenders with strong family and community ties have greater 
success in reintegrating into the community and avoiding future 
incarceration.
    Consistent with the administration's emphasis on individual choice 
and personal responsibility, the PRI provides flexibility and freedom 
to both participants and providers in developing a strategy that best 
fits the unique needs of each individual for developing his or her own 
talents. Assisting ex-offenders to develop their own service strategy 
will increase their personal investment in their training decisions 
with a resultant increase in engagement and, it is hoped, completion of 
program services.

 PRISONER REENTRY INITIATIVE AND RESPONSIBLE REINTEGRATION OF YOUTHFUL 
                               OFFENDERS

    Question. According to the fiscal year 2008 budget justification, 
this proposed initiative is based on the lessons learned from the 
Responsible Reintegration of Youthful Offender Community College 
Initiative: To date, what outcome data provided by grantees has been 
used to assess whether this program is meeting stated objectives? What 
changes, if any?
    Answer. The proposed Reintegration of Ex-Offenders initiative would 
capitalize on lessons learned from both the Prisoner Reentry Initiative 
(PRI) and the Responsible Reintegration of Youthful Offenders (RRYO). 
Outcome data on both efforts are provided below.
    The PRI performance measures include enrollment, entered 
employment, employment retention, employment earnings, and recidivism. 
During the first year of the project, the Department of Labor collected 
baseline information on which to base the goals for these performance 
measures.
    As of the first year of data, with four full reporting quarters, 
the enrollment rate exceeded the first year goal of 6,250 participants 
across all 30 sites. The entered employment rate was 47 percent; 
however, this measure is based on program ``exiters'' of which there 
are few in the program's first year. The initiative achieved 3,420 
initial job placements, indicating success placing participants into 
employment. The recidivism rate was at 11 percent. It is too early to 
report data on earnings and retention given that these are also ``exit-
based'' outcomes.
    For RRYO, outcome data provides information on: enrollment, 
placement (including job, military, post-secondary education, or long-
term occupational training placements), diploma/GED attainment, 
participation, career pathways, high growth employer engagement, 
retention, community service, and service-centered mentoring.
    The Ready4Work demonstration, which was funded through the RRYO 
appropriation and which piloted the PRI program, enrolled 4,482 former 
prisoners over a 3-year period, placed 2,543 of these persons into 
employment, and showed a recidivism rate of 6.9 percent over 1 year and 
a participant cost of $4,500.
    Other grants provided under the RRYO appropriation are serving 
large numbers of youth each year in high-crime communities. Over 9,000 
youth and young adults are served by these grants each year, with 
participants experiencing a recidivism rate of roughly 10 percent.

                      EBSA FTE AND FUNDING LEVELS

    Question. For the past 5 years (including fiscal year 2007, based 
on the enacted appropriation), please provide a table identifying FTEs 
and dollars allocated by budget activity.
    Answer. The following table depicts enacted funding and FTE levels 
by budget activity from fiscal year 2003 through fiscal year 2007.

                                    EMPLOYEE BENEFITS SECURITY ADMINISTRATION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
                                 -------------------------------------------------------------------------------
         Budget activity               2003            2004            2005            2006            2007
                                 -------------------------------------------------------------------------------
                                   Funding   FTE   Funding   FTE   Funding   FTE   Funding   FTE   Funding   FTE
----------------------------------------------------------------------------------------------------------------
Enforcement & Participant           $91,526  696   $102,730  800   $109,374  764   $111,239  753   $118,718  738
 Assistance.....................
Policy & Compliance Assistance..     20,441  143     16,907  108     17,357  101    $17,283   96    $17,585   92
Executive Leadership & Program        4,316   22      4,403   22      4,482   22      5,029   26      5,270   25
 Oversight......................
                                 -------------------------------------------------------------------------------
      Totals....................    116,283  861    124,040  930    131,213  887    133,551  875    141,573  855
----------------------------------------------------------------------------------------------------------------
Note.--The fiscal year 2004 FTE level for the Policy and Compliance Assistance budget activity reflects a
  comparative transfer of 40 FTE for the EBSA participant assistance function into the Enforcement and
  Participant Assistance budget activity.

                     PENSION PROTECTION ACT OF 2006

    Question. Please provide a timeline for the issuance of regulations 
required by the Pension Protection Act of 2006.
    Answer.

            PENSION PROTECTION ACT OF 2006 (PPA) REGULATIONS
------------------------------------------------------------------------
             PROJECT                  PAST ACTION         NEXT ACTION
------------------------------------------------------------------------
PPA Annual Report Form Changes    Supplemental        Final Forms and
 (including simple report for      Proposal 71 FR      Related Rule
 under 25 participant plans,       71562 (Dec. 11,     changes--Summer
 pension funding info & e-file     2006) related to    2007
 for actuarial schedule).          larger proposed
                                   Forms Revisions
                                   71 FR 41359;
                                   41392; 41616
                                   (July 21, 2006).
Default Investments--Safe Harbor  Proposed Rule 71    Final Rule--Summer
                                   FR 56806 (Sept.     2007
                                   27,  2006).
Cross Trading Exemption.........  Interim Final Rule  Final Rule--Fall
                                   72 FR 6473 (Feb.    2007
                                   12, 2007).
Revocation of Election Re:        Model Notice 71 FR  Completed
 Multiemployer Plan Status.        69594 (Dec. 1,
                                   2006).
Investment Advice--plans........  Issued              Proposed Rule--
                                   interpretive        Fall 2007
                                   guidance--Field
                                   Assistance
                                   Bulletin 2007-01
                                   (February 2,
                                   2007) RFI 71 FR
                                   70429 (Dec. 4,
                                   2006).
Investment Advice--IRAs           RFI 71 FR 70427     Report to Congress
 Feasibility Determination.        (Dec. 4, 2006).     by December 31,
                                                       2007
Plan Assets Regulation..........  ..................  Proposed Rule--
                                                       Fall 2007
Rollovers for Non-spouse          Interim Final Rule  Final Rule--Fall
 Beneficiaries--Amendment to       72 FR 7516 (Feb.    2007
 Abandoned Plan Regulation.        15, 2007).
DB Plan Annual Funding Notice...  ..................  Interim Final Rule
                                                       and Model--Fall
                                                       2007
Periodic Benefit Statements.....  Issued              Proposed Rule and
                                   interpretive        Model--Fall 2007
                                   guidance to
                                   facilitate
                                   administration in
                                   the absence of
                                   regulations--Fiel
                                   d Assistance
                                   Bulletin 2006-03
                                   (December 20,
                                   2006).
Access to Multiemployer Pension   ..................  Interim Final
 Plan Information.                                     Rule--Summer 2007
Civil Penalty 502(c)(7)--Failure  ..................  Final Rule--Summer
 to Provide Notice of Freedom to                       2007
 Divest ERISA 101(m) (Treasury
 Model 180 days).
QDRO Timing.....................  Interim Final 72    Final Rule--Early
                                   FR 10070 (March     2008
                                   7, 2007).
Notification of Endangered or     Requires            Model--Early 2008
 Critical  Status.                 coordination with
                                   Treasury.
Civil Penalty 502(c)(4):
    (1) Failure to Respond to
     101(k) Request.
    (2) Failure to Provide
     514(e) Notice of Auto
     Contributions.
    (3) Failure to Provide
     101(l) Notice of Withdrawal
     Liability.
    (4) Failure to Provide        ..................  Proposed Rule--
     101(j) Notice of Funding-                         Early 2008
     Based Limitation.
Summary Report of Multiemployer   ..................  Interim Final Rule
 Plan Information to Employers                         and Model--Early
 and Unions.                                           2008
Notice of Funding-Based           Requires            Proposed Rule--
 Limitation.                       coordination with   2008
                                   Treasury.
Notice of Potential Withdrawal    Requires            Proposed Rule--
 Liability.                        coordination with   2008
                                   Treasury and PBGC.
Notice of Reduction to            ..................  Proposed Rule and
 Adjustable Benefits.                                  Model -2008
Civil Penalty 502(c)(8)--Failure  ..................  Proposed Rule--
 to Adopt Funding Improvement                          2008
 Plan.
Civil Penalty 502(c)(2)--Failure  ..................  Proposed Rule--
 to Provide Notice of Election                         2008
 of Multiemployer Status.
Civil Penalty 502(c)(2)--Failure  ..................  Proposed Rule--
 of Multiemployer Plan to Secure                       2008
 Timely Actuarial Certification.
------------------------------------------------------------------------

    Question. What level of resources and FTEs will be devoted to this 
activity in fiscal year 2007 and under the budget request for fiscal 
year 2008?
    Answer. EBSA's Policy and Compliance Assistance budget activity has 
primary responsibility for the development and issuance of the 
regulations required by the Pension Protection Act of 2006 (PPA). 
Within this activity, approximately 19 FTE and $3.6 million will be 
devoted to PPA regulatory activity during fiscal year 2007. In fiscal 
year 2008, EBSA estimates approximately 19 FTE and $3.8 million will be 
needed for PPA implementation. In addition, the Plan Benefits Security 
Division of the Office of the Solicitor estimates that it will devote 
approximately 2.5 FTE and $412,500 in both fiscal year 2007 and fiscal 
year 2008. These estimates exclude the resources expended by other 
organizations outside EBSA such as Departmental Management, and other 
oversight/clearance activities.

                  EMPLOYMENT STANDARDS ADMINISTRAITON

    Question. For the past 5 years (including fiscal year 2007, based 
on the enacted appropriation), please provide a table identifying FTEs 
and dollars allocated by budget activity.
    Answer. The requested information is included in chart Employment 
Standards Administration, Budget Activity by fiscal year.
    [The information follows:]

                                           EMPLOYMENT STANDARDS ADMINISTRATION BUDGET ACTIVITY BY FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Fiscal year
                                 -----------------------------------------------------------------------------------------------------------------------
             Program                       2003                    2004                    2005                    2006                  2007 \1\
                                 -----------------------------------------------------------------------------------------------------------------------
                                    FTE       Funding       FTE       Funding       FTE       Funding       FTE       Funding       FTE       Funding
--------------------------------------------------------------------------------------------------------------------------------------------------------
Wage and Hour Division..........   1,392    $155,626,000   1,442    $160,095,829   1,346    $164,494,758   1,300    $165,685,410   1,200    $170,219,521
Federal Contractor and EEO           742      78,033,000     749      79,441,000     691      80,059,000     670      81,285,000     625      82,441,456
 Standards Enforcement..........
Office of Workers' Compensation
 Programs:
    Federal Employees'               839      86,392,000     839      86,260,000     801      86,819,000     801      88,446,000     760      90,137,213
     Compensation...............
    Longhsore and Harbor              96      10,232,000      96      10,490,000      93      10,511,000      93      10,682,000      90      10,752,158
     Workers' Compensation--
     General....................
    Longhsore and Harbor              11       1,958,000      11       2,016,000      11       2,012,000      11       2,028,000       9       2,041,885
     Workers' Compensation--
     Trust Fund.................
    Division of Coal Mine            214      31,632,000     214      31,628,000     214      32,232,000     205      32,659,000     191      33,171,000
     Workers' Compensation......
Office of Labor-Management           297      34,279,000     347      38,580,000     336      41,681,000     384      45,737,000     313      47,753,357
 Standards......................
Program Direction and Support...     107      14,591,000     107      15,499,000     103      15,635,000      93      17,592,000      93      17,933,000
Federal Employees Compensation    ......     160,000,000  ......     160,000,000  ......     230,000,000  ......     237,000,000  ......     227,000,000
 Act Benefits...................
Federal Employees Compensation       133      37,657,000     133      39,261,000     128      39,668,000     127      53,695,000     127      51,034,000
 Act--Fair Share................
Disabled Coal Miners............      17       5,564,000      17       6,143,000      17       5,191,000      17       5,250,000      17       5,373,000
Energy Employees Occupational        380     104,867,000     300      51,651,000     275      40,321,000     275      96,081,000     275     102,307,000
 Illness Compensation Program
 Act, Part B....................
Energy Employees Occupational     ......  ..............  ......  ..............     105      49,975,000     189      59,950,000     189      59,531,000
 Illness Compensation Program
 Act, Part E....................
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2007 reflects full-year continuing resolution apportionment approved by OMB.

                         WAGE AND HOUR DIVISION

    Question. For the past 5 years (including fiscal year 2007, based 
on the enacted appropriation), please provide a table identifying FTEs 
and dollars allocated by budget activity.
    Answer.

------------------------------------------------------------------------
                                                             Actual
               Fiscal year                  FTE used      obligations
------------------------------------------------------------------------
2003....................................        1,396       $155,673,000
2004....................................        1,333        160,084,000
2005....................................        1,266        164,616,000
2006....................................        1,238        165,706,000
2007....................................    \1\ 1,212   \2\ 101,253,000
------------------------------------------------------------------------
\1\ Estimated.
\2\ Through May 9, 2007.

    Question. According to the February 26, 2007 Daily Labor Report, 
Wage and Hour Administrator said that ``he understands the concerns of 
attorneys who believe opinion letters were being used as a tool in 
ongoing litigation and that it is an issue that needs to be reviewed 
inside DOL.'' What is the status of the review of this alleged 
practice? Have you reached any conclusions, and, if necessary, 
identified steps for corrective action?
    Answer. That portion of the Daily Labor Report article is an 
imprecise and potentially confusing paraphrasing of the Administrator's 
remarks. The Wage and Hour Division (WHD) has long had a policy of not 
issuing an opinion letter to a party to either an ongoing WHD 
investigation or private litigation involving the issue or issues 
raised in the request for an opinion letter. During a presentation that 
the Administrator made to a section of the American Bar Association, 
some audience members suggested that this policy is unfair to workers. 
Their concern was that WHD's policy would not preclude DOL from issuing 
an opinion letter to a trade association or other entity that was not a 
party to a WHD investigation or private litigation, who in turn would 
provide that opinion letter to a member of the organization that was 
involved in an investigation or ongoing litigation. They argued that 
workers who might like to obtain an opinion letter lack a similar 
option. The Administrator acknowledged that concern and stated that it 
merited further consideration. This matter is currently under review.

                      FAMILY AND MEDICAL LEAVE ACT

    Question. In response to questions for the record for the fiscal 
year 2007 Department of Labor budget, the Department indicated that the 
possibility of revisions to the Family and Medical Leave Act remains an 
item on the Department's regulatory agenda. It has been more than 2 
years since that statement. Please provide details on the types of 
changes the Department is considering and a timeline? Will the 
Department commit to not take any action that would lessen the rights 
of workers to leave under the Act?
    Answer. WHD invited interested parties having knowledge of, or 
experience with, the Family and Medical Leave Act to submit comments 
and pertinent information related to the effectiveness of the current 
implementing regulations and the Department's administration of the 
statute. WHD received more than 15,500 submissions from a broad cross-
section of commenters including employer associations, unions, interest 
groups, and individuals. These comments are currently being reviewed, 
and no final decisions have yet been reached as to what, if any, 
changes might actually be proposed.
    Question. Misclassification of employees as independent contractors 
is a growing problem. Studies have found that up to 30 percent of 
companies misclassify workers. In all of these industries low-wage 
workers predominate, and misclassification is often a particular 
problem for immigrant workers. Please provide an analysis of the 
expenditures you make and FTEs you devote to enforcing FLSA 
requirements against misclassification of workers.
    Answer. All WHD investigators examine the employment relationship 
during the conduct of an investigation. Employees who are misclassified 
as ``independent contractors'' are identified during the course of 
investigations that cover many provisions enforced by WHD, and it is 
not possible to segregate expenditures or FTE used to enforce FLSA 
minimum wage and overtime requirements on behalf of misclassified 
workers. However, in its 2006 audit on the contingent workforce, the 
Government Accountability Office suggests that misclassified employees 
are more prevalent in low-wage industries, and WHD spends approximately 
60 percent of its enforcement hours in industries that employ low-wage 
workers.
    Question. Please provide a detailed description of your enforcement 
efforts and results in this area.
    Answer. As the Government Accountability Office notes in its 2006 
audit, WHD addresses the misclassification of employees as independent 
contractors through its investigations, primarily those involving the 
FLSA. All WHD investigators first establish the employment relationship 
between the worker and the company during the conduct of investigations 
to determine whether workers are covered under the FLSA.
    In its 2006 audit on the contingent workforce, the Government 
Accountability Office suggests that misclassified employee are more 
prevalent in low-wage industries, and WHD spends approximately 60 
percent of its enforcement hours in industries that employ low-wage 
workers. Moreover, WHD devotes 20 percent to 25 percent of its 
resources to directed enforcement in low-wage industries--including 
construction, agriculture, and landscaping.
    In addition to enforcement, WHD has been increasing its appearances 
on Spanish-language radio and television programs, reaching out to 
Spanish-language press, distributing worker rights cards, and 
participating in community events, in an effort to inform workers of 
their rights and prevent misclassification from happening in the first 
place. WHD is also in the process of revising its workplace poster to 
add the agency's toll-free number and web site address, which can be 
used to report alleged violations of the laws that WHD enforces, 
including those that may be related to employee misclassification 
issues.
    Question. Please provide a breakdown of what percentage of all 
cases (e.g., all overtime cases, all janitorial services 
investigations, etc.) and outcomes involve misclassification of 
employees as independent contractors by the company.
    Answer. The requested information is not available. Misclassified 
workers are identified during the course of investigations that cover 
many provisions enforced by WHD, and it is not possible to segregate 
cases that involve misclassification of employees as independent 
contractors.

             OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION

    Question. For the past 5 years (including fiscal year 2007, based 
on the enacted appropriation), please provide a table identifying FTEs 
and dollars allocated by budget activity.
    Answer. The information on budgeted resources follows.

                                                                 [Dollars in thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                          ----------------------------------------------------------------------------------------------
                                                                  2003               2004               2005               2006               2007
                                                          ----------------------------------------------------------------------------------------------
                                                            Approp.     FTE    Approp.     FTE     pprop.     FTE    Approp.     FTE    Approp.     FTE
--------------------------------------------------------------------------------------------------------------------------------------------------------
Safety & Health Standards................................    $16,014      95    $15,920      85    $16,003      84    $16,462      83    $16,893      83
Enforcement Programs.....................................    162,973   1,612    166,015   1,581    169,651   1,570    172,575   1,542    176,973   1,542
State Programs...........................................     90,547  ......     91,959  ......     91,013  ......     91,093  ......     91,093  ......
Technical Support........................................     20,102     107     21,593     109     20,742     107     21,435     105     22,392     105
Compliance Assistance....................................     61,321     357     67,049     356     70,859     352     72,545     348     72,658     348
Consultation.............................................     53,204  ......     52,211  ......     53,362  ......     53,357  ......     53,357  ......
Training Grants..........................................     11,102  ......     10,509  ......     10,217  ......     10,116  ......     10,116  ......
Safety & Health Statistics...............................     25,894      39     22,237      39     22,203      38     24,253      38     32,274      38
Executive Direction......................................      9,153      50     10,047      50     10,106      49     10,591      49     11,169      49
                                                          ----------------------------------------------------------------------------------------------
      Totals.............................................    450,310   2,260    457,540   2,220    464,156   2,200    472,427   2,165    486,925   2,165
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          TARGETED INSPECTIONS

    Question. OSHA announced in March 2007 that approximately 14,000 
employers have been notified that injury and illness rates at their 
worksites are higher than average. Approximately 4,500 of these will be 
initially targeted for inspection under OSHA's Site Specific Targeting 
program. What is the rationale for identifying 4,500 for inspection of 
these 14,000? What level of resources in FTEs and dollars would be 
required to inspect adequately all of these worksites in fiscal year 
2008?
    Answer. OSHA collects occupational injury and illness data from 
employers each year through the OSHA Data Initiative. Approximately 
14,000 employers each year report a Days Away, Restricted, or 
Transferred (DART) rate that is more than twice the national private 
sector DART rate. These employers are contacted by letter in an 
outreach initiative, and are encouraged to take advantage of OSHA's 
Consultation Program, a free and confidential service in each State 
that assists employers in reducing injuries and illnesses.
    Federal OSHA conducts about 37,700 inspections each year. Slightly 
less than half of these are ``unprogrammed'' inspections: responses to 
fatalities and catastrophes, reports of imminent danger situations, 
employee complaints, and referrals. The other half are ``programmed'' 
or targeted inspections, which do not include inspections in the 
construction industry. The Site-Specific Targeting (SST) program is 
OSHA's primary national targeting system for inspecting the specific 
general industry workplaces that have reported the highest injury and 
illness rates.
    Out of the 14,000 employers with a high DART rate, OSHA then 
selects approximately 4,500 worksites with the highest self-reported 
injury/illness rates--approximately four times the national private 
sector DART rate--to be included for inspection under OSHA's SST. In 
order to verify generally the reliability of claims by establishments 
that they have achieved low DART rates, analysts in OSHA's Office of 
Statistical Analysis in Washington, DC, will select--by applying a 
random number table to all establishments that have reported a low 
rate--approximately 100 low-rate establishments in high-rate 
industries. Some employers who did not respond to the mandatory data 
collection are also included for inspection. This data effectively 
targets OSHA's inspection resources towards establishments that are 
experiencing the highest rates of injuries and illnesses under our 
jurisdiction.
    OSHA believes it is prudent to continue to include those worksites 
with approximately four times the national private sector DART rate in 
its inspections, and to use other inspection resources for other SST 
program sites and to respond to fatalities and catastrophes, reports of 
imminent danger situations, employee complaints, and referrals.
    The rest of OSHA's targeted inspections currently fall under 
National Emphasis Programs (such as refineries, lead exposure, 
amputations, and trenching fatalities), construction inspections, and a 
wide variety of Local Emphasis Programs designed to address hazards and 
industries of concern, depending on local needs.

                NATIONAL EMPHASIS PROGRAM FOR REFINERIES

    Question. In response to the Chemical Safety and Hazard 
Investigation Board's report into the BP Texas City refinery explosion 
recommendation, OSHA announced a new National Emphasis Program (NEP) to 
ensure that every refinery under OSHA's jurisdiction is inspected. What 
is the timeline for carrying out all of the inspections under this new 
National Emphasis program? Will these planned inspections be Program 
Quality Verification (PQV) inspections or of a lesser standard? If the 
inspections will be of a lower standard, please explain why.
    Answer. OSHA began developing the National Emphasis Program for 
refineries prior to the CSB report and includes the agency's plans to 
inspect every refinery under Federal jurisdiction by the end of 2008.
    The planned NEP inspections will not be program-quality-
verification (PQV) inspections as described in OSHA's 1992 directive 
outlining compliance guidelines for the Process Safety Management (PSM) 
standard. The PQV approach employs a broad, open-ended inspection 
strategy and uses a more global approach to identify compliance 
deficiencies. The new refinery NEP provides a more focused and 
effective protocol for evaluating compliance with the PSM standard by 
directing OSHA compliance officers (CSHOs) to review documents, 
interview employees, and verify implementation for specific processes, 
equipment and procedures.
    This NEP is designed to facilitate inspections at all refineries 
within its scope. In contrast to the PQV approach, this NEP addresses a 
number of priority items which CSHOs are to evaluate for compliance. 
OSHA's compliance officers, using the list of inspection priority 
items, will focus on the conditions most likely to be catastrophic 
fire/explosion and toxic release hazards to workers in the facility. We 
believe the NEP's new inspection strategy will yield more effective 
results than the current approach to enforcing PSM.

                       PROCESS SAFETY MANAGEMENT

    Question. The Board's report also recommended that OSHA hire or 
develop new, specialized inspectors and expand the PSM training 
curriculum at its National Training Institute. What level of resources 
will be spent in fiscal year 2007 or is planned to be spent in fiscal 
year 2008 on these activities? How do these spending levels compare to 
fiscal year 2005 and fiscal year 2006?
    Answer. OSHA began the process of expanding the number of 
Compliance Officers trained in PSM prior to CSB's report. PSM training 
has been offered annually by the OSHA Training Institute for the past 
several years. The OSHA Training Institute conducts a sequence of three 
different courses that qualifies OSHA personnel to participate in 
inspections conducted in accordance with the NEP on the process safety 
management standard for petroleum refineries.
    OSHA personnel with experience in the chemical processing or 
refinery industries qualify as Level 1 Refinery NEP Inspection Team 
Members by completing the required OSHA Training Institute course or by 
completing other equivalent specialized seminars in process safety 
management. Employees who have at least 2 years of OSHA inspection 
experience qualify as Level 2 refinery NEP inspection team members by 
completing two OSHA Training Institute PSM courses.
    Between fiscal year 2000 and fiscal year 2006 the OSHA Training 
Institute trained 194 OSHA staff on PSM. The Institute is projecting 
that approximately 250 OSHA staff will attend PSM training courses in 
fiscal year 2007.

                     VOLUNTARY PROTECTION PROGRAMS

    Question. According to OSHA data provided for a Gallup study of 
this program, injury rates remain unchanged before and after 
participation in the VPP. Why does the budget propose additional 
resources for an activity that, according to OSHA's own data, does not 
improve workplace safety and health?
    Answer. To the contrary, the data collected and analyzed by the 
Gallup Organization clearly indicates that injury and illness rates 
dramatically improve for Voluntary Protection Programs (VPP) 
participants in the years prior to and working toward VPP acceptance. 
Additionally, once a worksite is accepted into VPP, injury and illness 
rates remain fairly constant with further improvement in rates for most 
sites over time
    VPP provides a systematic approach for improving workplace safety 
and health performance. The VPP program allows employers, employees, 
and OSHA to work together to implement an effective workplace safety 
and health management system that ensures safety is efficiently 
integrated into the management of day-to-day workplace operations. In 
November 2003, Gallup was contracted by the Department of Labor to 
design and conduct an independent evaluation of the VPP. Gallup 
collected data from approximately 300 worksites for the 5 years prior 
to acceptance into VPP. Gallup also looked at how these same worksites 
performed once they were accepted into the VPP. As the chart below 
shows, VPP participants achieved dramatic reductions in worker injury 
and illness rates with the most dramatic change in all 5 years occurs 
between year 4 and year 3.
  tcir and dart rates for the five years prior to acceptance into vpp

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Gallup study found that VPP participants not only enhance 
safety and health at their worksites, but also conduct mentoring and 
outreach to other worksites within and outside of their company. For 
example, Gallup found that in 2004, VPP participants mentored over 
1,500 other worksites. This impacted over 500,000 employees. It is this 
very beneficial impact on workplace safety and health that support the 
agency's proposal to increase resources for VPP.

                               ERGONOMICS

    Question. DOL has issued 408 hazard alert letters on ergonomics. 
Please provide for the record an example of the hazard alert letter 
issued by OSHA to an individual company.
    Answer. Example is Northwest Airlines, Tampa facility, baggage 
handling, attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ergonomics
    Question. Please provide for the record a detailed explanation of 
the types of follow-up actions OSHA undertakes after the issuance of a 
hazard alert letter to determine if ergonomic hazards have been 
addressed.
    Answer. Follow-ups of ergonomic hazard alert letters are generally 
conducted under OSHA Instruction CPL 02-00-144--Ergonomic Hazard Alert 
Letter Follow-up Policy (copy included). This policy is similar to OSHA 
Instruction CPL 02-00-140--Complaint Policies and Procedures, in that 
an employer is first contacted by telephone and then faxed a copy of 
the original ergonomic hazard alert letter. The employer is given 20 
working days to respond as to what steps have been taken to address the 
hazards identified in the original letter. The response is then 
evaluated and a determination made as to what progress the employer has 
made. The outcome of the evaluation can range from the case being 
closed to scheduling the employer for a second inspection.
    The directive CPL 02-00-144 Ergonomic Hazard Alert Letter Follow-up 
Policy, is attached.

                           OSHA INSTRUCTIONS

                          DEPARTMENT OF LABOR

              Occupational Safety & Health Administration

  directive number: cpl 02-00-144      effective date: april 11, 2007

        subject: ergonomic hazard alert letter follow-up policy

                                ABSTRACT

    Purpose.--The purpose of this directive is to outline a process for 
contacting employers who received an ergonomic hazard alert letter 
(EHAL).

    Scope.--This directive applies to any inspection coded N-03, or 
other IMIS code for ergonomic inspections, for which an ergonomic 
hazard alert letter has been issued. This directive is intended to 
apply only to ergonomic hazard alert letters (EHALs).

    References.--Ergonomics Enforcement Policy, found on the web at: 
(http://www.osha.gov/SLTC/ergonomics/enforcement_plan.html); Field 
Inspection Reference Manual, OSHA Instruction CPL 02-00-103.

    Cancellations.--None.

    State Impact.--State adoption not required.

    Action Offices.--Regional Offices, Area Offices

    Originating Office.--Directorate of Enforcement Programs

    Contacts.--Office of Health Enforcement, 200 Constitution Avenue 
NW, Room N-3119, Washington, DC 20210

            By and Under the Authority of
                                      Edwin G. Foulke, Jr.,
                                               Assistant Secretary.

                           Executive Summary

    Employers who have received ergonomic hazard alert letters (EHALs) 
will be asked to provide information on progress in addressing the 
hazards outlined in the EHAL. This Notice outlines a process for 
contacting employers to determine whether hazards and deficiencies 
identified in the letter have been addressed. This directive applies to 
any inspection coded N-03 for which an ergonomic hazard alert letter 
has been issued, regardless of whether the inspection was initiated 
under an emphasis program, the Site Specific Targeting (SST) program, 
or was unprogrammed. This directive is intended to apply only to EHALs.

                          Significant Changes

    No significant changes to previous policy.

I. Purpose.--The purpose of this directive is to outline a process for 
contacting employers who have received an ergonomic hazard alert letter 
(EHAL) since April 2002. This contact is a continuation of the 
inspection that led to the EHAL, and is intended to determine whether 
hazards and deficiencies identified in the letter have been addressed.

II. Scope.--This directive applies to any inspection coded N-03, or 
other Integrated Management Information System (IMIS) code for 
ergonomic inspections, for which an ergonomic hazard alert letter has 
been issued, regardless of whether the inspection was initiated under 
an emphasis program, the SST program, or was unprogrammed. This 
directive is intended to apply only to EHALs.

III. References.
    A. Ergonomics Enforcement Policy, found on the web at: (http://
            www.osha.gov/SLTC/ergonomics/enforcement_plan.html);
    B. Field Inspection Reference Manual, OSHA Instruction CPL 02-00-
            103.

IV. Cancellations.--None.

V. Action Offices.
    A. Responsible Office.--Directorate of Enforcement Programs, Office 
            of Health Enforcement.
    B. Action Offices.--Regional Offices. Each Region will be 
            responsible for ensuring that this process is implemented.
    C. Information Offices.--The Region may determine who will 
            implement this directive (e.g., the Compliance Safety & 
            Health Officer [CSHO], the Regional Ergonomic Coordinator 
            [REC], etc.) based upon the most effective use of 
            resources.

VI. Federal Program Change.--This Notice describes a Federal program 
change which does not require State adoption or response.

VII. Significant Changes.--Not applicable.

VIII. Initial Contact with Employer.
    A. Using the current phone/fax process, contact will be made with 
            all employers who received an EHAL issued on or after April 
            1, 2002 and have been in receipt of an EHAL for at least 
            one year (this will allow employers time to implement 
            changes). Employers who voluntarily supplied a progress 
            report to the Area Office (AO) need not be contacted again, 
            unless the AO determines that the response was inadequate.
    B. During the initial phone/fax contact, OSHA staff will explain 
            that the employer is being contacted as a follow-up to the 
            original inspection. OSHA staff is to determine what 
            specific measures were taken by the employer in response to 
            the EHAL. It is suggested that in order to maintain 
            consistency, OSHA staff should ask to speak, if possible, 
            with the management contact(s) at the establishment who was 
            (were) originally involved in the inspection.
    C. Following the initial phone/fax-type telephone call, the 
            employer will be faxed a copy of the original EHAL and a 
            letter (OSHA staff are to use the template provided in 
            Appendix A) requesting: (1) the employer's response 
            regarding measures taken to address the hazard(s) noted in 
            the EHAL; (2) copies of the employer's Log of Work-Related 
            Injuries and Illnesses (OSHA Form 300) since the close of 
            the original inspection; and (3) the estimated number of 
            full-time employees (FTE) or work hours for the exposed 
            employees for the time period corresponding to the injury 
            and illness reports. The employer should be asked about all 
            ergonomic control measures implemented, including those 
            recommended in the EHAL.
    D. A response from the employer is due within twenty (20) working 
            days of the initial phone/fax-type telephone call. The 
            employer may provide the response via fax, e-mail or U.S. 
            Postal Service mail, or common carrier (i.e., FedEx, UPS, 
            etc.).
    E. An evaluation of the employer's response will be made and the 
            employer's efforts will be categorized, as indicated below. 
            The RECs will be available to assist in reviewing the 
            response, if necessary. The response categories are:
        1. No response (NR).--The employer did not provide any e-mail, 
            fax or mail response to the EHAL or telephone/fax inquiry.
        2. Inadequate response (IR).--The employer's response did not 
            establish that it had taken useful steps, such as those 
            identified in the EHAL, to reduce the hazard identified in 
            the EHAL.
        3. On-the-right-track response (RT).--The employer has 
            undertaken measures to address the hazards identified in 
            the EHAL, but the efforts may have either stalled or have 
            not been sufficient to address the hazards. Injury and/or 
            severity rates are not improving.
        4. Successful response (SR).--The employer has implemented 
            measures which address the hazards in the EHAL.

IX. Second Contact with the Employer.
    A. No response (NR) or Inadequate response (IR)
        1. If no response is received from the employer within the 
            allotted twenty (20) working days, or if an inadequate 
            response is received, additional contact with the employer 
            should be made to obtain the desired information. The AO 
            may determine whether this second contact should be made by 
            phone, letter, or inspection (see section X. for inspection 
            procedures).
        2. If the second contact with the employer is by phone call or 
            letter, the response shall be evaluated. The AO will have 
            discretion regarding whether additional follow-up phone 
            calls or additional letters are still warranted. This 
            judgment will be based on the extent to which the employer 
            implemented measures to address the hazard.
        3. Upon completion of any additional contact(s) if the employer 
            still has not responded or has responded inadequately, an 
            inspection shall be scheduled to determine if the ergonomic 
            hazards are being addressed (see section X. for inspection 
            procedures)
    B. On-the-right-track response
      For all responses deemed to be ``on-the-right-track,'' the AO 
            will have discretion regarding whether a follow-up phone 
            call, an additional letter, or an on-site inspection is 
            warranted (see section X. for inspection procedures). This 
            judgment will be based on the extent to which the employer 
            implemented measures to address the hazard.
    C. Successful response
        No further action is required.

X. Inspection Procedures.
    A. All inspections shall be unannounced. The scope of the 
            inspection will be limited to the ergonomic hazards 
            identified in the original EHAL, any conditions cited in 
            the original inspection, and any hazards in plain view.
    B. Inspection findings shall be handled in accordance with the FIRM 
            and any other enforcement guidelines. Conditions which are 
            re-inspected may be considered as apparent potential 
            violations, and citations may be issued based on the 
            findings of the reinspection.
    C. Where ergonomic hazards remain and citations are not issued, the 
            employer should be sent a letter (additional EHAL) 
            suggesting relevant hazard abatement measures (Appendix B).

XI. Data.
    A. A spreadsheet listing ergonomic hazard alert letters will be 
            provided to the Area Offices by the RECs. The results of 
            the follow-up contact with each employer shall be entered 
            into the spreadsheet and be forward the RECs twice a year 
            (June and December) or as otherwise requested by the RECs. 
            The information submitted by the AO will be limited to the 
            date of the initial contact under section VIII., the date 
            the follow-up is finalized and the final outcome for each 
            employer. Possible results are given below and the outcome 
            for each employer may have more than one result. For 
            example, if an employer is contacted and provides an 
            inadequate response resulting in an inspection which leads 
            to a second EHAL, the spreadsheet would contain codes IR, 
            FI and LT in addition to the appropriate dates. The EHAL 
            follow-up will be considered final if the site is no longer 
            in business, when a successful response is received, when 
            an on-the-right-track response has been received and the AO 
            determines no further action is required, or when an 
            inspection is initiated.

      NR No response
      IR Inadequate response
      RT On-the-right-track
      SR Successful response
      OB Out of Business
      FI Follow-up inspection
      LT Second Letter
      CI Citation

    B. The RECs will be responsible for submitting the results to the 
            NO. The NO will summarize the results.

XII. IMIS.
    A. When a second inspection is not conducted:

      The time spent on the evaluation is to be recorded on the CSHO's 
            OSHA 31 under Activity Details. Mark line 5a I 
            (Inspection), then enter the inspection number of the 
            original case on line 6 along with the time spent on the 
            contact.

    B. When a second inspection is conducted:

      This will be considered a new inspection, and normal coding 
            procedures are to be used.

XIII. Expiration.--This directive will be effective for three (3) years 
from the date signed.

             APPENDIX A--TEMPLATE LETTER FOR EHAL FOLLOW-UP

    Dear Employer:
    On ____ (date) ____, the ______ Area Office of the Occupational 
Safety and Health Administration (OSHA) conducted an inspection of your 
workplace, including an evaluation of risk factors which may contribute 
to injuries of the musculoskeletal system. As a result of this 
inspection, a letter addressing these hazards (copy enclosed) was 
forwarded to you on ____ (date) ____.
    To evaluate your progress in addressing the hazards identified, we 
are seeking the following information:
  --Any controls you may have implemented to address these hazards, 
        including adding mechanical devices, redesigning workstations, 
        modifications to employee workloads, changes to the way 
        injuries are addressed, or any other changes which you feel may 
        have impacted the hazard identified in OSHA's letter. This 
        includes any controls recommended by OSHA or other controls 
        implemented.
  --A list of the types of training provided to your employees to 
        address these hazards.
  --Copies of OSHA's Form 300, Log of Work-Related Injuries and 
        Illnesses, beginning with the year of the original inspection.
  --An estimate of the number of hours worked or full-time employees 
        for each employee whose job title(s) is (are) ____ or are in 
        at-risk job(s) ____, by year beginning with the year of the 
        original inspection.
    Please provide your response to the ______ Area Office within 
twenty days of receipt of this request by fax, e-mail, regular mail, or 
common carrier. A brief evaluation of the effectiveness of the controls 
may be included if you believe this will help OSHA in evaluating your 
efforts. The lack of a response to this letter will result in further 
action by OSHA, possibly including another inspection of your facility.
            Sincerely,
                                                     Area Director.
            Enclosure.

             APPENDIX B--TEMPLATE LETTER FOR SECOND CONTACT

    Dear Employer:
    An evaluation of your efforts to address ergonomic hazards related 
to an Occupational Safety and Health Administration (OSHA) inspection 
has been conducted. As you know, the original inspection took place on 
______. We initiated a second contact with your organization to 
determine your success in addressing the hazards in your workplace.
    OSHA has determined that your efforts in addressing ergonomic risk 
factors are (unlikely to address the hazard/on-the-right-track) and 
that further measures, as detailed below, would contribute to 
resolution of the hazard:
  --List relevant Engineering Controls
  --Administrative/Work Practice Controls
  --Training Needed
    OSHA offers various forms of cooperative assistance to employers, 
some focused on specific hazards, others aimed at helping employers 
develop and implement safety and health management systems that provide 
more comprehensive protection for workers. These include:
  --The OSHA Consultation Program, administered by the States and 
        funded largely by OSHA, which offers free consultation services 
        to qualifying small businesses, primarily in high hazard 
        industries. Consultants help employers identify and correct 
        workplace hazards and develop more comprehensive safety and 
        health management systems.
  --The Voluntary Protection Programs (VPP), which recognize companies 
        where managers and employees are working together to establish 
        comprehensive safety and health management systems. The VPP 
        Mentoring Program, offered by the independent VPP Participants' 
        Association, offers mentoring to any employer seeking 
        assistance.
  --OSHA Strategic Partnerships, which often address specific safety 
        and health issues such as ergonomics.
  --OSHA Alliances with trade or professional organizations, employers, 
        labor organizations, and educational institutions, which 
        provide training and other services to help employers reduce 
        injuries and illnesses. Many OSHA Alliances focus on ergonomic 
        issues.
    You can find information about these programs, plus an array of 
electronic tools (e-tools), publications, and other information at 
www.osha.gov. Any further assistance needed in this matter may be 
obtained by contacting our offices.
            Sincerely,
                                                      Area Director
                               ERGONOMICS

    Question. Please provide for the record a list of follow-up 
inspections conducted after the issuance of an ergonomic hazard alert 
letter.
    Answer. Because the Ergonomic Hazard Alert Letter Follow-up Policy 
was recently signed (April 11, 2007), only three sites have received 
follow-up inspections thus far. All three of those inspection sites 
were Transportation Security Administration locations (Anchorage and 
Fairbanks Alaska, and Portland Oregon). The original and the follow-up 
inspections were conducted under a Federal agency targeting program in 
effect for OSHA's Seattle Region.
    Question. Please provide for the record the number of ergonomic 
hazard alert letters issued by year for the years 2001 to 2006.
    Answer. The information follows.

----------------------------------------------------------------------------------------------------------------
                                                                                    Year
                                                           -----------------------------------------------------
                                                              2001     2002     2003     2004     2005     2006
----------------------------------------------------------------------------------------------------------------
Letters...................................................       NA       30      224      109       52       31
----------------------------------------------------------------------------------------------------------------
Note.--OSHA did not begin tracking ergonomic hazard alert letters until after the announcement of Secretary's
  Four-Pronged Approach to Ergonomics in April 2002.

    Question. Please provide for the record the number of follow-up 
inspections conducted after the issuance of an ergonomic hazard alert 
letter by year for the years 2001 to 2006.
    Answer. Because the Ergonomic Hazard Alert Letter Follow-up Policy 
was recently signed (April 11, 2007), only three Transportation 
Security Administration sites have received follow-up inspections, one 
each in 2004, 2006, and 2007.
    Question. In 2004, the National Advisory Committee on Ergonomics 
(NACE) recommended 16 industries for developing ergonomic guidelines. 
To date, only 3 industry ergonomic guidelines have been developed--for 
nursing homes, poultry processing and retail grocery. What other 
ergonomic guidelines is OSHA working on? Which ergonomic guidelines 
will OSHA finalize in fiscal year 2007 and in fiscal year 2008?
    Answer. OSHA has completed work on guidelines for three industries 
(nursing homes, retail grocery and poultry). The approaches to 
addressing ergonomics in these guidelines are also applicable to 
hospitals and department stores, two industries that NACE recommended 
for future guidelines.
    Since 2004, OSHA has updated the NACE analysis with more recent 
injury and illness statistics and is considering industries for future 
ergonomics guidelines. OSHA is working on the ergonomics Guidelines for 
Shipyards. Once completed we anticipate a 60-day comment period and, if 
requested by interested parties, a stakeholder meeting shortly 
following the end of the comment period. We anticipate publishing the 
final Guidelines for Shipyards late in fiscal year 2007 or early fiscal 
year 2008.
    Question. Overall, how long will it take for OSHA to issue 
guidelines on the 16 industries recommended by your National Advisory 
Committee?
    Answer. OSHA has carefully considered the recommendations offered 
by NACE, which was established to advise the Secretary of Labor on 
ergonomics guidelines, research, and outreach and assistance. We have 
updated the NACE analysis using more recent injury statistics. The 
agency is using the results of this updated analysis as one source of 
information as it considers candidates for future ergonomics 
guidelines. It should be noted that NACE recommended that OSHA also 
consider the ``Other Criteria'' (e.g., injury trends, absence of 
available guidelines) established by the Guidelines Workgroup when 
making specific industry selections from the NACE list.
    Our past experience with guidelines development is the best 
indicator of future timelines. The Guidelines for Nursing Homes were 
completed in about a year. The Guidelines for Poultry processing and 
the Guidelines for Retail Grocery Stores were completed simultaneously 
in a 2-year period. We plan to publish draft Guidelines for Shipyards 
in fiscal year 2007, and anticipate finalizing them in late fiscal year 
2007 or early fiscal year 2008.

                     PERSONAL PROTECTIVE EQUIPMENT

    Question. In litigation regarding the OSHA Employer Payment for 
Personal Protective Equipment standard, DOL informed the U.S. Court of 
Appeals for the District of Columbia that it will issue a final 
standard by the end of November 2007, barring unforeseen circumstances. 
Please provide the committee with a written timetable indicating the 
remaining steps in the process for issuing the final rule and the 
timetable for completing those steps and bi-monthly reports on the 
progress that has been made in meeting that timetable.
    Answer. As you note, OSHA is moving forward with the PPE payment 
rulemaking. The regulatory team assigned to work on the project is 
currently developing the regulatory text and preamble discussion 
explaining the rule, as well as the legal discussions and economic 
analyses required by the various laws and executive orders that affect 
the rulemaking process. We have agreed to provide the court with 
updates on the rule's progress every 60 days, with the first report to 
be made on June 4, 2007.
    When the team has completed its work and I have approved the 
rulemaking documents, we will submit them to OMB for review. When that 
process is completed, we will publish the final rule in the Federal 
Register and submit it to Congress per the Congressional Review Act. 
Barring unforeseen circumstances, we expect to complete that process in 
November 2007.

                    PANDEMIC INFLUENZA PREPAREDNESS

    Question. On February 26, 2007, the Department of Labor denied a 
petition from AFSCME and other labor organizations to issue an OSHA 
emergency temporary standard (ETS) to protect health care workers and 
other emergency responders. During the hearing on March 28, Secretary 
Chao indicated that the Department did not believe that OSHA had the 
legal authority to issue an ETS for pandemic flu under the Occupational 
Safety and Health Act because a pandemic had not yet occurred. Has the 
Department re-evaluated its authority on this issue? If so, does the 
Department still believe that the United States needs to be in the 
middle of a flu pandemic to be able to issue an emergency standard?
    Answer. After careful consideration of the provisions of the 
Occupational Safety and Health Act of 1970, OSHA determined that it had 
to deny the petition because it could not legally support an ETS for a 
hazard that does not technically exist at this point. The rulemaking 
process can be complex, but has evolved in such a manner as to ensure, 
as much as possible, that a final rule is not only effective, but can 
also stand up to legal challenges.
    We clearly recognize and agree with the petitioner's concerns about 
the need to be prepared for the possibility of an influenza pandemic. 
To this end, OSHA recently issued guidance to assist employers and 
employees in preparing for a pandemic, entitled ``Guidance on Preparing 
Workplaces for an Influenza Pandemic.'' This guidance outlines steps 
employers and employees can take to prepare for and respond to an 
influenza pandemic. On May 21, 2007, OSHA also issued guidance for 
hospital-based health care providers, entitled ``Pandemic Influenza 
Preparedness and Response Guidance for Healthcare Workers and 
Healthcare Employers.''
    Question. When will the Department of Labor issue guidelines for 
protecting health care workers and emergency responders in the event of 
a pandemic?
    Answer. In addition to its recently published general guidance for 
workplace preparations for an influenza pandemic, OSHA, in close 
consultation with the Centers for Disease Control and NIOSH, has just 
issued a detailed guidance document for healthcare facilities entitled 
``Pandemic Influenza Preparedness and Response Guidance for Healthcare 
Workers and Healthcare Employers.'' OSHA also ensured that this 
critical subject was addressed at a conference co-sponsored with the 
Joint Commission for the Accreditation of Healthcare Organizations in 
the fall of 2006. Now that the healthcare guidance has been issued, 
OSHA plans to seek opportunities for outreach in the healthcare 
industry.
    Question. Does the Department intend to enforce these guidelines 
under the general duty clause (section 5(a)(1)) of the Occupational 
Safety and Health Act?
    Answer. No. As a matter of policy, OSHA does not issue general duty 
clause citations based on guidelines that the agency has issued.
    Question. Please provide information or data on the percentage of 
hospitals that have implemented the infection control procedures and 
respiratory protection measures for health care settings recommended by 
the Department of Health and Human Services in order to prepare for a 
pandemic.
    Answer. OSHA has no information on the percentage of hospitals/
healthcare facilities that have implemented infection control 
procedures and respiratory protection measures. We are not aware of a 
source for this information.

                                PERM FEE

    Question. The fiscal year 2008 budget proposes legislation to 
authorize a cost-based user fee on new applications for the Permanent 
Labor Certification (PERM) program. What is the fee structure for the 
PERM proposal?
    Answer. The Department's proposal sets an initial filing fee of 
$650 per application. This fee amount was calculated based on the 
Department's analysis of the funds necessary to recover the processing 
costs of administering this service, which helps employers to lawfully 
hire non-immigrant workers to fill labor shortages. Employers, not 
alien beneficiaries, would pay the fee. Under the Department's 
proposal, the Department would review and adjust the fee amount 
annually to ensure it remains a cost-based fee.

                  A-76 CIRCULAR, COMPETITIVE SOURCING

    Question. From fiscal year 2004 through fiscal year 2006, please 
indicate at DOL how many standard OMB Circular A-76 competitions have 
been completed and how many of those standard competitions were won by 
in-house workforce? For the same period at DoL, please indicate how 
many streamlined OMB Circular A-76 competitions have been completed and 
how many of those streamlined competitions were won by the in-house 
workforce?
    Answer. DOL completed 3 standard competitions that were all won by 
the in-house workforce. DOL completed 18 streamlined competitions that 
resulted in 2 converting to contract performance and 16 being won by 
the in-house workforce.
    Question. From fiscal year 2004 through fiscal year 2006, please 
indicate at DOL how many times in-house workforces have been allowed to 
compete to perform new work? For the same time period, please indicate 
how many times in-house workforces have been allowed to compete to 
perform outsourced work. Please indicate whether OMB has ever directed 
or encouraged the Department of Labor to allow in-house workforces to 
compete to perform new work or outsourced work. Please identify those 
instances as well as the numbers of FTEs involved.
    Answer. New work is typically staffed by Federal employees using 
OPM and DOL personnel rules and procedures. Where appropriate, 
contractor support may be procured using the Federal Acquisition 
Regulation procedures to perform work that is commercial in nature.
    OMB has neither encouraged nor discouraged the use of the A-76 
competition process by in-house workforces to perform new work or work 
currently performed by contractors. The opportunity to recompete work 
previously competed under the A-76 process has not presented itself 
because contracts awarded for previous competitions have not yet 
expired.
    Question. From fiscal year 2004 through fiscal year 2006, please 
indicate whether DoL has ever sought to use alternatives (e.g., high 
performing organization, business process reengineering, etc.) to OMB 
Circular A-76 to reach its competitive sourcing goals. Has OMB 
encouraged or allowed for the use of alternatives to achieve the goals? 
Please identify those instances as well as the numbers of FTEs 
involved.
    Answer. Between the years fiscal year 2004 through fiscal year 
2006, DOL focused its attention on a relatively narrow set of 
activities (less than 5 percent of its commercial workforce and less 
than 3 percent of its entire workforce) that were good candidates for 
competitive sourcing--e.g., common recurring support services, 
performed competently and cost-effectively in the marketplace, suitable 
for performance by either a contractor or an in-house team. DOL also 
identified commercial activities for which competitive sourcing is not 
the best management tool and will not be considered for competition, 
largely because the activities are core to the agency's mission and 
best performed with Federal employees. Of the 26 competitions completed 
to date, Federal staff have been successful retaining the work in-house 
in 23 cases. However, none of the competitions have reached the 
conclusion of their full performance period--generally 3 to 5 years 
following the competition. Therefore, DOL has not yet had an 
opportunity to consider the high performing organization (HPO) 
alternative. In general, OMB has indicated that they are receptive to 
allowing agencies to use HPO as an alternative to conducting A-76 
competitions.
    Question. How many OMB Circular A-76 privatization reviews has DOL 
scheduled for fiscal year 2010, fiscal year 2011, fiscal year 2012, and 
fiscal year 2013, and how many FTEs would be involved during each of 
those years?
    Answer. DOL's current fiscal year 2010 Competition Plan identifies 
approximately 1,500 FTEs for possible competition. However, the final 
management decision to pursue competition and the size and scope of a 
competition will be contingent on the results of a feasibility study. 
DOL has not yet developed a competition plan for fiscal years 2011-
2013.

  OFFICE OF DISABILITY EMPLOYMENT POLICY (ODEP) WORKING TO ELIMINATE 
                         BARRIERS TO EMPLOYMENT

    Question. Based on findings and results of ODEP's grants, what 
policy to reduce barriers to employment for people with disabilities 
has ODEP developed and seen implemented?
    Answer. ODEP has developed policy in several disability-related 
employment policy areas for implementation at the national, State and 
local levels. Examples include:
  --Disability-related Amendments to the Workforce Investment Act 
        (WIA).--Based on issues identified through ODEP's pilot project 
        and technical assistance grants, ODEP developed a set of policy 
        recommendations for and proposed amendments to the WIA. These 
        recommendations and proposed amendments targeted the needs of 
        persons with disabilities, and included a description of 
        problems with current law, justification for change, the 
        proposed amendment, and an explanation of its intent. As a 
        result of ODEP's efforts, the State plan requirements for WIA 
        implementation were amended in several ways; first, to ensure 
        that the description of how the State will meet the needs of 
        persons with disabilities is tied to WIA section 188 (which 
        ensures non-discrimination and equal opportunity) and Executive 
        Order 13217 (relating to community-based alternatives for 
        individuals with disabilities); and second, that the State 
        should be required to specifically describe how it will ensure 
        physical and programmatic accessibility for persons with 
        disabilities. ODEP also recommended that the WIA youth program 
        elements be expanded to include instruction in basic economic 
        literacy, which while necessary for all youth, is particularly 
        important for youth with disabilities in planning for a solid 
        financial future and working toward self-sufficiency. The 
        administration's bill for reauthorization of the WIA contained 
        many additional recommendations from ODEP's, and a number of 
        ODEP's recommendations are in the House and Senate bills for 
        reauthorization of WIA.
  --Improving Transition Results for Youth with Disabilities.--Special 
        education students are more than twice as likely to drop out of 
        high school as their peers in general education, are half as 
        likely to participate in post secondary education, and are much 
        more likely to be unemployed and live in poverty as adults than 
        their non-disabled peers. To help steer families, institutions, 
        and youth themselves through the difficult transition form 
        youth to adulthood, ODEP developed Guideposts for Success, 
        reflecting what research has identified as key educational and 
        career development interventions that can make a positive 
        difference in the lives of all youth, including youth with 
        disabilities.
    The dissemination of Guideposts for Success has increased access to 
coordinated, comprehensive transition services that youth with 
disabilities need to successfully enter employment and/or post-
secondary education. Examples of how the Guideposts have been 
implemented at the State and local levels include:
  --In Iowa, a State team of nonprofit and State government agencies 
        working to strengthen employment services for Iowans with 
        disabilities, is developing a State Report Card looking at 
        indicators specific to youth with disabilities and transition 
        from secondary school to employment and/or postsecondary 
        education based on the Guideposts. The State Report Card will 
        be used to measure how Iowan youth with disabilities are 
        transitioning to adulthood compared to their peers. A draft 
        report card can be found at http://
        www.iowaemploymentpartners.com/tools/draft_report_card92205.xls
  --To date, South Carolina, Indiana, Wisconsin, and Texas are at 
        various stages of implementing High School/High Tech projects 
        using the Guideposts for Success model. Oklahoma's HS/HT 
        program has received a $300,000 grant from the National Science 
        Foundation to develop a new program using the HS/HT model for 
        middle school students with disabilities.
  --In Maryland, the State Superintendent for the Maryland Department 
        of Education signed a Statewide Transitioning Cooperative 
        Agreement, which provides for statewide implementation of the 
        Guideposts framework and is finalizing agreements with 24 local 
        school districts to provide for incorporation of the Guideposts 
        at the local level. Five of those agreements also include a 
        voluntary addendum for provision of assistive technology before 
        students leave high school. These agreements will ensure that 
        all students with disabilities, not just those participating in 
        the High School/High Tech program, have access to the type of 
        comprehensive transition programming that research indicates 
        leads to transition success.
  --ODEP worked with the National Alliance for Secondary Education and 
        Transition to develop a framework identifying what schools need 
        to do to ensure that youth have access to the services and 
        supports articulated in the Guideposts. Forty-six States are 
        now using the framework to develop their transition improvement 
        plans, helping students in thousands of school districts 
        prepare to enter employment and/or post-secondary education.
    Question. What ODEP grants have lead to what policy, and where is 
it implemented?
    Answer. ODEP pilot project, research, and technical assistance 
grants have lead to policy developed and implemented on the Federal, 
State, and local level. These grant efforts have supported ODEP's 
development of disability employment policy in the areas of:
  --Universal access and design to improve the workforce development 
        system's operational practices, services, and physical 
        environments so they benefit the greatest number of people, 
        including people with disabilities, and enhance the workforce 
        development system's overall cost-effectiveness and quality;
  --Youth in transition to ensure that the transition-related needs of 
        youth with disabilities between the ages of 14 to 24 are viewed 
        holistically with their non-disabled peers and are effectively 
        prepared for entering employment or post-secondary education;
  --Employment strategies and incentives to expand the implementation 
        of creative strategies such as customized employment, telework, 
        and utilization of tax and work incentives to maximize 
        employment opportunities for people with disabilities; and
  --State and local infrastructure leadership to increase leadership, 
        collaboration and foster the development of needed 
        infrastructure at the State and local levels where policy 
        implementation ultimately occurs.
    Forty-six States--including Alaska, Florida, Wisconsin, Georgia, 
New York, and California--have adopted evidence-based policies and 
practices that ODEP has developed based on the findings of the grants 
that the agency has funded.
    We have included a chart for the record that provides specific 
examples of policy developed by ODEP that the agency has since seen 
implemented. None of these examples of policy adaptation, adoption, and 
implementation would have happened without ODEP's ongoing efforts to 
improve employment opportunities for people with disabilities.
    Question. Has ODEP developed and implemented policy that ODEP 
developed from efforts other than grants? If so, what policy and where 
has it been implemented?
    Answer. While awarding pilot project, research, and technical 
assistance grants is one strategy that ODEP has successfully used to 
develop policy and foster its implementation, ODEP also employs other 
critical non-grant strategies, each of which relies on its staff of 
disability experts and their policy analysis and development and 
research skills. ODEP's mandate--to eliminate barriers to employment 
for people with disabilities--requires an approach that utilizes 
multiple strategies. Policies that ODEP has developed from efforts 
other than grants include:
  --Expanding Employment-related Transportation Options.--Since 
        research supports the lack of available and accessible 
        transportation as the most often cited barrier to employment, 
        ODEP's policy staff established new working relationships with 
        the Department of Transportation (DOT) and other Federal 
        partner agencies that provide transportation supports and 
        services. The policy staff also worked with DOT on the creation 
        of DOT's technical assistance and grant programs that assist 
        States in their efforts to better coordinate their employment-
        related transportation activities. This initiative eventually 
        resulted in the following:
    --ODEP's co-sponsorship with DOT of a National Summit on Employment 
            and Transportation for People with Disabilities.
    --ODEP's draft of Executive Order13330, Human Service 
            Transportation Coordination (EO), was signed and announced 
            by the White House at a second, larger conference that 
            included the Departments of Education and Health and Human 
            Services. The EO established the Coordinating Council on 
            Access and Mobility, which implemented the United We Ride 
            initiative. The United We Ride initiative, led by DOT, 
            includes the participation of ten Federal agencies working 
            together to simplify, coordinate, and enhance customer 
            access to transportation, and to reduce duplicative laws, 
            ensure comprehensive planning, standardize cost allocation 
            processes, and document successful strategies for human 
            service transportation.
    --ODEP's work with DOT ensured that the reauthorization of SAFETEA-
            LU included $80 million in new funding for employment-
            related transportation for people with disabilities. These 
            funds will be provided to each State to be used to 
            establish new transportation options for people with 
            disabilities to gain or maintain employment.
  --Documenting the Unemployment Rate of People with Disabilities.--A 
        credible unemployment rate is fundamental to research and 
        policy development across government and the private sector to 
        increase workforce participation for people with disabilities. 
        A multi-year collaborative effort between ODEP research staff 
        and the Bureau of Labor Statistics (BLS) is ongoing to develop 
        a valid and reliable method of measuring the unemployment rate 
        of people with disabilities.
    Seven disability questions are being tested and validated for use 
in the Current Population Survey (CPS), which is jointly conducted by 
BLS and the Bureau of the Census. BLS is working to launch these 
questions in the monthly CPS in June of 2008, and for the first time, 
the Department of Labor will be able to publish an official 
unemployment rate for people with disabilities.
    In addition to the examples given here, we have included a chart 
for the record that provides more examples of policy developed by ODEP 
that the agency has since seen implemented. None of these examples of 
policy adaptation, adoption, and implementation would have happened 
without ODEP's ongoing efforts to improve employment opportunities for 
people with disabilities.

----------------------------------------------------------------------------------------------------------------
      Strategy /Activity         Issue Addressed               Policy Implemented               Location /System
----------------------------------------------------------------------------------------------------------------
                                            Workforce Systems Policy

Pilot Project Grants.--         Promoting Self-    One-Stop Career Centers--Self-Employment    States and State
 Customized Employment.          Employment as a    Training for Workforce Investment Act       workforce
                                 Valid Employment   Clients TEGL#16-04 http://wdr.doleta.gov/   agencies
                                 Outcome for        directives/corr_doc.cfm?DOCN=1684.
                                 People with
                                 Disabilities.
Technical Assistance and Pilot  Ensuring Access    WIA section 188 Disability Checklist http:/ One-Stop Career
 Project Grants.--National       to One-Stop        /www.dol.gov/oasam/programs/crc/            Centers
 Center on Workforce and         Career Centers     WIASection188DisabilityChecklist.htm;
 Disability for Adults (NCWD-    for People with    Strategies and Practices for Effectively
 A); Working for Freedom,        Disabilities.      Serving all One-Stop Customers--A
 Opportunity and Real Choice                        Framework for Systems Change.
 Through Community Employment
 (WorkFORCE) Action; and
 Customized Employment.
Technical Assistance and Pilot  Increasing Access  Youth Vision Training and Employment        Workforce
 Project Grants.--National       to Youth           Guidance Letter No. 28-05 (TEGL) http://    Investment Act
 Collaborative on Workforce      Services for       wdr.doleta.gov/directives/                  (WIA)-funded
 and Disability for Youth        Youth with         corr_doc.cfm?DOCN=2224.                     programs
 (NCWD-Y) and Innovative State   Disabilities.
 Alignment Grants for
 Improving Transition Outcomes
 for Youth with Disabilities
 through the Use of
 Intermediaries
 (Intermediaries).
Pilot Project Grants            Increasing         ODEP recommendations in the                 Federal WIA
 Activity.--Customized           Participation in   administration's bill for reauthorization   legislation
 Employment grant and            WIA Programs for   of the WIA; ODEP recommendations in the
 (Intermediaries)                People with        House and Senate bills for
                                 Disabilities       reauthorization of WIA..
                                 through
                                 Reauthorization
                                 of the WIA.
Grant Activity.--High School/   Improving          Guideposts for Success http://www.dol.gov/  46 State
 High Tech (HS/HT) State         Transition         odep/categories/youth/.                     education
 Development and                 Results for                                                    systems
 Implementation Grants and       Youth with
 NCWD-Y.                         Disabilities.
Pilot Project Grant.--          Improving the      Customized employment policy for the WIA    Workforce
 Customized Employment.          Workforce          system.                                     Investment
                                 Investment                                                     system
                                 System's
                                 Effectiveness
                                 with ``hard to
                                 serve''
                                 Customers.
Research Project Grant.--       Validating         Telework strategies that promote            Employers; One-
 Telework/Telecommuting Pilot    Telework as a      employment, impact employer policies, and   Stop Career
 Research.                       Strategy to        integrate telework into the services of     Centers
                                 Reduce             the Nation's One-Stop Career Centers.
                                 Employment         www.teleworkusa.net.
                                 Barriers for
                                 People with
                                 Disabilities.

                                       Employers and the Workplace Policy

Technical Assistance and Pilot  Improving          Knowledge, Skills, and Abilities of Youth   National
 Project Grants.--NCWD-Y and     Professional       Service Practitioners: The Centerpiece of   Association of
 Innovative State Alignment      Development of     a Successful Workforce Development System   Workforce
 Grants for Improving            Youth Service      http://www.ncwd-youth.info/assets/          Development
 Transition Outcomes for Youth   Practitioners.     background/ksa.doc; National Association    Professionals:
 with Disabilities through the                      of Workforce Development Professionals      4,500 members;
 Use of Intermediaries.                             use: http://www.nawdp.org/                  National
                                                    certification.htm; National Partnership     Partnership for
                                                    for Juvenile Services use: http://          Juvenile
                                                    www.npjs.org/Training/default1.html.        Services: 900
                                                                                                member
                                                                                                organizations
Non-Grant Activity.--ODEP       Promoting          Preparing the Workplace for Everyone:       National,
 Staff work.                     Workplace Safety   Accounting for the Needs of People with     regional, and
                                 and Security for   Disabilities--A Framework of Emergency      field levels in
                                 Federal            Preparedness Guidelines for Federal         GSA; HR and
                                 Employees with     Agencies (Framework): http://www.dol.gov/   disability
                                 Disabilities.      odep/pubs/ep/preparing2.htm.                program managers
                                                                                                in OPM; Federal
                                                                                                safety and
                                                                                                health officials
                                                                                                in OSHA
Non-Grant Activity.--ODEP       Influencing        Valid, credible workplace accommodations    Society for Human
 Staff work.                     Employer           information: http://www.jan.wvu.edu/        Resource
                                 Policies and       Society for Human Resource Management       Management
                                 Practices.         (SHRM)/ODEP Alliance Agreement: http://     (SHRM): 217,000
                                                    www.dol.gov/odep/alliances/directive.htm.   members;
                                                                                                Employers
Non-Grant Activity.--ODEP       Increasing         Secretary of Labor's New Freedom            Employers
 Staff work.                     Awareness about    Initiative Award (NFI): http://
                                 Persons with       www.whitehouse.gov/news/freedominitiative/
                                 Disabilities and   freedominitiative.html.
                                 Employment.

                                       Employment-Related Supports Policy

Non-Grant Activity.--ODEP       Employment and     Customized employment and Guideposts        Department of
 Staff work.                     Mental Health.     influencing the design of service           Labor /VETS &
                                                    delivery methods of OASVETS training        ETA
                                                    curriculum and REALifelines; Draft
                                                    guidance by ETA for front-line staff in
                                                    the One-Stop Career Centers nationwide.
Non-Grant Activity.--ODEP       Expanding          Executive Order (13330): Human Service      Department of
 Staff work.                     Employment-        Transportation Coordination; The            Transportation
                                 related            reauthorization of SAFETEA-LU included
                                 Transportation     $80 million in new funding for employment-
                                 Options.           related transportation for people with
                                                    disabilities: http://www.unitedweride.gov/
                                                    .
Non-Grant Activity.--ODEP       Documenting the    In June 2008, BLS will launch seven (7)     DOL/Bureau of
 Staff.                          Unemployment       disability questions in the Current         Labor
                                 Rate of People     Population Survey (CPS), which is jointly   Statistics;
                                 with               conducted by BLS and the Bureau of the      Department of
                                 Disabilities.      Census; The results will, for the first     Commerce
                                                    time, document the actual unemployment
                                                    rate of people with disabilities: http://
                                                    www.dol.gov/odep/categories/research/
                                                    rate.htm.
----------------------------------------------------------------------------------------------------------------

            Questions Submitted by Senator Daniel K. Inouye

                     TECHNOLOGY TRAINING FOR WOMEN

    Question. In your testimony, you discussed the preparation of 
workers for jobs in growth sectors of the economy. The Maui Economic 
Development Board introduced the Women in Technology program in Hawaii 
to encourage young women and underrepresented minorities to pursue 
educational opportunities in fields such as science, technology, 
engineering, and math. Madame Secretary, would you comment on programs 
to provide technology training for women, such as the Women in 
Technology Program introduced by the Maui Economic Board?
    Answer. The Department of Labor applauds State and local efforts to 
promote opportunities for women in the fields of science, technology, 
engineering and math (STEM). The national STEM workforce agenda of the 
Department's Employment and Training Administration (ETA) ensures that 
all workers, including women, can take advantage of the opportunities 
presented in the STEM fields and can develop the skills that employers 
demand. ETA's national STEM workforce agenda is focused on (1) building 
an educated and prepared STEM workforce in the context of regional 
economies; (2) developing national, State, and regional strategies for 
talent development in support of economic growth; and (3) implementing 
STEM workforce education strategies across the continuum of education 
with a focus on post secondary opportunities for workers. In the Fall 
of 2007, ETA anticipates a grant competition for approximately $10 
million for STEM talent development strategies that attract and prepare 
workers for STEM careers, including creating an alternative pathway for 
out-of-school youth.
    ETA's national STEM initiative is underpinned by the flagship 
initiatives of the agency. The President's High Growth Job Training 
Initiative builds partnerships among employers, education programs, and 
the workforce investment system to balance the skills of America's 
workers with the demands of employers in high growth, high demand 
industries that include STEM fields, such as Aerospace, Biotechnology, 
Health Care, and Information Technology. In order to build the pipeline 
of STEM workers to meet the current and future demand for their 
talents, the Community-Based Job Training Grants strengthen the 
capacity of community colleges and increase the training opportunities 
in the STEM fields.
    Within the Workforce Innovation in Regional Economic Development 
(WIRED) initiative, regions are bringing together the workforce 
investment system, the continuum of education, industry, economic 
development, and other regional partners to ensure that workers are 
becoming educated and trained for high growth occupations and sectors 
in their regional economy. Many of these regions are targeting high-
tech industries that require strong foundational skills in STEM 
education. The WIRED regions are pursuing strategies to open the door 
to STEM fields for a broader range of individuals, including developing 
2+2+2 and accelerated math/science programs, supporting teacher 
development through summer camps and internships, and establishing 
apprenticeship programs.
    Building on WIRED, Community-Based Job Training Grants, and the 
High Growth Job Training Initiative, ETA is committed to working 
collaboratively with community colleges, agencies across the Federal 
government, the State and local workforce investment system, and a wide 
array of strategic partners in the public and private sectors to help 
coordinate regional assets and to drive a national workforce agenda for 
promoting STEM education and workforce preparation.

           MAUI COMMUNITY COLLEGE NURSING DISTANCE EDUCATION

    Question. The nursing shortage in the United States is particularly 
problematic in rural communities. I appreciate your interest in 
pursuing proper labor support to train health professionals for rural 
Hawaii. In particular, distance education seems to be an effective 
strategy to train nurses in rural areas. The Department of Labor 
recently funded a streamed video delivery of the nursing curriculum at 
the Maui Community College. I am interested in your impressions of this 
nurse training program at the Maui Community College.
    Answer. The distance education program at Maui Community College 
significantly increases the geographical reach of the nursing program 
while expanding health care training capacity in Hawaii by making 
training offered at the campus available statewide through streamed 
video technology. For instance, in the spring semester pharmacology 
class, only 20 of the 130 registered students live on Maui. The 
remaining students live elsewhere in the State and accessed the course 
content remotely. This type of training delivery offers a low-cost 
means of expanding training capacity in that only one instructor is 
needed rather than a separate instructor at each campus. This is a 
promising practice in addressing the nationwide health care faculty 
shortage. Further, the fact that the training can be accessed around 
the clock from any location helps to attract more individuals to the 
profession by providing more flexible training options.

              Questions Submitted by Senator Arlen Specter

                OFFICE OF WORKERS' COMPENSATION PROGRAMS

    Question. It has taken DOL 2.5 years to post the site exposure 
matrices, which lists the toxins present at some facilities, to your 
website. Over 14,000 claims were denied under Part E before the 
claimants had access to this information. It appears that these 
claimants did not have the necessary evidence to develop their claim. 
Does DOL plan to reopen these denied claims and if so, can you 
elaborate on how long it will take and how much money will need to be 
expended?
    Answer. There are a number reasons why Part E claims have been 
denied, including the submission of claims by ineligible survivors, 
claims for non-covered employment, claims for the death of an employee 
that is not related to a covered condition, insufficient medical 
evidence to support a claimed condition, and no relationship between 
toxic exposures and the claimed conditions.
    Although the public Site Exposure Matrices (SEM) website was just 
recently launched, a SEM database has been available for claim 
adjudication purposes by claims examiners and the Final Adjudication 
Branch since April 2006. Moreover, the SEM is one of many tools 
available to DOL in making decisions on causation. Claims staff 
routinely obtains exposure information from the Department of Energy 
and former worker programs, and resource center staff conduct an 
occupational health survey with the claimant. In addition, claims staff 
may request a review of the case by an industrial hygienist or a 
physician. Utilizing the SEM database in conjunction with other 
causation development methods afforded equitable decision-making on 
claims adjudicated prior to the deployment of the public SEM website.
    As a matter of policy, the SEM is not used as the sole basis for a 
decision. Additional tools are used by the Division of Energy Employees 
Occupational Illness Compensation (DEEOIC) in causation evaluation and 
every effort is made to assist the claimant in meeting his or her 
burden of proof, regardless of what information is available in SEM.
    Further, although the SEM database is a valuable tool, it does not 
represent 100 percent of the toxic substances potentially present at a 
given facility and it is updated as new information becomes available. 
Interested stakeholders are encouraged to submit evidence to the SEM 
project team for evaluation and possible inclusion into the SEM. The 
status of site-specific comments will be available for viewing on the 
public site.
    If an individual whose claim was previously denied now finds 
information in the public SEM website concerning the toxic substances 
that are linked to his or her particular illness, and believes that 
this information is relevant to the claim and was not previously 
considered, then he or she may submit this information with a written 
request to reopen the claim to the DEEOIC.
    DEEOIC also engages in an ongoing review of the quality of 
decisions throughout the decision-making process. Recommended decisions 
are written by claims examiners and reviewed and signed by senior 
claims examiners. The claimant has the opportunity to object to the 
recommended decision through a review of the record or hearing, and the 
Final Adjudication Branch reviews and issues the final decision. Even 
after the final decision, a claimant may request a reconsideration 
within 30 days. In addition, the program conducts accountability 
reviews of a sample of cases. During these reviews, all aspects of the 
case are reviewed by a National Office team. Any errors discovered in 
the decision would result in reopening the claim.

               REQUEST FOR PHILADELPHIA SHIPYARD FUNDING

    Question. On September 7, 2006, Senator Santorum and I sent you a 
letter that identified the core concept of a project to revitalize the 
Philadelphia Shipyard. The concept is that in a global economy, 
companies focus their efforts on a limited set of core competencies and 
procure all other necessary goods and services through a highly 
competitive global sourcing process. If the procurement requirements of 
major companies are intensely analyzed, business that can potentially 
be done locally at competitive prices can be identified and 
strategically targeted.
    It is my understanding that on October 26, Assistant Secretary 
Emily DeRocco subsequently met with Philadelphia Shipyard Development 
Corporations (PSDC). PSDC explained that its goal was to have small and 
medium sized companies in the Philadelphia region reclaim supplier jobs 
now being done by foreign workers for the Aker Philadelphia Shipyard 
and to start a pilot program to prove it could be done. At that point, 
the Department of Labor was very excited about the project. The WIRED 
Region in Philadelphia was mentioned as a possibility for funding. At 
that meeting, the Department also recommended that PSDC apply for the 
WIRED 3rd Generation funding. However, as you know, the Governor is 
able to only submit two applications in this round and the Commonwealth 
has already endorsed projects for WIRED Generation 3 for Central PA and 
Western PA.
    It is more than 5 months later and the PSDC is still looking for 
funding through the Department of Labor. My constituents in Southeast 
Pennsylvania are very frustrated with this process and the progress 
with possible funding opportunities within the DoL. The innovative 
supplier network training program would return jobs to the tri-State 
region. The cost of the project is $1.6 million over 18 months. It will 
immediately result in $16 million in sales for deckhouses to be built 
here with an increasing number of local workers. It includes both 
classroom and on the job training. It will create 60 jobs which will 
pay about $55,000, including benefits, vacation and holidays.
    Once PSDC provides this turnkey process, they would like to move on 
to other supplier contracts involved in Aker's contract for 13 tankers, 
with options for more that now goes overseas.
    Where does the Department suggest PSDC go to secure the Department 
of Labor funding for this important project? This has been ongoing 
since early September 2006.
    Answer. The U.S. Government, specifically the Department of Labor 
and the Department of Defense, has devoted significant funding during 
the past 9 years to the employees of the Philadelphia Shipyard. In 
particular, the Department of Labor's Employment and Training 
Administration (ETA) has provided approximately $35,205,600 since 1997 
in the following grants:
  --A dislocated worker demonstration grant of $11,880,000 between 1999 
        and 2003;
  --A Defense Conversion Adjustment grant of $5,505,600 between 2001 
        and 2002; and
  --National Emergency Grant funds totaling $17,820,000 between 1997 
        and 2005 to serve employees of the shipyard.
    The Commonwealth of Pennsylvania has also provided considerable 
funding to support the shipyard and its employees in the form of State 
and local Workforce Investment Act funds since 1998, and previously, 
under the Job Training Partnership Act.
    ETA has worked with the Philadelphia Shipyard Development 
Corporation (PSDC) to assess the economic development opportunities for 
the shipyard and the surrounding community. Recently, Assistant 
Secretary Emily S. DeRocco convened a meeting of Federal, State, and 
local government, workforce development, economic development, and 
business leaders to examine the opportunities and challenges in 
developing the region's comprehensive economic strategy, and to 
strategically align and leverage the Federal, State, and local public 
and private resources available to transform the local economy. ETA has 
also supported collaboration between PSDC and the Mid-Atlantic 
Innovation Network and Innovation Philadelphia, which has received an 
ETA WIRED Initiative grant.
    ETA aims to award its grants through competitive processes as 
requested by Congress. ETA is facilitating a connection between Aker 
Philadelphia Shipyard and a broader audience of stakeholders and fund 
sources to determine the best methods of support for the supplier 
development proposal. ETA is hopeful that the PSDC proposal can be 
supported and that the shipyard can become self-sustaining, providing 
meaningful jobs to the many workers in the Philadelphia area.

              Questions Submitted by Senator Thad Cochran

               PROPOSALS TO STREAMLINE AND STRENGTHEN WIA

    Question. Secretary Chao, I understand that the Department of Labor 
has recently proposed policy changes to the Workforce Investment Act to 
streamline and strengthen the Nation's workforce development system. 
Can you comment on how these changes will affect States and their 
ability to meet the needs being met by the current framework?
    Answer. The administration's most recent legislative proposal for 
Workforce Investment Act (WIA) reauthorization, which was transmitted 
to the Congress in April, would improve the ability of the workforce 
investment system to support our Nation's competitiveness by providing 
States and local communities more flexibility to design streamlined 
workforce systems that best fit the unique needs of their economies. 
The proposal would also better serve the needs of American workers and 
employers by making more money directly available for education and 
training.
    Under the proposal, four separate funding streams through which 
funds are currently allotted to States to support the workforce 
investment system--the WIA Adult, Dislocated Worker, and Youth programs 
and the Employment Service--would be integrated into a single funding 
stream. This consolidated funding would be allocated to States--and 
through States to local areas--to provide Career Advancement Accounts 
and employment services to job seekers and employers. Career 
Advancement Accounts would be available to both adults and out-of-
school youth entering or re-entering the workforce or transitioning 
between jobs, and to incumbent workers in need of new skills to remain 
employed or move up the career ladder.
    The proposal would further enhance the workforce investment system 
by strengthening One-Stop Career Centers, providing for more effective 
governance arrangements, promoting access to a more comprehensive array 
of employment and training services, and improving performance 
accountability. We believe our proposal will give States the tools they 
need to enable current and future workers to gain the skills needed to 
successfully enter, navigate and advance in the 21st century labor 
market.

        HIGHER EDUCATION AND ADVANCED SKILL TRAINING INITIATIVES

    Question. Secretary Chao, as we prepare workers for the new 
challenges of competing in a global economy, can you comment on 
specific initiatives that will provide opportunities for higher 
education and advanced skill training?
    Answer. Today's globally competitive economy has heightened the 
demand for a skilled workforce. Aligning the workforce system with the 
new economic realities of the 21st century is critical to ensuring that 
American workers and businesses are competitive in the global 
marketplace. The Department of Labor has strived to transform the 
workforce investment system into a demand-driven system that catalyzes 
and leverages all available resources to respond to regional 
businesses' need for a skilled workforce and create employment and 
advancement opportunities for workers. The Department has undertaken 
three key initiatives to create a demand-driven workforce investment 
system and increase opportunities for education and skills training:
  --Through the President's High Growth Job Training Initiative, ETA 
        has invested over $285 million in 150 partnerships among 
        employers, education programs, and the workforce investment 
        system. Each project targets the skill and talent needs of 
        high-growth, high-demand and transformational industries in our 
        Nation's economy and provides the resources necessary to train 
        workers in the skills demanded by the 21st century economy.
  --Community-Based Job Training Grants, also known as the Community 
        College Initiative, seek to address a critical shortcoming in 
        the workforce development capacity of many regions by 
        supporting community colleges to train workers for jobs in 
        high-growth, high-demand industries. Due to their close 
        connection to local labor markets, community colleges are well 
        positioned to understand the intricacies of local economies and 
        better prepare workers for occupations in these industries. The 
        Department has provided $250 million to 142 community colleges 
        and other entities under this initiative.
  --The Department launched the Workforce Innovation in Regional 
        Economic Development (WIRED) Initiative in February 2006 to 
        emphasize the critical linkage between workforce development 
        and economic development in regional economies. WIRED focuses 
        on the role of talent development in driving regional economic 
        competitiveness, job growth and prosperity for workers. Under 
        the WIRED Initiative, the Department has invested $260 million 
        and provided expert assistance to 26 regions across the Nation 
        to implement strategies that will create high-skill and high-
        wage opportunities for American workers.
    In addition, the administration has recently submitted Workforce 
Investment Act (WIA) reauthorization legislation to Congress that would 
improve the ability of the workforce investment system to support our 
Nation's competitiveness. The proposal would provide State and local 
communities with more flexibility to design streamlined workforce 
systems that best fit the unique needs of their economies. The WIA 
reauthorization proposal would also better serve the needs of American 
workers and employers by making more money directly available for 
education and training.

          Questions Submitted by Senator Kay Bailey Hutchison

  ADMINISTRATIVE FUNDING FOR STATE UNEMPLOYMENT COMPENSATION PROGRAMS

    Question. It is my understanding that the Resource Justification 
Model, currently being utilized to allot funds to the States to 
administer the State unemployment compensation program, is under review 
by DOL.
  --Could you explain how DOL is planning to comply with the current 
        Federal statutory requirements (i.e., to properly allocate 
        funding to States based on(1) determinations necessary for the 
        proper and efficient administration of the UI program, (2) the 
        population of the States, and (3) the estimated number of 
        persons covered by each State's law)?; or
  --Does DOL currently allocate State administration grants according 
        to these certain enumerated Federal requirements and 
        appropriately account for State populations and their 
        administrative efficiencies?
  --If you believe that DOL is properly allocating the UI 
        administrative grants, then could you explain how DOL, and its 
        current methodology, is in compliance with Federal law in its 
        administration of the grants to the States equitably?
    Answer. The Department of Labor has completed its review of the 
long-standing method by which the Department of Labor allocates funds 
to States to administer the unemployment compensation program. The 
Department determined that the method takes into account the statutory 
requirements of section 302(a) of the Social Security Act (SSA).
    Section 302(a) requires the Secretary to grant each State ``such 
amounts as the Secretary of Labor determines to be necessary for the 
proper and efficient administration . . .'' of the State's unemployment 
compensation law. In making this determination, the Department collects 
data through the Resource Justification Model (RJM) reflecting actual 
expenditures by States each year in administering their unemployment 
compensation laws. The Department uses these data along with its 
projections of the level of claims and employers in each State for the 
upcoming budget year to determine the amount allocated to each State. 
These allocations in total are constrained by the total amount 
appropriated for State Unemployment Insurance administration.
    The Department believes that all of the enumerated Federal 
requirements cited in section 302(a), including population, are 
appropriately accounted for in the allocation methodology. The statute 
does not assign weights to the various factors cited, thereby allowing 
the Secretary broad discretion. A key component of the allocation 
methodology is a State's claims workload level which is influenced by 
factors including the population of the State, its economic situation, 
and its unemployment compensation laws. In addition, a State's 
population is reflected in the number of wage records reported 
quarterly by employers and processed by States as a workload item 
funded in the allocation methodology. Wage records are also an 
excellent ``estimate of the number of persons covered by the State 
law'' cited in section 302(a).
    ``The cost of proper and efficient administration'' upon which the 
Secretary is to determine the allocation begins with the actual cost 
data collected by RJM. However, the allocation process takes into 
consideration each State's operating costs vis-a-vis other States, and 
adjusts downward (through an iterative mathematical process) the 
subsequent year allocations of States whose costs are comparatively 
higher, thus encouraging efficiency in program administration. Finally, 
the statute allows the Secretary to use other relevant factors which, 
for example, include the cost of space rental and maintenance, 
utilities costs, and personnel salaries and benefits.
    Each State's administrative funding allocation is based on State 
submitted data and a methodology which treats each State equally using 
the factors cited in section 302(a). Hence, the Department believes 
administrative funding for the unemployment compensation program is 
allocated equitably among States and in compliance with Federal 
requirements.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madam Secretary. I 
hope that our subcommittee here will do you a favor and give 
you more money than what you requested.
    The subcommittee will stand in recess to reconvene at 2 
p.m. on Tuesday, April 17, in room SD-124. At that time we will 
hear from Dr. Julie Gerberding, Director, Centers for Disease 
Control and Prevention and Dr. Thomas R. Insel, Director, 
National Institute of Mental Health.
    [Whereupon, at 11:28 a.m., Wednesday, March 28, the 
Subcommittee was recessed, to reconvene at 2 p.m. Tuesday, 
April 17.]

</pre></body></html>
